<html>
<title> - THE STATE OF THE OCEANS 2006</title>
<body><pre>[Senate Hearing 109-1148]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1148
 
                      THE STATE OF THE OCEANS 2006

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON NATIONAL OCEAN POLICY STUDY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 3, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
68-021                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

              SUBCOMMITTEE ON NATIONAL OCEAN POLICY STUDY

                JOHN E. SUNUNU, New Hampshire, Chairman
TED STEVENS, Alaska                  BARBARA BOXER, California, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              FRANK R. LAUTENBERG, New Jersey
JIM DeMINT, South Carolina
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 3, 2006...................................     1
Statement of Senator Boxer.......................................     3
    Prepared statement...........................................     3
Statement of Senator Lautenberg..................................     2
Statement of Senator Sununu......................................     1

                               Witnesses

Chrisman, Mike, Secretary for Resources, California Resources 
  Agency.........................................................    15
    Prepared statement...........................................    17
Kelly, Paul L., Co-Chairman, Joint Ocean Commission Initiative...    39
    Joint prepared statement.....................................    23
Lautenbacher, Jr., VADM Conrad C., U.S. Navy (Retired), Under 
  Secretary of Commerce for Oceans and Atmosphere; Administrator, 
  National Oceanic and Atmospheric Administration (NOAA), DOC....     6
    Prepared statement...........................................     8
Orbach, Dr. Michael K., Director, Duke University Marine 
  Laboratory; Professor, Marine Affairs and Policy, Nicholas 
  School of the Environment and Earth Science, Duke University...    40
    Prepared statement with attachment...........................    43
Panetta, Hon. Leon E., Co-Chairman, Joint Ocean Commission 
  Initiative.....................................................    21
    Joint prepared statement.....................................    23

                                Appendix

Connelly, John, President, National Fisheries Institute, prepared 
  statement......................................................    62
Farr, Hon. Sam, U.S. Representative from California, prepared 
  statement......................................................    60
Griffin, B. J., Executive Director, The Marine Mammal Center, 
  letter with attachments, dated August 2, 2006, to Hon. Barbara 
  Boxer..........................................................    81
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    59
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    61
Response to written questions submitted to Mike Chrisman by:
    Hon. Barbara Boxer...........................................    91
    Hon. Daniel K. Inouye........................................    92
    Hon. Frank R. Lautenberg.....................................    92
Response to written questions submitted to VADM Conrad C. 
  Lautenbacher, Jr. by:
    Hon. Barbara Boxer...........................................    65
    Hon. Daniel K. Inouye........................................    68
    Hon. Frank R. Lautenberg.....................................    71
Response to written questions submitted to Hon. Leon E. Panetta 
  by:
    Hon. Barbara Boxer...........................................    73
    Hon. Daniel K. Inouye........................................    77
    Hon. Frank R. Lautenberg.....................................    80


                      THE STATE OF THE OCEANS 2006

                              ----------                              


                        THURSDAY, AUGUST 3, 2006

                               U.S. Senate,
       Subcommittee on National Ocean Policy Study,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John E. 
Sununu, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Welcome to this hearing of the National 
Ocean Policy Study. This hearing on the state of the oceans 
2006 will serve as an opportunity to review the progress we've 
made in terms of ocean policy reform over the past few years 
and give us a chance to look forward, for the immediate and 
long-term priorities we should set for further legislation. I 
will note with regret from the outset, the absence of Admiral 
James Watkins, who was the Chairman of the U.S. Commission on 
Ocean Policy. We certainly hoped he could have been with us 
today but we do wish him a complete and speedy recovery. This 
Subcommittee has tackled a series of complex issues, including 
protection of coral reefs, prevention of the introduction of 
aquatic invasive species, preservation of sensitive coastal 
land and the promise of aquaculture in the open ocean. We have 
not yet addressed the way in which we govern our ocean 
resources or the current state of the Nation's lead ocean 
agency, the National Oceanic and Atmospheric Administration, 
known to all of us as NOAA.
    Today, I know we're going to hear a lot of important words 
like ecosystem or coordination that are often presented before 
committees like this, but it is my hope that we'll go a little 
bit beyond the jargon to really explore how NOAA can best 
achieve the many important missions we expect of it. I want to 
thank Senator Boxer for her continued work as Ranking Member of 
this Subcommittee. I think we've worked very well in a 
bipartisan way, on a number of the pieces of legislation that I 
discussed in my opening remarks. Much of the legislation 
approved by the Commerce Committee this year does deal with 
ocean policy and we'll keep pushing to get these important 
ideas considered, acted on, and passed into law. I want to ask 
that all the witnesses' submitted testimony and supplemental 
materials be made part of the hearing record and we will keep 
the record open for 2 weeks for any additional questions that 
members of the Commerce Committee might have for today's 
witnesses. Without objection, I will enter into the record the 
statement from Congressman Sam Farr and testimony from the 
National Fisheries Institute as well as supplemental materials 
that other senators would like to enter into the record. *
---------------------------------------------------------------------------
    * The information referred to has been printed in the appendix.
---------------------------------------------------------------------------
    Senator Sununu. I see that we are joined by Senator 
Lautenberg and we'll turn to him, at this point, for any 
opening remarks he might have.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. This is an 
important subject and I'm glad we're holding this hearing and I 
thank you for it.
    Hello? Oh, you want to hear me?
    Anyway, not to be repetitive, I thank the Chairman for 
holding this hearing. Coming from New Jersey, I've always loved 
the ocean. It means so much, not just to our economy, but also 
to the culture of our state. We've got a lot of coastline for a 
little bit of land and we treasure every drop of water that is 
in that ocean and the quality of its being. We are proud of our 
shore. It is a place where we go for recreation, for natural 
beauty, fishing and seafood or just to relax. Tourism is a 
major industry in New Jersey. We support almost 400,000 jobs. 
On the Jersey Shore; our appellation is the top attraction for 
visitors to our state. The same is true for all other members 
who represent coastal states. We all love our beaches and the 
coastal environment is critical to each of our state's 
economies. Unfortunately, while most people love the ocean, 
they don't always understand that the oceans are under siege. 
These threats include pollution, overfishing, ongoing threats 
to marine mammals theme, the impact of global warming and there 
is, despite the fact that there are some here who don't believe 
we are in a stage of global warming. I guess they carry a fan.
    There is mounting evidence that global warming is 
increasing the acidity of the oceans, which could have 
devastating effects on small organisms at the bottom of the 
food chain and I strongly support efforts to increase the 
appreciation and the involvement of the Congress in our oceans 
and the challenges that confront them. I have introduced a plan 
to expand ocean education programs in our Nation, spear-headed 
by NOAA and I'd appreciate hearing what our witnesses think 
about the need for more education about our oceans. The U.S. 
Commission on Ocean Policy; Pew Oceans Commission; each did 
excellent work to identify these challenges and I'm pleased 
that some of their members remain engaged in the public 
dialogue about our nation's oceans policy through the Joint 
Ocean Commission Initiative. There are many issues to discuss 
today and we probably won't get to them all, but one issue that 
must be discussed is funding. A budget is a blueprint of 
priorities and I am concerned about the Administration's 
commitment to protect and restore the oceans. It has proposed 
Fiscal Year 2007 budget cuts to several important NOAA 
programs. For example, NOAA's proposed budget includes 
elimination of funding for ongoing ocean and coastal research, 
including the LEO-15 project at Rutgers University in New 
Jersey, which conducts important underwater research in the 
Oceans and Human Health programs.
    So our oceans are facing enough man-made difficulties. We 
shouldn't compound the problem by refusing to allocate the 
resources that we must have in order to meet these challenges 
and I am grateful to the witnesses that we have appearing here 
and I thank you once again, Mr. Chairman, for calling this 
hearing.
    Senator Sununu. Thank you, Senator Lautenberg. I'd like to 
welcome Senator Boxer, our Ranking Member and invite her to 
give her opening statement.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thanks very much. First of all, I want to 
thank you so much. I very much enjoy working with you on this 
subcommittee and I think we've made some good progress. We 
agree that oceans are a precious resource. They are a vital 
source of food, recreation, and commerce for the United States 
and they hold promise for medical research and potential cures. 
Ocean diversity exceeds that of any other ecosystem on Earth 
and I think, clearly, we need to save the oceans. If ever there 
was a bipartisan issue, it's this and in my state, you see 
everyone, almost everyone, from every political persuasion, 
joining together to save the coast. I want to say that the 
Honorable Leon Panetta was one of the earliest voices on this 
and when I came to Congress, he was already well at work. We 
teamed up and seriously got everyone involved and so I would 
hope, if there were any time that we could prove that we can 
work together, it is now and it is on the oceans. In my state, 
the reason that I voted against that drilling bill that we just 
had, is because I think it opens the door, it incentivizes 
drilling and I think if you look at the oceans, just the way 
they are in their natural and beautiful state, they are an 
enormous economic resource. We won't get into the moral 
obligation that I believe we have to save the oceans but as an 
economic resource, nothing comes close to that. Nationally, the 
figure is $58 billion annually, one million, six hundred 
thousand jobs and that doesn't even include jobs and revenue 
from other oceans sectors, such as fishing and shipping. So 
we've worked hard on this subcommittee and on the full 
Committee on invasive species prevention, coral reef 
protection, coastal and estuary land protection. We have much 
more to do. I would ask that my full statement be placed in the 
record and I wanted to close with a couple of charts if I 
could.
    Senator Sununu. By all means.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    Mr. Chairman, I want to thank you for holding this important 
hearing on the state of the oceans. This is a great opportunity to 
confront head-on the urgent problems our oceans are facing and see what 
we have accomplished so far.
    The oceans are a precious resource--they are a vital source of 
food, recreation, and commerce for the United States, and hold untold 
promise for medical research and potential cures.
    Ocean diversity exceeds that of any other ecosystem on Earth--that, 
and the importance they play in coastal state economies, is why we must 
act to save them.
    This is particularly important to me because in California, as 
Secretary Chrisman can attest to, beautiful beaches are big business--
Mr. Chairman, I know you can appreciate that.
    In fact, according to 2003 statistics, California's ocean economy 
from tourism alone is $11.1 billion annually and accounts for 271,000 
jobs in my state.
    Nationally, for all coastal states, the figure is $58.8 billion 
annually and 1.6 million jobs--again, that does not include jobs and 
revenue from other ocean sectors such as fishing and shipping.
    This subcommittee has helped move bills out of the full Committee 
on invasive species prevention, coral reef protection, and coastal and 
estuary land protection. I am proud of what we have accomplished so 
far, but as you know, there is still much to be done.
    Mr. Chairman, I would like to submit for the record an excellent 
five-part series that is being published over this week in the LA Times 
on the health of the oceans.<SUP>**</SUP>
---------------------------------------------------------------------------
    \**\ The information referred to is printed in the appendix.
---------------------------------------------------------------------------
    It does a superb job of capturing how we have altered the oceans' 
ecosystem and how the impacts have direct consequences for our health 
and the health of our environment.
    For example, pollution, overfishing, and warming ocean temperatures 
have contributed to increased algal blooms, including algae that 
contain toxins that poison and kill wildlife and fish.
    The LA Times story also discussed how other toxic algal blooms are 
making beaches unsafe for children, including a 10 year old Florida 
boy, who suffers from terrible respiratory problems because of airborne 
toxic algae--Clearly, the oceans are in trouble.
    In June, I was surprised to hear President Bush speak so eloquently 
about the oceans. On June 15, he said the following:

        ``The vibrant beauty of the oceans is a blessing to our country 
        and it's a blessing to the world . . . We have a 
        responsibility, a solemn responsibility to be good stewards of 
        the oceans and the creatures who inhabit them.''

    Unfortunately, his Administration's policies are not matching these 
words. Indeed, just this week, the Administration and the Senate 
supported a bill that will lead to more drilling off the Gulf Coast, 
and could very well lead to more drilling off all of our states' coasts 
if it merges with an even worse House-passed drilling bill.
    Whatever eloquence the President expressed in June for the oceans 
was certainly not matched by his budget for the oceans for FY 2007.
    In June, he said:

        ``To fight the destructive effects of abandoned nets and other 
        debris, the ocean action plan directed the Coast Guard and EPA 
        and NOAA and the State Department and the Interior Department 
        to coordinate efforts to improve how the Federal Government 
        tracks, prevents and cleans up maritime waste. And we've got 
        more work to do. And I expect these agencies to be robust in 
        our efforts to prevent this kind of debris from polluting . . 
        .''

    Well, that sounds wonderful--however, in the same year he said 
those words, his budget zeroed out funding for NOAA's marine debris 
program--eliminated its funding!
    The President also spoke of our ``solemn responsibility to be good 
stewards of the oceans and the creatures who inhabit them.'' Yet, his 
budget nearly halved funding for NOAA's Marine Mammal protection 
program.
    Additionally, despite the promise of pharmaceutical research from 
the marine ecosystem, the President's budget also eliminated funding 
for NOAA's Oceans and Human Health program.
    This valuable program also researches the causes and effects of 
harmful algal blooms and seafood contamination, the relationship of 
climate change on coastal and human health, and other important health 
issues.
    Indeed, NOAA's overall budget was slashed by $227 million--6 
percent from the previous year's enacted figure!
    Despite the pollution, despite overfishing, despite all of the 
warnings of scientists and the Ocean Commission, the Administration 
cut--cut--ocean funding.
    Mr. Chairman, our oceans need more than occasional eloquence; we 
need more than an occasional proclamation. Our oceans are in trouble 
and we need real action.
    It is time for Congress to establish a strong NOAA in law, so that 
is can better accomplish its primary missions to conserve and manage 
the ocean, its ecosystem and resources, and conduct scientific research 
and educate the public.
    We need the Administration and this Congress to meaningfully commit 
to the oceans.
    This is a very distinguished panel and I am very pleased that this 
hearing has been called. I look forward to the testimony of the 
witnesses.

    Senator Boxer. OK. I want to pick up on where Senator 
Lautenberg left off and how proud I am that he is on this 
committee. We're actually on a couple of committees together 
that deal with the environment and I want to thank him for his 
continuing leadership. But he talked about what the budget 
reflects and I was so glad when President Bush spoke eloquently 
about the oceans. He said these words, ``The vibrant beauty of 
the oceans is a blessing to our country. It is a blessing to 
the world. We have a responsibility, a solemn responsibility to 
be good stewards of the ocean and the creatures who inhabit 
them.'' And then there is the quote. It is a beautiful quote. 
It could be said by every one of us, again, regardless of 
political party but then we want to look at his budget and this 
is what happens.
    Could you hold it up a little higher? The Marine Debris 
program is eliminated, from $4.9 million. Oceans and Human 
Health, eliminated from $5.2 million. Marine Mammals, cut to 
$23 million from $40.2 million. Marine Aquaculture, cut to $1.5 
million from $4.5 million. Coastal and estuarian land, 
eliminated from $38.9 million. So, Mr. Chairman, in closing, we 
really do have a job to do. I hope we can restore these cuts 
working together but we could say all the things we want to say 
but if we don't really show that we mean it by investing in 
this resource that is, in many cases, certainly in my state, an 
economic engine of our economy, an economic engine, then I 
think it is useless to say these words. We shouldn't be saying 
these words if we don't really mean what we say. Thank you very 
much.
    Senator Sununu. Thank you, Senator Boxer. And we are indeed 
joined by a panel that I would consider to be the right people 
to try to answer those questions, talk about priorities, to 
talk about where whatever resources we do have, whether they 
are limited or not, should be applied. We are joined by, going 
right to left, our right to left, Vice Admiral Conrad 
Lautenbacher, who is the Under Secretary for Oceans and 
Atmosphere at NOAA, Secretary Mike Chrisman, who is 
coincidentally enough from California, the Head of the 
California Resources Agency; Leon Panetta, to whom you 
referred, who was Co-Chairman of the Joint Ocean Commission 
Initiative; Mr. Paul Kelly, who was a Commissioner on the U.S. 
Commissions on Ocean Policy and Professor Michael Orbach of 
Duke University Marine Laboratory. I think this panel reflects 
a nice cross-section, both of academics and policymakers and 
regulators, people who have responsibility for oversight but 
also people who have clearly shown in their past, a great 
commitment to protecting, maintaining, preserving, and wise use 
of our ocean resources. So I welcome you all. We'll begin with 
Admiral Lautenbacher. Please, if you are able, keep your 
remarks to 5 minutes and rest assured, any formal statement or 
additional materials will be included in the final record. 
Welcome, Admiral.

   STATEMENT OF VADM CONRAD C. LAUTENBACHER, JR., U.S. NAVY 
     (RETIRED), UNDER SECRETARY OF COMMERCE FOR OCEANS AND 
  ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
                   ADMINISTRATION (NOAA), DOC

    Admiral Lautenbacher. Thank you, Mr. Chairman. Is this on? 
OK. It looks like it. Can you hear me? OK, great.
    Mr. Chairman, Senator Boxer, Senator Lautenberg, 
distinguished Members of the Committee, thank you very much for 
the opportunity to testify before you on this very important 
subject. Before I start, I have to thank you for your support 
and interest in this area, which is near and dear to my heart 
and this is an important part of, I think, the public dialogue 
on the way we should progress with our oceans. I'm also very 
honored to be testifying with these distinguished gentlemen and 
colleagues in the ocean community. They have spent a great deal 
of time and effort to promote the health and well being of our 
oceans and coasts.
    As a Nation, we benefit enormously from marine resources. 
More than half of the population--141 million people--live 
within 50 miles of the coast and the number is expected to grow 
significantly in the coming years. More than 95 percent of U.S. 
overseas trade comes and goes by our oceans and U.S. consumers 
spend over $55 billion a year for seafood and fisheries 
products. Oceans are home to the majority of the world's living 
organisms and are a critical component of the Earth's climate 
system. It is hard to overstate the importance of the oceans 
yet at a time of increasing dependency, our oceans are in 
trouble. To help our Nation better understand the challenges 
facing the oceans and to look for ways to improve management, 
Congress established the U.S. Commission on Ocean Policy. The 
Commission's report addressed a broad range of ocean and 
coastal topics with more than 200 recommendations. These 
included enhancing ocean leadership, better coordination at all 
levels of government, increasing ocean research and moving 
toward an ecosystem-based management. In response, the 
President established a cabinet-level committee on ocean 
policy, whose membership includes nine Federal departments, 
numerous independent agencies and several key White House 
offices. The Committee created a framework to coordinate the 
oceans and coastal-related activities of more than 20 Federal 
agencies that administer more than 140 laws. The President also 
released a U.S. Ocean Action Plan, which identifies immediate, 
short-term, and long-term actions necessary to manage more 
effectively our ocean and coastal resources. The committee 
oversees the implementation of the Ocean Action Plan with its 
inter-agency support bodies and we are taking our roles and 
duties very seriously. White House involvement through CEQ and 
OSTP has also been critical. They have provided the high-level 
guidance and support necessary to focus the committee on 
achievable goals in order to maintain its momentum. Recent 
efforts by the committee have focused on developing an Ocean 
Research Priorities Plan. This plan will provide strategic 
direction for future research, foster more collaboration 
between agencies and set priorities among competing demands. A 
draft version of this plan will be later reviewed by the 
National Academy of Sciences at the end of the summer. NOAA is 
the lead or co-lead on a majority of the tasks contained within 
the Ocean Action Plan. Our activities include developing a 
status report on deep-sea corals in the EEZ, working jointly 
with EPA to conduct community-based workshops to improve 
watershed protection and improving navigation into and out of 
our Nation's ports by enhancing our observations networks. 
Resource protection is a major component of the Ocean Action 
Plan. NOAA plays a crucial role. I was honored to be with the 
President as he recently designated the Northwestern Hawaiian 
Islands as a Marine National Monument. The creation of the 
largest marine conservation area in the world is an exciting 
achievement and recognizes the value of marine resources to our 
Nation. For the first time in history, NOAA will play a leading 
role in managing a national monument. Last week, NOAA 
established the Aleutian Islands Habitat Conservation Area in 
Alaska, which covers 280,000 square nautical miles, a historic 
measure that will protect essential fish habitat. This follows 
closely on the heels of our announcement last month of similar 
habitat protection measures off the coast of Washington, Oregon 
and California. In designating these areas, NOAA worked with 
local, state and regional partners to restrict fishing 
activities that can destroy sensitive habitats on the ocean 
floor. NOAA strongly embraces this regional approach to ocean 
and coastal management as emphasized by both the Ocean 
Commission and the Administration's Ocean Action Plan. Another 
major component of our efforts to improve conservation and 
management is an enhanced, Integrated Ocean Observing System 
known as IOOS. It is a network of systems that will provide 
observations and manage the way data--it will enable us to make 
better decisions. The Administration designated NOAA as the 
Federal lead agency for implementation of the IOOS. We have 
been working with our partners to develop design concepts, to 
ensure it meets the varied needs of local, regional and 
national users. The goal for IOOS is to be part of the larger, 
Global Earth Observation System of Systems or GEOSS. Taken 
together, all of these observations will give us the pulse of 
the planet and significantly enhance our ability to conserve 
and properly manage Earth's most critical resources.
    While the Administration continues to make progress in 
implementing the Ocean Action Plan, Congress has a critical 
role to play as well. In addition to providing funding and 
oversight, we are hopeful Congress will pass several key pieces 
of legislation. The passage of the NOAA Organic Act would 
authorize and consolidate into one law, its divergent roles and 
responsibilities that now reside in more than 200 separate 
statutes.
    I will be brief here to finish up. Reauthorization of the 
Magnuson-Stevens Fishery, Conservation and Management Act is 
also critical to our efforts. I thank the members of this 
Committee and the staff for your support and leadership in 
getting the bill through the Senate. Another important priority 
for us from the Ocean Action Plan is the National Offshore 
Aquaculture Act. This bill would provide the Department of 
Commerce the authority to regulate aquaculture in Federal 
waters. I greatly appreciate your efforts so far in promoting 
this legislation.
    In conclusion, our coasts, oceans and Great Lakes are more 
important to us now than ever. The Commission on Ocean Policy 
and the Administration's Ocean Action Plan has provided us with 
a roadmap to foster more effective management and conservation 
of ocean and coastal resources. NOAA is critical to our 
Nation's ability to navigate that map and to achieve our 
destination, a world that contains healthy and sustainable 
resources for future generations. I look forward to continuing 
to work with you on this journey and I am happy to answer any 
questions you might have. Thank you, Mr. Chairman.
    [The prepared statement of Admiral Lautenbacher follows:]

   Prepared Statement of VADM Conrad C. Lautenbacher, Jr., U.S. Navy 
   (Retired), Under Secretary of Commerce for Oceans and Atmosphere; 
Administrator, National Oceanic and Atmospheric Administration (NOAA), 
                                  DOC

    Good afternoon Chairman Sununu, Senator Boxer, and members of the 
Committee. I am Vice Admiral Conrad Lautenbacher, Under Secretary of 
Commerce for Oceans and Atmosphere and Administrator of the National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce. Thank you for the opportunity to testify before you today on 
NOAA's response to the final report of the U.S. Commission on Ocean 
Policy and our role in implementing components of the Administration's 
response to that report--the U.S. Ocean Action Plan.
    On September 20, 2004, the U.S. Commission on Ocean Policy 
fulfilled its Congressional mandate to submit recommendations for a 
coordinated and comprehensive national ocean policy to the President 
and Congress. The Commission's final report, An Ocean Blueprint for the 
21st Century, contains 212 recommendations addressing a broad range of 
ocean and coastal topics. The U.S. Commission on Ocean Policy outlined 
the need for enhancing ocean leadership and coordination, developing 
the institutional capacity to coordinate across jurisdictional 
boundaries, and strengthening the agency structure in phases in order 
to enhance the goal of addressing management needs through an 
ecosystem-based approach.
    In response to the Commission's findings and recommendations, the 
President issued Executive Order 13366, on December 17, 2004, 
establishing a Cabinet-level Committee on Ocean Policy, whose 
membership includes the Secretaries of Commerce, State, Defense, the 
Interior, Agriculture, Health and Human Services, Transportation, 
Energy, and Homeland Security, and the Attorney General. Other members 
of the Committee on Ocean Policy include the Administrator of the 
Environmental Protection Agency, the Director of the Office of 
Management and Budget, the Administrator of the National Aeronautics 
and Space Administration, the Director of National Intelligence, the 
Director of the Office of Science and Technology Policy, the Director 
of the National Science Foundation, and the Chairman, Joint Chiefs of 
Staff; and the Assistants to the President for National Security 
Affairs, Homeland Security Domestic Policy, Economic Policy, and an 
employee of the Office of the Vice President. The Committee on Ocean 
Policy created a framework to coordinate the ocean and coastal related 
activities of over 20 Federal agencies that administer over 140 laws, 
and facilitates coordination and support to the numerous state, tribal, 
and local programs with the overall goal of improved ocean governance. 
At the same time, the President released the U.S. Ocean Action Plan, 
which identifies immediate short-term and long-term actions necessary 
to more effectively manage coastal and ocean resources.
    Both the final report of the U.S. Commission on Ocean Policy, and 
the U.S. Ocean Action Plan, recognize that partnerships are vital to 
halting the degradation of our oceans, and to our realizing their full 
potential. Thus, an underlying theme of my testimony today is 
``partnerships are essential for success.'' There are many agencies 
with important ocean and coastal responsibilities with which NOAA 
partners, and we take great pride and place great importance in 
continuing to strengthen our role as the lead civilian ocean agency.
    NOAA is at the center of the Federal Government's understanding, 
awareness, and stewardship of our ocean resources and has been given a 
lead role in carrying through on the U.S. Ocean Action Plan. Because of 
the size and breadth of NOAA's involvement in the implementing 
activities, today I will highlight just a few results from the six 
sections of the plan. These will demonstrate how NOAA is actively 
working with Federal, state, tribal, and international partners, as 
well as Congress and other stakeholders, to meet our Nation's 
challenges with respect to the oceans. In addition, I will highlight a 
few of the legislative priorities that would allow NOAA to improve its 
effectiveness at addressing issues raised by the U.S. Commission on 
Ocean Policy.

U.S. Ocean Action Plan--Enhancing Ocean Leadership and Coordination
Coordinated Ocean Governance Structure
    The Committee on Ocean Policy conducts its operational work through 
the Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI) and its subordinate bodies, the Subcommittee on 
Integrated Management of Ocean Resources (SIMOR) and the National 
Science and Technology Council's (NSTC) Joint Subcommittee on Ocean 
Science and Technology (JSOST). Within this new coordinated ocean 
governance structure (Figure 1), ICOSRMI is incorporating the mandate 
and functions of the National Oceanographic Partnership Program's 
(NOPP) National Ocean Research Leadership Council (NORLC) into its 
broader ocean and coastal policy mandate, which now includes ocean 
resource management. The purpose of a high-level group like the ICOSRMI 
is to provide oversight to the implementation of the U.S. Ocean Action 
Plan, and direct further actions to advance ocean science and resource 
management activities. The ICOSRMI is comprised of Under/Assistant 
Secretaries or their equivalents from the Executive Branch agencies and 
departments of the Committee on Ocean Policy, and is co-chaired by the 
White House's Council on Environmental Quality (CEQ) and Office of 
Science and Technology Policy. The White House involvement in this 
effort has been critical to providing the high-level guidance and 
support necessary to focus the group on achievable goals, and to 
maintain its momentum, and I play an active role in ICOSRMI and its 
bimonthly meetings.
    In addition to my role in ICOSRMI, NOAA has taken a leadership role 
in both SIMOR and the JSOST, serving as Co-Chair on each respective 
group and further supporting their activities. SIMOR seeks to identify 
and promote opportunities for collaboration and cooperation among 
agencies on resource management issues, and to build partnerships among 
Federal, state, tribal, and local authorities, the private-sector, 
international partners, and other interested parties.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    SIMOR's counterpart in the new coordinated ocean governance 
structure is the JSOST. The principal roles of JSOST are to identify 
national ocean science and technology priorities and to facilitate 
coordination of disciplinary and interdisciplinary ocean research, 
ocean technology and infrastructure development, and the development 
and implementation of the U.S. Integrated Ocean Observing System 
(IOOS). The JSOST was created through expansion of the former NSTC's 
Joint Subcommittee on Oceans in 2005 to include the issues of science 
and technology. Because of this evolution, the JSOST continues to 
report to the NSTC Committee on Science and the Committee on 
Environment and Natural Resources, in addition to the ICOSRMI.
    ICOSRMI seeks advice from its Federal advisory committee, the Ocean 
Research and Resource Advisory Panel, comprised of 18 members from 
academia, as well as the public- and private-sectors, with interest and 
expertise in ocean science and resource management. ICOSRMI also 
coordinates with the National Security Council Policy Coordinating 
Committee--Global Environment, Subcommittee on Ocean Policy.

NOAA's Implementation of the U.S. Ocean Action Plan
    The tenets of the U.S. Ocean Action Plan include: developing 
management strategies that ensure continued conservation of our ocean, 
coastal and Great Lakes resources, while at the same time ensuring that 
the American public enjoys and benefits from them; employing the best 
science and data to inform decisionmaking; working toward an ecosystem-
based approach to management; and, where possible, employing economic 
incentives over mandates.
    CEQ designated NOAA as lead, or co-lead, on 45 items from the U.S. 
Ocean Action Plan. The diverse range of actions begun by NOAA to date 
include developing a status report on deep sea corals in the U.S. 
Exclusive Economic Zone, working jointly with the U.S. Environmental 
Protection Agency (EPA) to conduct community workshops to improve 
watershed protection, and improving navigation by updating the National 
Water Level Observation Network. NOAA also continues to emphasize the 
importance of local and regional leadership in ocean management, co-
leading with EPA the Federal working group supporting the Gulf of 
Mexico Alliance, participating in the Great Lakes Regional 
Collaboration, and joining other SIMOR members in working with 
interested states to move forward to new regional initiatives such as 
the Northeast Regional Ocean Council. These regional bodies possess the 
unique ability to focus discussion on areas of most need, and provide 
lasting commitments to the stewardship of regional resources by those 
most affected by them.
    Recognizing the continuing need for resource protection, President 
Bush designated the Northwestern Hawaiian Islands as a marine national 
monument on June 15. Encompassing nearly 140,000 square miles, the 
monument covers an area larger than all of our national parks put 
together. This designation builds upon the public sanctuary designation 
process, and provides lasting protection to this important resource. 
The creation of the largest marine conservation area in the world is an 
exciting achievement and recognizes the value of marine resources to 
our Nation.
    For the first time in its history, NOAA will play a leading role in 
managing a national monument. This will be an exciting new opportunity 
and one that will present many challenges. Thankfully, we will have 
great partners in the Department of the Interior (DOI) and the State of 
Hawaii to help us as we go forward.
    I think President Bush said it best: ``You know, in America, 
there's a great consensus that we have an obligation to be good 
stewards of the environment. Success of a generation is not defined by 
wealth alone. We also will be measured by the respect we give to the 
precious creatures of our natural world. We have great choices before 
us in this country. And with the designation of the Northwestern 
Hawaiian Island Marine National Monument, we are making a choice that 
will leave a precious legacy.''
    In my view, progress on implementing the U.S. Ocean Action Plan has 
been significant as highlighted below and NOAA will continue to work to 
enhance its partnerships in order to meet present and future 
challenges.

Legislative Priority--NOAA Organic Act
    An ocean leadership priority identified in both the final report of 
the U.S. Commission on Ocean Policy and the U.S. Ocean Action Plan is 
the passage of a NOAA Organic Act. We believe it is necessary to 
consolidate into one authorization NOAA's myriad purposes and 
responsibilities, which now reside in over two hundred separate 
statues. It should encompass the full spectrum of NOAA's 
responsibilities, including programs to protect and restore the 
Nation's fisheries, and its responsibilities to provide products that 
foster safe transportation on marine highways. The Administration 
transmitted a proposal for such legislation to Congress in April 2005, 
and we are hopeful that this Committee will play an integral part in 
its passage. Most importantly, NOAA believes the agency must maintain 
its current flexibility in determining how best to structure itself to 
address current and future needs. In responding to the recommendations 
of the U.S. Commission on Ocean Policy thus far, flexibility has proved 
to be a vital tool for NOAA leadership. An organizational structure 
that serves the Nation well today may not be the best structure to 
serve the Nation in the future. We believe that specific programmatic 
changes should be made through authorization bills that are revisited 
every few years. We would be happy to work with the Committee on such 
bills.

U.S. Ocean Action Plan--Advancing Our Understanding of the Oceans, 
        Coasts, and Great Lakes
Ocean Research Priorities Plan
    As outlined in the U.S. Ocean Action Plan, an important role of the 
JSOST within the interagency process is to improve our understanding of 
oceans, coasts, and Great Lakes by seeking enhanced collaboration, 
coordination, cooperation, and synergies. JSOST's recent efforts focus 
on developing an Ocean Research Priorities Plan and an Implementation 
Strategy for the plan. This plan will provide strategic direction for 
future research and articulate priorities among competing demands for 
scientific information. These documents are being prepared in an open 
and transparent manner with advice from the ocean research community 
(government, academic, industry, and other nongovernment entities), 
including SIMOR and the National Academy of Sciences. A national 
workshop with several hundred participants from academia, as well as 
the public- and private-sectors, convened earlier this spring to 
solicit input for the plan. A draft version of this plan will be 
available to the public and the National Academy of Sciences for review 
later this summer.
    NOAA is undertaking a number of other activities in partnership 
with external partners or other agencies to enhance our scientific 
knowledge of marine ecosystems. These include a review of ecosystem 
science, integrating U.S. ocean observations, ocean and coastal 
mapping, coordinating ocean education, and hosting a conference on 
ocean literacy.

NOAA External Ecosystem Science Review
    NOAA is currently engaged in an effort, through the NOAA Science 
Advisory Board, to solicit external input to evaluate and strengthen 
the structure and function of ecosystem research within NOAA. This will 
allow NOAA to better address changing needs for ecosystem-based 
management. The NOAA Science Advisory Board formed an external panel, 
named the External Ecosystem Task Team, to conduct this external 
ecosystem science review. The External Ecosystem Task Team recently 
published a preliminary report on its findings for public comment. NOAA 
anticipates that the team's final report will assist the agency in 
identifying the scientific activities conducted, and/or sponsored by 
NOAA, that meet its ecosystem science needs, including its legislative 
and regulatory requirements, and will also organize its ecosystem 
research and science enterprise.

Integrate U.S. Ocean Observing Efforts
    The U.S. Ocean Action Plan and the final report of the U.S. 
Commission on Ocean Policy endorse implementation of a sustained 
Integrated Ocean Observing System (IOOS). NOAA is pleased that the 
goals of S. 361, The Ocean and Coastal Observation System Act of 2005, 
passed by the Senate in July 2005, are similar to the Administration's 
goals outlined in its report to Congress on, An Integrated and 
Sustained Ocean Observing System for the United States: Design and 
Implementation. These goals are also similar to the ICOSRMI approved 
planning document, The First U.S. Integrated Ocean Observing System 
Development Plan. IOOS is the U.S. component of the Global Ocean 
Observing System, and is the key ocean component of the U.S. Integrated 
Earth Observation System (IEOS) now being developed. Both IOOS and IEOS 
will become part of GEOSS--the Global Earth Observation System of 
Systems. IOOS is envisioned as an interagency, end-to-end system 
designed to meet seven societal goals by integrating research, 
education, and the development of sustained ocean observing 
capabilities. Ocean.US, the National Office for Integrated and 
Sustained Ocean Observations, has the lead for planning the multi-
agency IOOS effort. NOAA is heavily involved in this planning, and has 
been designated by the Administration as the lead Federal agency for 
administration and implementation of IOOS. Coordination between 
agencies will continue to grow as the Interagency Working Group on 
Ocean Observations (IWGOO), chaired by NOAA with Vice Chairs from the 
National Aeronautics and Space Administration (NASA), the Navy, and the 
National Science Foundation (NSF), is established under the JSOST.
    NOAA, NASA, NSF and other Federal agencies working through the 
JSOST, in partnership with private-sector entities, are actively 
working on design concepts for IOOS to ensure it meets the varied needs 
of local, regional, and national users. NOAA has awarded two six-month 
industry contracts to Lockheed Martin Corporation and Raytheon 
Corporation. These companies will develop a comprehensive, ``end-to-
end,'' conceptual design and cost estimate, along with a narrative 
explanation, that could help structure NOAA's efforts for implementing 
IOOS and shape how IOOS fits into GEOSS. To ensure consistency with the 
broader observing system community, resulting conceptual designs will 
be structured according to the three IOOS subsystems: data management 
and communications, national backbone, and regional ocean observing 
system components coordinated with the IWGOO agencies and other IOOS 
partners, such as the U.S. IOOS Regional Associations. The two 
conceptual designs with viability narratives and cost estimates are 
expected in early September 2006. Additionally, NOAA has continued to 
work with regional entities to establish organizational structures that 
capture local and regional needs. To date, 11 IOOS Regional 
Associations are working on plans for regional implementation of the 
IOOS, including the development of Regional Coastal Observing Systems.

Ocean and Coastal Mapping Activities
    Improved information on our ocean and coastal areas is essential to 
improved management and advances in ocean and coastal management and 
science. NOAA is working with its interagency partners to advance our 
Nation's capabilities in this area, taking advantage of new 
technologies such as LIDAR (Light Detection and Ranging) and autonomous 
underwater vehicles. Among its efforts, NOAA is working to ensure the 
most effective use of our fleet of research vessels and aircraft by 
integrating our multiple program mapping requirements, developing new 
techniques for data acquisition, working with other agencies, and 
making seamless the use of our mapping missions. We are building a 
Geographic Information System support tool to be able to better plan 
and integrate mapping efforts in order to narrow the gaps between 
current program mapping capability, and a modern fully integrated ocean 
mapping system. The goal is to meet the broadest range of program needs 
and eliminate duplicative efforts in NOAA's ocean and coastal mapping 
activities. In addition, NOAA is working with other agencies to develop 
an inventory of coastal and ocean mapping programs, their existing 
data, and planned acquisitions, along with a web-based system to search 
and display records from the inventory.

Increase Ocean Education Coordination
    Together, SIMOR and the JSOST have formed the joint Interagency 
Working Group on Ocean Education, to identify opportunities and 
articulate priorities for enhancing ocean education, outreach, and 
capacity building. Improved ocean management requires an ocean literate 
public and, to this end, NOAA is committed to advancing lifelong ocean 
education. Our formal and informal activities include scholarship and 
fellowship programs, education and research grants, and strategic 
partnerships with education institutions and industry. In 2005, NOAA 
provided scholarship and internship opportunities to over 150 
undergraduate students and 57 graduate scholarship opportunities. In 
2005, 28 teachers participated in NOAA's Teacher at Sea Program. NOAA's 
education investment is also geared toward hiring students trained 
through these scholarship and internship opportunities. Through June 
15th, NOAA had hired 31 students trained through its Graduate Sciences 
Program.
    To raise national attention to the need for ocean literacy, NOAA, 
with EPA, DOI, NSF, NASA, and the National Marine Sanctuary Foundation, 
co-hosted CoOl--the Conference on Ocean Literacy--on June 7-8, 2006, in 
Washington, D.C., as part of the Presidentially-proclaimed National 
Oceans Week, June 4-10. The conference brought together key 
participants to discuss the essential principles of ocean literacy, and 
the current challenges and opportunities for both formal and informal 
education efforts in educating the public to make informed, responsible 
decisions about the ocean and its resources. This partnership event 
also identified priority next steps we can take to advance ocean 
literacy. The conference extended beyond Washington, D.C., through five 
regional workshops hosted by aquariums across the country including: 
Aquarium of the Pacific, Long Beach, CA; John G. Shedd Aquarium, 
Chicago, IL; J.L. Scott Aquarium, Ocean Springs, MS; National Aquarium 
in Baltimore, Baltimore, MD; and National Mississippi River Museum and 
Aquarium, Dubuque, IA. Each site viewed portions of the presentations 
via satellite and discussed regional challenges and opportunities for 
promoting ocean literacy principles.

U.S. Ocean Action Plan--Enhancing the Use and Conservation of Ocean, 
        Coastal, and Great Lakes Resources
SIMOR Work Plan
    Established as part of the Committee on Ocean Policy, SIMOR 
provides a strong mechanism to coordinate Federal activities and 
respond to regional concerns, and is jointly co-chaired by NOAA, EPA, 
DOI, and CEQ. It has fostered mutual interest and proactive dialog 
among agencies in addressing difficult resource management issues that 
cross jurisdictional boundaries. SIMOR has developed a work plan with 
21 actions that build on the U.S. Ocean Action Plan. NOAA has a 
leadership role in 12 of these actions and participates in nearly all 
of the others. Examples of the benefits of SIMOR activities include: 
improved understanding of an ecosystem approach to management through 
regional workshops, and the development of educational standards for 
resource managers; coordinated Federal support to new and ongoing 
regional partnerships; and formation of a Federal-state team of 
resource managers to provide timely input into the JSOST's, and 
development of the Ocean Research Priorities Plan.

Implement Coral Reef Local Action Strategies
    The Federal agencies and seven jurisdictions (Florida, Hawaii, 
Guam, American Samoa, Puerto Rico, the U.S. Virgin Islands and the 
Commonwealth of the Northern Marianas Islands) that comprise the U.S. 
Coral Reef Task Force, as well as the freely-associated states, have 
developed and begun implementing Coral Reef Local Action Strategies to 
address key threats to coral reefs in their respective jurisdictions. 
The action strategies provide a framework for Task Force member 
agencies to identify, and collaboratively address, these threats and 
additional local needs, connect local priorities to national goals, and 
coordinate Federal agency actions with local management of reef 
resources. This effort is a significant step forward in advancing the 
goal of cooperative conservation between the Federal, state, 
territorial, and commonwealth governments. NOAA, DOI, EPA, and the 
Department of Agriculture have been key partners in implementing the 
action strategy effort and building local capacity for coral reef 
conservation and management. For example, agencies organized a 
successful Caribbean Coral Reef Grants and Funding Opportunities 
Workshop in August 2005 to help state and local partners identify and 
pursue funding opportunities for local action strategy support. A Coral 
Reef Grants Funding Workshop was held in late June 2006 for Hawaii that 
was organized by local agencies and highlighted priority projects. 
Similar workshops will be held in Guam and the Commonwealth of the 
Northern Marianas Islands.

Legislative Priority--Reauthorization of Magnuson-Stevens Fishery 
        Conservation and Management Act
    A number of actions highlighted within the U.S. Ocean Action Plan 
intend to improve coordination and effectiveness of marine fisheries 
management activities. Reauthorization of the Magnuson-Stevens Act is a 
high priority of the Administration and I would like to thank the 
Members of this Committee, and the Senate, for your leadership in 
recently passing the reauthorization of the Magnuson-Stevens Act. My 
hope is that we will soon see similar action taken in the House.

Legislative Priority--National Offshore Aquaculture Act
    In June 2005, the Administration released its National Offshore 
Aquaculture Act. Subsequently, Senator Stevens introduced S. 1195. 
Since that time, this Committee hosted a hearing on the bill in April 
2006, and a second hearing on June 8, 2006. Enactment of S. 1195 will 
provide the Department of Commerce the authority to regulate 
aquaculture in Federal waters, and to establish a coordinated process 
among the Federal agencies. We envision a one-stop regulatory shop, 
coordinated by NOAA, and integrated into NOAA's environmental 
stewardship responsibilities. I appreciate the work and leadership of 
this Committee to move legislation forward to allow NOAA to begin a 
public rulemaking process to produce a comprehensive, environmentally-
sound permitting and regulatory program for aquaculture in Federal 
waters.

U.S. Ocean Action Plan--Managing Coasts and Their Watersheds
Gulf of Mexico Alliance
    One example of SIMOR's role in enhancing coordination on managing 
coasts and watersheds is the Gulf of Mexico Alliance. In response to 
priorities articulated by the states of Alabama, Florida, Louisiana, 
Mississippi, and Texas, this initiative brought together 13 agencies 
under the leadership of NOAA and EPA. The Alliance formally released 
the Governors' Action Plan for Healthy and Resilient Coasts at the Gulf 
of Mexico Summit in March 2006, which includes 11 key actions across 
the Alliance's five priority issues; water quality, restoration, 
environmental education, habitat identification for management 
purposes, and reductions in nutrient loadings. In order to capture 
local community input during the development of the Governors' Action 
Plan, the Gulf Alliance hosted a series of eight Community Workshops 
across the five U.S. Gulf States from June 2005, to February 2006. Some 
of the expected outcomes from this effort are improvement in Gulf water 
quality, with an emphasis on healthy beaches and shellfish beds, and 
restoration and conservation of coastal wetlands.

Cooperative Conservation Executive Order
    The Administration remains committed to the tenets of Cooperative 
Conservation, as outlined in the Executive Order of 2 years ago. Last 
year, at the White House Conference on Cooperative Conservation, NOAA 
announced a new grants program to aid communities in removing small 
obstructions to their rivers. The goal of the Open Rivers Initiative 
(ORI) is to not only improve habitat for diadramous fish populations, 
but also foster new economic development opportunities. In addition to 
ORI, NOAA will continue to find new and innovative ways to advance 
Cooperative Conservation throughout the agency.

U.S. Ocean Action Plan--Supporting Marine Transportation
Interagency Committee on the Marine Transportation System
    Consistent with the final report of the U.S. Commission on Ocean 
Policy, the U.S. Ocean Action Plan called for the elevation of the 
previous Federal interagency marine transportation effort--the 
Interagency Committee on the Marine Transportation System--and directed 
the creation of a Cabinet-level interagency committee on marine 
transportation. As a result the Committee on the Marine Transportation 
System (CMTS), an interagency committee with 14 member agencies and 
chaired by the Secretary of Transportation, was established in April 
2005. I am proud to say that the Department of Commerce, with strong 
representation by NOAA, is a charter member of the CMTS, and actively 
supports its mission. The purpose of the CMTS is to promote a 
partnership of Federal agencies with responsibility for the Marine 
Transportation System (MTS)--waterways, ports, and their intermodal 
connections--to ensure the development and implementation of national 
MTS policies, and to communicate to the President its views and 
recommendations for improving the MTS.
    The CMTS is executing a work plan that will provide a comprehensive 
assessment of the MTS; development of an MTS national strategy; 
improved collection and management of MTS data; and development of a 
decisionmaking matrix for improved coordination and response to natural 
disasters affecting the Nation's MTS.

U.S. Ocean Action Plan--Advancing International Ocean Policy and 
        Science
Advance the Use of Large Marine Ecosystems
    The U.S. Ocean Action Plan included a chapter on implementing 
international efforts. Several of the action items in the Ocean Action 
Plan include international components. However, as many of today's 
challenges to our oceans and coasts are transboundary and international 
in nature and scope, the Plan also includes a section that addresses 
the advancement of international ocean policy and science. One example 
of these efforts is a new partnership that has been developed to link 
the United Nations Environment Programme Regional Seas Programme and 
the use of the NOAA-originated concept of Large Marine Ecosystems 
(LMEs). This partnership acts as a tool for enabling ecosystem-based 
management to provide a collaborative approach to management of 
resources within ecologically-bounded transnational areas. This effort 
has attracted funding from the Global Environmental Facility and 
various donor countries, specifically focusing on capacity building in 
the developing world. LME sponsored projects are underway in 10 regions 
involving 70 countries, and seven new projects are planned with an 
additional 51 countries participating. NOAA has contributed in-kind 
technical expertise to assist the planning and implementation of these 
programs.

2007 Budget Priorities
    NOAA continues to streamline activities and shift priorities to 
support and implement the President's U.S. Ocean Action Plan. 
Legislative action on the priorities identified could greatly enhance 
NOAA's ability to implement the activities outlined within the U.S. 
Ocean Action Plan. While NOAA is realizing efficiencies in programs 
through partnering with Federal, state, local, and international 
entities, NOAA has also identified a need for additional budget support 
to fully implement activities of interest to this Committee. I would 
like to thank the Senate for the support you have recently shown NOAA 
through the appropriations process. NOAA appreciates your continued 
support for our programs as we execute our responsibilities under the 
U.S. Ocean Action Plan and work together to improve our products and 
services for the American people. These resources are vital to meeting 
the challenges facing our Nation's oceans.

Conclusion
    In conclusion, I would like to reiterate the importance of the 
efforts of the U.S. Commission on Ocean Policy, and stress that NOAA is 
strongly committed to continued implementation of the related 
recommendations of the U.S. Ocean Action Plan, as well as through 
improvements in existing program management and partnerships. NOAA will 
continue to work with its partners in a collaborative and systematic 
fashion, as we believe collaboration is critical to the ongoing 
development of our national ocean policy. We look forward to continuing 
to work with the members of the Committee in raising the bar for the 
long-term conservation and management of our coastal and ocean 
resources.
    Thank you again for your time and I am happy to answer any 
questions that the Members of the Committee may have.

    Senator Sununu. Thank you very much, Admiral. Our second 
witness is Secretary Mike Chrisman of the California Resources 
Agency. Welcome back.

STATEMENT OF MIKE CHRISMAN, SECRETARY FOR RESOURCES, CALIFORNIA 
                        RESOURCES AGENCY

    Mr. Chrisman. Thank you, Senator and thank you, members of 
the Committee, for holding this hearing. We really appreciate 
the opportunity to be here. Let me start by saying that 35 
coastal states, territories and commonwealths are members of 
the Coastal States Organization and are at the forefront of 
ocean and coastal management in this Nation. Whether it is 
salmon fishing closure off the coast of California, hurricanes 
off the Gulf Coast, new energy proposals off the Northeast 
Coast or coral bleaching of the Pacific Islands, states are on 
the forefront of these issues. Our ocean and coastal resources 
are not only important to us at the state level, but obviously 
to citizens throughout this great Nation. The National Ocean 
Economics Study determined that ocean-dependent industry in 
California alone contributed $43 billion to state and national 
economy in 2002. Coastal states are leading the Nation in the 
management of these resources but we cannot bear this burden 
alone. When Governor Schwarzenegger came into office in late 
2003, we moved rapidly to address ocean and coastal issues in 
our great state. In May 2004, we held a California Ocean Summit 
to obtain the views of experts, academia, industry and public 
on a draft report of the U.S. Commission on Ocean Policy. The 
Governor strongly concurred with the preliminary findings of 
the U.S. Commission that oceans were in trouble and in need of 
assistance from all levels of government, academia, private-
sector and the public. The Governor supports the call for 
greater Federal involvement and funding and directed action on 
these issues. However, we have also made a strong commitment in 
California for leadership and action in this area. In June 
2004, the Governor directed me and my counterpart at the 
California Environmental Protection Agency to produce a 
California ocean action plan within 90 days. In October of that 
year, we released the final Ocean Action Plan titled, 
Protecting Our Ocean: California Action Strategy on the Shores 
of Point Lobos Marine Reserve in Monterey. Since the release of 
that report, several major actions have included the Governor 
signing the California Ocean Protection Act that created the 
California Ocean Protection Council with $26.2 million to begin 
its operations. The Governor also signed legislation addressing 
issues such as bottom trawling, prohibiting certain air and 
water discharges from cruise ships, requiring water quality 
monitoring of the San Francisco Bay and most recently signed 
the California Sustainable Oceans Act to address the impacts of 
new aquacultural operations off the coast. The California Ocean 
Protection Council approved over $17 million in ocean and 
coastal projects dealing with coastal water quality, marine 
research, seafloor mapping, new ecosystem-based pilot projects, 
invasive species management, market-based fisheries approaches, 
environmental review of aquacultural practices and many, many 
more. The Council also went on to introduce an information, 
research and outreach strategy that Admiral Watkins and Leon 
Panetta identified as a national model. Similar efforts are 
occurring in other states across the Nation: the State of 
Alaska, the State of Washington, the Gulf of Mexico Alliance, 
Great Lakes Regional Collaboration and the Gulf of Maine 
Council. The Western Governors Association in June of this year 
adopted a resolution sponsored by Governor Schwarzenegger. This 
resolution called for the ratification of the Law of the Sea 
Treaty, the reduction of the fragmentation of government 
processes at the Federal level, the reauthorization of the 
Coastal Zone Management Act and other key statutes. It provides 
sufficient Federal funding and technical assistance to coastal 
states. I would like to mention one pressing problem on the 
West Coast. In June of this year, the Governor declared a state 
of emergency in 13 northern and central California counties, 
from Santa Barbara up to Siskiyou County, effected a recently 
restricted salmon fishing season. The economic impact of the 
lost season this year for both California and Oregon is in the 
area of $150 million. The Governor is sponsoring state 
legislation to provide more than $45 million in economic relief 
to fishermen and businesses affected by the partial closure of 
the salmon season. We are encouraged with the recent 
developments that will bring much-needed Federal aid to the 
fishing-dependent communities in California, including the $10 
million in aid approved by the Senate Appropriations Committee. 
An important message in my testimony today is that coastal 
states are moving forward with the efforts to implement many of 
the recommendations of the U.S. and Pew Ocean Commissions 
Report. Unfortunately, we cannot do it alone. We are ready to 
work with the Bush Administration, Members of Congress and 
other Governors and a wide variety of stakeholders to make 
progress on these issues. Currently, the Federal Government 
lacks a clear national oceans policy that is set in statute 
that will enable Federal council dedicated to reducing the 
fragmentation of improving coordination or framework in support 
of regional ocean governance efforts. Therefore, we recommend 
that Congress consider legislation to provide a level of 
Federal assistance necessary to achieve these goals. We believe 
there are three necessary components to the legislation that 
will advance thoughtful ocean governance; that is, the creation 
of a national ocean policy, direct management of ocean 
resources for the Nation as a whole, a regional governance 
structure with the states and the Federal Government in 
partnership, and improved Federal agency coordination where all 
various arms of the U.S. Government are working in concert with 
their state partners, not at cross purposes. California and 
other states stand ready to work with this committee and 
Members of Congress to bring all of this about and again, Mr. 
Chairman, thank you for calling this hearing today.
    [The prepared statement of Mr. Chrisman follows:]

     Prepared Statement of Mike Chrisman, Secretary for Resources, 
                      California Resources Agency

Introduction
    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Mike Chrisman, and I am the California Secretary for Resources and a 
member of Governor Arnold Schwarzenegger's cabinet. I also serve as 
Chair of the California Ocean Protection Council and as Vice Chair of 
the Coastal States Organization. Thank you for holding this important 
hearing this afternoon and for inviting me to testify.
    Let me start by saying that the 35 coastal states, territories, and 
commonwealths that are members of the Coastal States Organization are 
at the forefront of ocean and coastal management in this Nation. 
Whether it's a salmon fishing closure off California, a hurricane off 
the Gulf states, new energy proposals off the Northeast Coast, or coral 
bleaching in the Pacific Islands, states are on the front lines of 
these issues. Our ocean and coastal resources are not only important to 
us at the state level, but to citizens throughout this Nation. The 
National Ocean Economic Study determined that ocean-dependent industry 
in California alone contributed $43 billion to the state and national 
economy in 2002. Of course the value of having safe places to swim, 
healthy marine resources and fisheries, wide sandy beaches, or 
spectacular rocky headlands and shorelines is difficult to quantify, 
but the benefits of these resources are clearly substantial.
    Coastal states are leading the Nation in the management of these 
resources, but we cannot bear this burden alone. I'd like to provide 
you with some background about California and the activities of some 
other coastal states and then focus my remarks on some important 
national issues for your consideration.
    Governor Arnold Schwarzenegger moved rapidly to address ocean and 
coastal issues in California. In 2004, we held a California Ocean 
Summit to obtain the views of experts from academia, industry, and the 
public on the draft report of the U.S. Commission on Ocean Policy. That 
technical review provided the basis for the Governor's comments on this 
document. The Governor strongly concurred with the preliminary findings 
by the U.S. Commission that the oceans were in trouble and in need of 
assistance from all levels of government, academia, the private-sector, 
and the public. The Governor's comments addressed governance; economic 
sustainability; research, education, and technology development; and 
stewardship.
    The Governor supports the call for greater Federal involvement, 
funding and directed action on these issues. However, the Governor also 
made a strong commitment for California leadership and action. He 
directed me and my counterpart at the California Environmental 
Protection Agency to produce a California ocean action plan within 90 
days. On October 18, 2004, Governor Schwarzenegger released his ocean 
action plan titled, ``Protecting Our Ocean: California's Action 
Strategy'' on the shores of the Point Lobos Marine Reserve in central 
California. Since the release of that report some major actions 
include:

  <bullet> The Governor signed the California Ocean Protection Act, 
        which created the California Ocean Protection Council with 
        $26.2 million to begin operations.

  <bullet> The Governor also signed legislation addressing issues such 
        as bottom trawling, prohibiting certain air and water 
        discharges from cruise ships, requiring water quality 
        monitoring in San Francisco Bay, and most recently he signed 
        the California Sustainable Oceans Act to address the impacts of 
        new aquaculture operations off the coast.

  <bullet> The Ocean Protection Council approved more than $17 million 
        in ocean and coastal projects dealing with coastal water 
        quality, marine research, sea floor mapping, new ecosystem-
        based management pilot projects, invasive species management, 
        market-based fishery approaches, environmental review of 
        aquaculture practices, and more.

  <bullet> The Council produced an ``Information, Research, and 
        Outreach'' strategy that Admiral James Watkins and Leon Panetta 
        identified as a model for the Nation.

  <bullet> California sponsored an Ocean Economic Summit and released 
        the National Ocean Economic Program report on the value of 
        ocean-dependent industry in California.

  <bullet> California has committed $21 million to develop an ocean 
        currents monitoring system to help contribute to the call for 
        such ocean observation systems throughout the Nation's 
        coastlines.

  <bullet> California set in motion a new and workable process for 
        establishing networks of marine protected areas off our 
        coastline, and our Fish and Game Commission will be evaluating 
        the recommendations for the first new designations along the 
        Central California coast this summer and fall.

    Similar efforts are occurring throughout the Nation. A few examples 
include:

  <bullet> Alaska Governor Murkowski created the Alaska Ocean Policy 
        Cabinet to advise the Governor on ocean and coastal issues.

  <bullet> In Washington, the Puget Sound Partnership was formed with 
        14 members, four legislative liaisons and co-chaired by the 
        Governor to accelerate the protection and restoration of the 
        Puget Sound and the Hood Canal.

  <bullet> The Gulf of Mexico Alliance was formed by five Gulf 
        Governors to focus efforts to address nutrient loading, water 
        quality, wetland restoration, habitat management, and 
        environmental education.

  <bullet> The Great Lakes Regional Collaboration was formed by the 
        Great Lakes Governors to address sediment issues, coastal 
        health, habitats, invasive species, non-point source pollution 
        and other issues.

  <bullet> The Gulf of Maine Council formed in 1989 launched a new 
        mapping initiative to conduct comprehensive sea floor mapping 
        throughout the region.

Western Governor's Association--Ocean Resolution
    On June 13, 2006, the Western Governors Association, made up of 21 
western U.S. states, territorial, and commonwealth Governors adopted a 
new Ocean resolution sponsored by Governor Arnold Schwarzenegger. The 
Governors recognize the compelling need for action to address ocean and 
coastal issues at the international, national, state and regional 
levels. The Governors have identified the following goals:

        a. Stewardship--To assess, conserve, restore, sustain and 
        manage ocean resources and the ocean ecosystem.

        b. Economic Sustainability--To encourage environmentally-sound, 
        sustainable, and economically-beneficial ocean resource 
        development activities.

        c. Research, Education and Technology--To advance research, 
        sound science, education programs, and technology developments 
        to meet future needs and uses of the ocean.

        d. Jurisdiction and Ownership--To maximize interests of states, 
        commonwealths, and territories, within state tidelands, the 
        territorial sea, and the Exclusive Economic Zone.

    The Western Governors believe that key management questions can be 
better addressed through a more coordinated and accountable approach at 
the Federal level with full participation and cooperation with coastal 
states. Key management issues of concern include:

  <bullet> ocean and coastal habitats,
  <bullet> water quality concerns,
  <bullet> coastal hazards,
  <bullet> maritime commerce,
  <bullet> tourism, and
  <bullet> research.

    The Governors are calling for:

  <bullet> Ratification of the Law of the Sea Treaty,

  <bullet> Reduced fragmentation of government processes at the Federal 
        level,

  <bullet> Reauthorization of the Coastal Zone Management Act and other 
        key Federal statutes,

  <bullet> To provide sufficient funding and technical assistance to 
        coastal states, and

  <bullet> To support environmentally-sound development and sustainable 
        resource harvest activities.

    It's clear that coastal states are taking significant steps to 
improve ocean and coastal management, but need the assistance and 
partnership of the Federal Government to continue to make progress in 
these areas.
    The following testimony discusses ocean and coastal management 
issues that California and other states are current facing and suggests 
ways that the Federal Government can help.

Ocean and Coastal Governance
    The U.S. and Pew Ocean Commission reports identified the issues 
with fragmentation at the Federal level regarding ocean and coastal 
governance. These reports emphasized the need to take bold new 
initiatives such as adopting a clear national ocean policy and setting 
up a permanent national ocean council to provide the level of 
leadership that will be necessary to address the problems facing our 
Nation's coasts and oceans. For coastal states, it is increasingly 
difficult to determine how best to engage the Federal Government on 
complex management issues facing us. California and many other states 
have addressed this issue at the state level by passing legislation to 
clarify state ocean policy and by establishing executive level ocean 
councils. However, to this point the Federal Government has failed to 
take this needed step.
    There is renewed interest and momentum in the United States for 
regional approaches to protect and manage ocean and coastal resources. 
Both the U.S. Commission on Ocean Policy (USCOP) and the Pew Oceans 
Commission (POC) reports recommended the initiation of regional 
approaches to ocean and coastal management throughout the Nation. 
Regional approaches can help resource managers account for more of the 
factors that affect a particular resource or an ecosystem, not just the 
ones that fall within a particular jurisdiction. Regional approaches 
such as the ones mentioned above in the Gulf of Mexico, the Great Lakes 
and the Gulf of Maine are driven by the activities of coastal states. 
The states of California, Oregon, and Washington are working together 
to develop a regional partnership.
    Legislative Proposal. Currently, the Federal Government lacks a 
clear ocean policy set in statute, a statutorily enabled Federal 
council dedicated to reducing fragmentation and improving coordination, 
or a framework and support for regional ocean governance efforts. 
Therefore, we recommend that Congress consider legislation to provide 
the level of Federal assistance necessary to achieve these goals.
    We believe that there are three necessary components for 
legislation that will advance thoughtful ocean governance:

        1. A national ocean policy,

        2. A regional governance structure with the states and the 
        Federal Government in partnership, and

        3. Improved Federal coordination.

    A national ocean policy is needed to direct the management of ocean 
resources for the Nation as a whole. Regional structures are needed to 
implement that direction and to address regional priorities. Federal 
coordination is needed so all of the various arms of the U.S. 
Government are working in concert with their state partners and not at 
cross purposes.
    California and other states, through our membership in the Coastal 
States Organization, would welcome the opportunity to work with this 
Committee on that legislation.

Coastal Zone Management Act
    The Coastal Zone Management Act (CZMA) established a partnership 
between the Federal Government and coastal states regarding the 
management and protection of the Nation's coastlines. This statute 
provides a national template for the Nation's coastlines with key 
management objectives to be implemented. In this partnership coastal 
states develop coastal management plans that are then certified by the 
Federal Government as being consistent with these Federal standards. 
Unfortunately, the CZMA is long overdue for re-authorization. A key 
objective of California and the Coastal States Organization is to seek 
reauthorization and reinvigoration of this important coastal management 
statute. We urge that this reauthorization be a priority in the next of 
Congress.

Ocean and Coastal Economics
    Many coastal states have conducted analyses of the economic 
contribution of the ocean and coast to the state and national 
economies. The findings of these analyses have demonstrated that our 
Nation's ocean and coasts provide substantial economic benefits 
directly through coastal port activity, tourism, fishing, and other 
economic generators. Although other sectors of the national economy 
such as the agricultural industry are monitored nationally on an annual 
basis there is no similar accounting system in place in the United 
States to regularly assess the economic benefits derived from the ocean 
and coast. Such a system should be incorporated in any new national 
ocean governance framework that is crafted at the national level.

Research, Monitoring, and Ocean Observations
    Research should be the foundation of good public policy, but often 
it is not. The Federal Government has established the Subcommittee on 
Integrated Management of Ocean Resources (SIMOR) and the Joint 
Subcommittee on Science and Ocean Technology (JSOST) to help develop a 
comprehensive and robust system for research, monitoring, and ocean 
observations. We applaud these efforts and have directly participated 
in the Federal-State Task Team (FSTT). Recently I provided opening 
comments at the JSOST meeting in Denver. However, as the U.S. and Pew 
Oceans Commission reports pointed out, our national investment in ocean 
and coastal research, monitoring, and ocean observations in inadequate. 
We hope that the Federal Government will use these processes to 
determine a clear path for research, monitoring, and ocean observations 
and also provide the resources necessary to support them.

Ocean Education and Outreach
    Coastal and ocean education exist at a variety of levels ranging 
from technical doctorate and field programs to K-12 level education, 
and programs run by state and Federal agencies, to those run by 
nonprofit groups. In California, such programs exist through the 
University of California, the California State University System, 
private institutions, state programs through agencies like State Parks 
and the Coastal Commission, and Federal programs such as the National 
Marine Sanctuary Program, the National Estuary Program, and the 
National Estuarine Research Reserve Program. California is currently in 
the process of ensuring that ocean and coastal education is included in 
the environmental principles and concepts being developed to implement 
the Education and the Environment Initiative in California. This 
initiative is designed to incorporate environmental principles and 
concepts into the K-12 curriculum for California children.
    Unfortunately, instead of increasing funding for key Federal ocean 
and coastal programs, in most cases Federal funding for these programs 
is decreasing. For example, NOAA's National Marine Sanctuary Program 
experienced a dramatic reduction in funding in the FY 2006 
appropriations cycle, dropping from $51 million in FY 2005 to $35 
million in FY 2006. This 30 percent budget reduction is significant and 
cannot be sustained without impacts to the services and programs 
provided by the sanctuary program to communities around the country, 
including California's central coast. Congress should evaluate closely 
the funding levels necessary to sustain key Federal ocean and coastal 
management programs that have proven to be important components of 
ocean and coastal management at the state level.

Law of the Sea
    Governor Schwarzenegger has joined many other Governors throughout 
the nation, leaders in Congress, and members of industry, the academic 
community, and the public in calling for the United States to provide 
advice and consent for the U.S. accession to the United Nations 
Convention on the Law of the Sea Treaty. This will once again allow the 
United States to assume a leadership role in international forums 
dealing with scientific research, deep-sea mining, and a wide variety 
of environmental protection issues.

California Salmon Issues
    In June, Governor Schwarzenegger declared a state of emergency in 
13 northern and central California counties, from Santa Barbara to 
Siskiyou, affected by the recently restricted salmon fishing season. 
The restricted season will significantly impact California's commercial 
ocean salmon fisheries and result in severe economic losses throughout 
the state. This also threatens subsistence and cultural fisheries of 
the Yurok Tribe, Hoopa Valley Tribe and the Karuk Tribe. The economic 
impact of a lost season this year for both California and Oregon could 
be $150 million.
    Governor Schwarzenegger is sponsoring legislation to provide more 
than $35 million in economic relief to fishermen and businesses 
affected by the partial salmon season closure. Specifically, the 
proposal provides $5 million in grants and $20 million for a zero 
interest revolving loan program. Additionally, the Governor has 
proposed expanding the Small Business Expansion Fund by $1 million to 
leverage a total of nearly $20 million in loan guarantees. Governor 
Schwarzenegger also asked the Department of Fish and Game to reimburse 
all impacted fishermen for the cost of their commercial salmon fishing 
licenses, and to waive fees for next year's license.
    I am encouraged by recent developments that will bring much-needed 
Federal aid to fishing-dependent communities in California, including 
$10 million in aid approved by the Senate Appropriations Committee. 
This relief, along with the recent fishery disaster declaration by the 
Secretary for Commerce, is a step in the right direction. But much more 
work needs to be done to provide full financial relief to California's 
salmon fishermen and fishing-dependent communities, and to insure the 
long-term sustainability of this fishery.
    While the Schwarzenegger Administration is working to address the 
immediate impacts of a reduced salmon fishing season, we realize that 
our work toward long-term solutions must continue. The Administration 
has budgeted more than $21 million since 2003 for grants supporting 
critical salmon and steelhead habitat restoration projects. Governor 
Schwarzenegger also joined the Governor of Oregon in signing the 
Klamath River Watershed Coordination Agreement to develop a long-term 
management approach, common vision and integrated planning for the 
Klamath Basin. There is no easy solution to this challenge. Poor ocean 
conditions, drought, water management, disease, and unsuitable spawning 
habitat have plagued Klamath River Chinook Salmon for several years. 
These issues cross geographic and bureaucratic boundaries. However, 
this is the kind of problem that will require assistance from the 
Federal Government and a long-term partnership between Federal, state, 
and local governments, and all the other impacted stakeholders.

Conclusion
    Thank you again for the opportunity to address the Subcommittee. 
The State of California and the Coastal States Organization stands 
ready to work with you on making important improvements to ocean and 
coastal management. We believe that will require bold new steps in 
establishing a clear Federal policy, to provide sufficient funding, and 
to identify a clear path for coastal states or others to access it. We 
look forward to the advancements that we can make in the coming year.

    Senator Sununu. Thank you, Mr. Secretary. Our third witness 
is no stranger to the Halls of Congress, having served for 
eight terms in California's 16th District, I believe. Leon 
Panetta has also served as Chairman of the Pew Oceans 
Commission in addition to being the current Co-Chair of the 
Joint Ocean Commission Initiative. Welcome, Congressman 
Panetta--Chief of Staff Panetta.

        STATEMENT OF HON. LEON E. PANETTA, CO-CHAIRMAN, 
               JOINT OCEAN COMMISSION INITIATIVE

    Mr. Panetta. Thank you very much, Mr. Chairman and thank 
you as well to my two friends, Senator Boxer and Senator 
Lautenberg. I really appreciate the fact that this Committee is 
looking at the issue of the oceans and thank all of you for the 
leadership that you've shown on this issue.
    I appear before you as Co-Chair of the Joint Ocean 
Commission Initiative. I was Chair of the Pew Oceans 
Commission. Admiral Watkins was Chair of the U.S. Commission. 
In his stead is Paul Kelly because as you know, he is 
recovering from an illness but he is doing well. The purpose of 
our joint initiative is basically to implement the 
recommendations of both commissions. What we found is that both 
commissions, through a series of hearings going across the 
country, came to the very same conclusions, which is that our 
oceans are in trouble. As some of you know, the Joint Ocean 
Commission Initiative responded to a letter from a bipartisan 
group of Senators that asked for, what are the key actions that 
need to be taken in the Congress? We presented that in this 
report called, From Sea to Shining Sea<SUP>*</SUP> and I would 
ask that that be made part of the record, because that does 
outline the additional steps that need to be taken.
---------------------------------------------------------------------------
    \*\ This report is available at http://
www.jointoceancommission.org/resource-center/1-Reports/2006-06-
13_Sea_to_Shining_Sea_Report_to_Senate.pdf.
---------------------------------------------------------------------------
    Let me just summarize very briefly the state of the current 
situation and I think some of things that are happening here 
that indicate some progress is being made. Our oceans are in 
crisis. All you have to do is look at the front page of the 
Washington Post today if you want to see that continuing 
crisis. There is an article on the left-hand side of the 
Washington Post that talks about the fact that there are 20,000 
beaches this last year that were either closed or put on 
advisories because of pollution problems. Turn to the third 
page, where it talks about filth in California ports. The LA 
Times is running a huge series on the problems dealing with our 
oceans. The reality is that we have some very serious problems. 
Our fisheries are being depleted. Few people--the President of 
the United States was stunned to find out that 90 percent of 
the large fish in the ocean are gone. Ninety percent of the 
large fish in the ocean are gone. Our fisheries are being 
depleted, whether it is cod, whether it is salmon. In my 
hometown of Monterey, California, we had a huge sardine 
industry. That industry was largely wiped out and doesn't exist 
today as a result. We are seeing increasing pollution, algae 
blooms that are spreading, not only into large dead zones 
appearing in the Gulf of Mexico, that are the size of the State 
of Rhode Island, but in addition to that, we are seeing dead 
zones now appearing off of the West Coast as well as off the 
East Coast, dead zones in which there is no sea life. There is 
nothing because of the pollution that is taking place. Coastal 
development, something we are all familiar with, you're all 
familiar with it from coastal states, huge coastal 
development--over 50 percent of our population lives near the 
coast and we expect another 20 million people to move to the 
coastlines within the next few years. That produces tremendous 
pressures. We've lost our wetlands. In California alone, 95 
percent of our historic wetlands are gone. Those are the 
nurseries for the fisheries of the future. In addition to that, 
we have invasive species and we have problems with our coral 
reefs now, because of global warming and acidification. There 
is a real problem of acidity in our oceans that are not only 
impacting our coral reefs but if it continues, could literally 
wipe out ocean life as we know it. Then if you add to that, the 
governance problems that both commissions identified, the 
reality is that there is a fragmented, convoluted, 
uncoordinated approach to dealing with our oceans. There are a 
number of Federal laws, there are local laws and there is 
sometimes very little coordination between all of them. So 
those are some of the problems, obviously, that confront our 
oceans. The good news is that we can, in fact, deal with these 
problems and make progress and you are. Here in the Congress, 
on the Senate side in particular, I want to commend you for the 
work you've done on passing a strong Magnuson-Stevens bill. 
You've got an ocean exploration bill. You've got coastal zone 
management, marine debris, tsunami warnings, ocean observation, 
and coral legislation. I commend you for passing that 
legislation. I hope you will continue to push it through. The 
Executive Branch, I would commend as well, for establishing the 
Committee on Ocean Policy. Certainly the designation of the 
Northwest Hawaiian Islands National Monument and in addition to 
that, obviously tremendous progress is being made at the state-
level in California and other states as well. But the bottom 
line is that there are areas that we need to pay attention to 
and I'm going to briefly hit the key areas.
    Number one, we do need a national ocean policy in this 
country. We've done it for clean water, we've done it for clean 
air. We do not have a national ocean policy that commits this 
country to protecting our oceans. We need to have that. Second, 
we need to establish and codify NOAA. NOAA was established by 
an Executive Order. You need to provide NOAA as the key agency 
involved here with ocean policy and establish that national 
ocean policy, hopefully as part of that codification. Third, 
you need to pass the Law of the Sea Treaty. My God! It is a 
disgrace that the United States of America is the only 
industrialized country in the world that has not confirmed the 
Law of the Sea Treaty. Most of you support it. It just has not 
come up to a vote on the floor. That is a disgrace. And the 
last point I would make, very frankly, is on funding, which was 
mentioned here. Less than 6 percent of our budget goes to the 
oceans. We need to provide better research, we need to provide 
science, and we need to provide education for our oceans. I 
commend Senators Mikulski and Thad Cochran and others that are 
restoring the funding that is needed in many of these programs 
and I hope you will continue to support that. A hundred years 
ago, Teddy Roosevelt established a commitment of this country 
to protecting our lands. A hundred years later, I think we can 
establish a commitment and a legacy for this country that 
protects our oceans. Thank you.
    [The joint prepared statement of Mr. Panetta and Mr. Kelly 
follows:]

 Joint Prepared Statement of Hon. Leon E. Panetta, Co-Chairman, Joint 
    Ocean Commission Initiative and Paul Kelly, Member, Joint Ocean 
                    Commission Initiative Task Force

    Chairman Sununu, Senator Boxer, and Members of the National Ocean 
Policy Study, we are pleased to appear before you today in our 
respective capacities as the Co-Chair and Task Force Member of the 
Joint Ocean Commission Initiative, a collaborative effort of members of 
the U.S. Commission on Ocean Policy and the Pew Oceans Commission, The 
purpose of the Joint Initiative is to advance the pace of change for 
meaningful ocean policy reform, and we are delighted to have the 
opportunity to join a discussion about how to improve ocean policy and 
governance and to share some of our thoughts about priorities for 
legislative action.
    As many of you know, the Joint Ocean Commission Initiative 
delivered a report to the Senate on June 13, outlining just that--our 
priorities for Congressional action needed to address the many pressing 
issues we are facing with regard to our oceans. We request that a copy 
of our report be submitted as part of the public record for this 
hearing.<SUP>*</SUP> We delivered that report pursuant to a letter 
requesting our input from a bipartisan group of ten Senators, a number 
of you among them. We welcomed the opportunity to provide that input, 
just as we welcome the opportunity to share some of our findings and 
recommendations with you today.
---------------------------------------------------------------------------
    \*\ This report is available at http://
www.jointoceancommission.org/resource-center/1-Reports/2006-06-
13_Sea_to_Shining_Sea_Report_to_Senate.pdf.
---------------------------------------------------------------------------
The State of Our Oceans
    Implicit in the topic for this hearing is ``what is the state of 
our oceans?'' and we have to report to you that the state is not good, 
and getting worse. There are many problems besetting our oceans and 
coasts, including:

  <bullet> Overexploited fisheries that bring economic hardship to 
        fishing communities and businesses and jeopardize the living 
        marine resources held in trust for the benefit of all U.S. 
        citizens.

  <bullet> Enormous human, environmental, and economic impacts 
        associated with hurricanes and other increasingly frequent and 
        intense storms,

  <bullet> Increasing frequency and size of harmful algal blooms in 
        many of our coastal areas, including the Northeast and Florida,

  <bullet> Massive Dead Zones in the Gulf of Mexico, as well as in the 
        Chesapeake Bay and most recently off the coast of Oregon,

  <bullet> Continued loss of coastal wetlands, despite conservation 
        commitments,

  <bullet> Growing problems due to introduction of invasive species, 
        and

  <bullet> Continuing loss of coral reefs.

    And these problems are exacerbated by a dysfunctional, out-of-date, 
and inadequate system of ocean and coastal governance. For example:

  <bullet> Fragmented laws, confusing and overlapping jurisdictions, 
        and the absence of a coherent national ocean policy hinder our 
        management efforts.

  <bullet> A lack of Federal support for emerging regional ocean and 
        coastal governance initiatives that hampers the ability of 
        these initiatives to help solve important ocean and coastal 
        problems.

  <bullet> A dearth of U.S. leadership in international ocean and 
        coastal forums threatens our national economic and security 
        interests.

  <bullet> Dwindling U.S. investment in ocean and coastal research, 
        science, and education compromises our ability to tackle such 
        problems as global warming, resource depletion, harmful algal 
        blooms, invasive species, and non-point source water pollution, 
        to name just a few.

    Yet, we are also here to report to you that we are in a time of 
unprecedented opportunity. Today, as never before, we recognize the 
links among the land, air, oceans, and human activities. We have access 
to advanced technology and timely information on a wide variety of 
scales. We recognize the detrimental impacts wrought by human 
influences. We can and should act now to ensure that the ocean, coasts, 
and Great Lakes are healthy and productive and that our use of their 
resources is both profitable and sustainable.
    As is made clear in the reports of the Pew Oceans Commission, U.S. 
Commission on Ocean Policy, and now the Joint Ocean Commission 
Initiative, our Nation's leaders need to take action now to reform 
ocean governance, pursue ecosystem-based management, improve fisheries 
management, rely more heavily on science in making management 
decisions, and adequately fund ocean and coastal programs. These 
recommendations reflect the conviction of the two Commissions that our 
Nation can change its course and achieve a new ocean blueprint for the 
21st century.
    The reports of the two Commissions bring into sharp focus the 
importance of our oceans and coasts to our Nation's natural heritage, 
security, and economy. With an offshore ocean jurisdiction larger than 
the total land mass of the United States, U.S. waters support rich and 
diverse systems of ocean life, provide a protective buffer, and support 
important commerce, trade, energy, and mineral resources. The economic 
contributions the oceans make are staggering:

  <bullet> More than $1 trillion, or one-tenth, of the Nation's annual 
        gross domestic product (GDP) is generated within nearshore 
        areas, the relatively narrow strip of land immediately adjacent 
        to the coast.

  <bullet> When considering all coastal watershed counties, the 
        contribution swells to over $6.1 trillion, more than half of 
        the Nation's GDP.

  <bullet> In 2003, ocean-related economic activity contributed more 
        than $119 billion to American prosperity and supported well 
        over 2.2 million jobs.

  <bullet> More than 13 million jobs are related to trade transported 
        by the network of inland waterways and ports that support U.S. 
        waterborne commerce.

  <bullet> Annually, the Nation's ports handle more than $700 billion 
        in goods, and the cruise industry and its passengers account 
        for $11 billion in spending.

  <bullet> The commercial fishing industry's total value exceeds $28 
        billion annually, with the recreational saltwater fishing 
        industry valued at around $20 billion, and the annual U.S. 
        retail trade in ornamental fish worth another $3 billion.

  <bullet> Nationwide retail expenditures on recreational boating 
        exceeded $30 billion in 2002.

    Of course, these figures capture only a small part of our oceans' 
worth and potential.
    Also consider that born of the sea are clouds that bring life-
sustaining water to our fields and aquifers and drifting microscopic 
plants that generate much of the oxygen we breathe. The oceans host 
great biological diversity with vast medical potential and are a 
frontier for exciting exploration and effective education. Other ocean 
assets, such as functioning coastal habitats, contribute to the health 
of our environment and the sustainability of commercial and 
recreational resources. Still others assist in what our Nation's 
founders referred to as the ``pursuit of happiness.''
    At the dawn of the 21st century, it is clear that these invaluable 
and life-sustaining assets are vulnerable to the activities of humans. 
Our failure to properly manage the human activities that adversely 
affect our oceans and coasts is compromising the health of these 
systems and diminishing our ability to fully realize their potential.

Priorities for Congressional Action
    Upon the release of the reports by the two Commissions, the 
President and Congress publicly embraced the major recommendations of 
the U.S. Commission on Ocean Policy and the Pew Oceans Commission. The 
President issued the U.S. Ocean Action Plan and established the 
Committee on Ocean Policy. Congress held hearings and introduced ocean-
related legislation. At the state level, several Governors demonstrated 
strong leadership by initiating strategies for coordinating ocean and 
coastal science and policy in regions that include the Great Lakes, 
Northeast, Gulf of Mexico, West Coast, and Southeast, and states that 
include California, Washington, Massachusetts, New York, Florida, New 
Jersey, Alaska, and Hawaii.
    These actions set high expectations for significant progress toward 
ocean policy reform. Results, however, have been slow in coming. There 
has been concerted attention to ocean and coastal issues by Congress, 
including, of course, hard work by the Senate Commerce Committee's 
National Ocean Policy Study, as well as the full Commerce Committee, 
and a number of bills that have made significant progress through the 
legislative process in the 109th Congress. The Joint Initiative 
strongly urges Congress to enact ocean and coastal legislation that has 
already progressed significantly, and in so doing demonstrate progress 
toward implementing the recommendations of the U.S. Commission on Ocean 
Policy and the Pew Oceans Commission. It is vitally important to 
realize some near-term successes while continuing the essential work of 
achieving the broader comprehensive reforms necessary to reverse the 
decline of our oceans. If enacted, these bills will demonstrate 
progress, address important issues, and show that Congress is serious 
about restoring the vitality of our oceans. These bills are summarized 
in Appendix A to this written testimony, and include:

  <bullet> Magnuson-Stevens Fishery Conservation and Management Act.
  <bullet> Marine Debris Research, Prevention and Reduction Act.
  <bullet> Tsunami Preparedness Act.
  <bullet> National Ocean Exploration Program Act.
  <bullet> Coastal Estuarine Land Protection Act.
  <bullet> Coral Reef Conservation Amendments Act.
  <bullet> Ocean and Coastal Mapping Integration Act.
  <bullet> Ocean and Coastal Observing System Act of 2005.
  <bullet> Coastal Zone Enhancement Reauthorization Act.
  <bullet> Ballast Water Management Act of 2005.
  <bullet> Water Resources Development Act of 2005.
  <bullet> Flood Insurance Reform and Modernization Act of 2006.

    In addition to passing pending bills such as the ones mentioned 
above, outlined below are several additional legislative proposals that 
the Joint Ocean Commission Initiative believes provide a solid 
framework for action by Congress. Many of these actions can and should 
be carried out right away, signaling progress and paving the way for 
some of the more challenging and long-term measures that will be needed 
to achieve meaningful ocean policy reform.
    Congress should adopt a statement of national ocean policy, 
acknowledging in legislation the importance of oceans to the Nation's 
economic and ecological health and adopting a national policy to 
protect, maintain, and restore marine ecosystems so that they remain 
healthy, resilient, and able to deliver the services people want and 
need.
    A statement of national ocean policy should include recognition 
that it is the policy of the United States to establish and maintain 
for the benefit of the Nation a coordinated, comprehensive, and long-
range national program of ocean and atmospheric research, conservation, 
management, education, monitoring, and assessment. A new declaration of 
national ocean policy should incorporate provisions relating, but not 
limited to, the following concepts:

  <bullet> acknowledge the linkage of ocean, land, and atmospheric 
        systems.

  <bullet> protect, maintain, and restore the long-term health, 
        productivity, and diversity of the ocean environment.

  <bullet> protect life and property against natural and manmade 
        hazards.

  <bullet> ensure responsible management and sustainable use of fishery 
        resources and other ocean and coastal resources held in the 
        public trust, using ecosystem-based management and a balanced 
        precautionary and adaptive approach.

  <bullet> assure sustainable coastal development based on responsible 
        state and community management and planning.

  <bullet> develop improved scientific information and use of the best 
        scientific information available to make decisions concerning 
        natural, social, and economic processes affecting ocean and 
        atmospheric environments.

  <bullet> enhance sustainable ocean-related and coastal-dependent 
        commerce and transportation, balancing multiple uses of the 
        ocean environment.

  <bullet> provide for continued investment in and improvement of 
        technologies for use in ocean and climate-related activities.

  <bullet> expand human knowledge of marine and atmospheric 
        environments and ecosystem.

  <bullet> facilitate a collaborative approach that encourages the 
        participation of diverse stakeholders and the public in ocean 
        and atmospheric science and policy.

  <bullet> promote close cooperation among all levels of government, 
        academia, nongovernmental organizations, the private sector, 
        and other stakeholders based on this policy to ensure coherent, 
        accountable, and effective planning, regulation, and management 
        of activities affecting the oceans and the atmosphere.

  <bullet> enhance and preserve the role of the United States as a 
        global leader in ocean, atmospheric, and climate-related 
        activities.

    Congress should establish the National Oceanic and Atmospheric 
Administration (NOAA) in law and work with the Administration to 
identify and act upon opportunities to improve Federal agency 
coordination on ocean and coastal issues. Congress should pass a strong 
Organic Act establishing NOAA as the lead civilian ocean agency and 
restructuring the agency to enhance its ability to fulfill its core 
mission to further our understanding of oceans and coasts and apply 
that knowledge to effectively manage our marine resources on an 
ecosystem basis. Specifically, a NOAA Organic Act should:

  <bullet> Establish NOAA as the lead civilian ocean agency by statute.

  <bullet> Set forth core missions of: assessment, prediction, and 
        operations; ecosystem-based management of ocean and coastal 
        areas and resources; and science, research, and education.

  <bullet> Call for reorganization of the agency along functional lines 
        to better equip it to carry out its core mission and remain 
        science-based, but with its management programs better 
        connected to make use of that science in decisionmaking.

  <bullet> Establish leadership roles and accountability mechanisms for 
        implementation of major elements of the agency's mission.

    NOAA was established in 1970 by a Presidential reorganization order 
and has operated under that authority since that time. Over the years, 
several bills have been introduced that can provide the basis for an 
Act that would codify NOAA. Most recently these include the National 
Ocean Policy Leadership Act (S. 2647), which was introduced by former 
Senator Ernest F. Hollings in the 108th Congress. The Bush 
Administration has put forward simple Organic Act language, and 
Congressman Vernon recently reintroduced his National Oceanic and 
Atmospheric Administration Act (H.R. 5450), which reported out of the 
House Committee on Science in June and was referred to the House 
Committee on Resources, which is expected to consider the legislation 
by addressing NOAA's resource and conservation activities, issues that 
fall under that committee's jurisdiction. By building on these bills, 
Congress can codify and strengthen NOAA and thereby enhance its 
mission, improve its structure, and better enable it to carry out 
existing and new responsibilities in a manner that is consistent with 
ecosystem-based management.
    In addition, although NOAA plays a very important role and should 
be strengthened to carry out its mission, there are a number of other 
Federal agencies with ocean and coastal responsibilities and important 
ocean science and research programs, including the National Science 
Foundation (NSF) and the National Aeronautics and Space Administration 
(NASA). Congress should take action to enhance Federal agency 
coordination and leadership by conducting oversight of the 
Administration's implementation of the U.S. Ocean Action Plan to 
evaluate whether modifications or improvement are needed and work with 
the Administration to identify opportunities to strengthen the 
interagency processes for coordinating ocean and coastal issues.
    In this regard, the Joint Initiative recommends Congressional 
actions that include:

  <bullet> Require the Administration to prepare a progress report 
        outlining priorities, activities, and results achieved by the 
        Committee on Ocean Policy and its related subcommittees, 
        including implementation of the U.S. Ocean Action Plan and the 
        overall effectiveness of the interagency structure.

  <bullet> Schedule a National Ocean Policy Study oversight hearing on 
        national ocean governance with discussion of the progress of 
        the interagency structure as a topic.

  <bullet> Based on the results of the progress report and the 
        oversight hearing, pass legislation that would:

        -- Codify a permanent Federal coordinating committee with staff 
        support provided by an Office of Ocean Policy in the Executive 
        Office of the President to oversee the Federal Government's 
        implementation of a national ocean policy, resolve interagency 
        disputes, and coordinate ocean budgets (or manage the 
        integrated oceans budget).

        -- Call upon the President to appoint an Assistant to the 
        President to provide leadership and support for implementation 
        of the national ocean policy.

        -- Establish a non-Federal Council of Advisors to provide 
        advice on ocean and coastal issues.

    Congress should foster ecosystem-based regional governance. 
Congress should pass legislation to create a national framework to 
support regional approaches and collaboration and enable coordinated, 
integrated ecosystem-based management that builds on existing regional 
and ecosystem-based efforts. This framework should guide the 
development and implementation of processes that involve Federal, 
state, tribal, and local governments, as well as the private-sector, 
nongovernmental organizations, and academic institutions, working 
together toward regional actions that advance national ocean and 
coastal interests. Regional governance mechanisms will vary to meet 
needs of different regions, but should be encouraged to possess the 
following characteristics:

  <bullet> Regional governance entities that are manageable in size 
        (approximately 20-25 representatives) with a mix of Federal 
        agency and state representatives.

  <bullet> Regional entities that are advised and supported by a 
        citizens' advisory committee.

  <bullet> Development of regional ocean strategic plans that:

        -- Identify short- and long-term goals.

        -- Assess the region's social, economic, and ecological 
        characteristics to guide progress toward those goals.

        -- Determine priority issues and solutions to address them.

        -- Identify indicators of management efforts.

        -- Analyze gaps in authority.

        -- Identify and prioritize research, data, and information 
        needs.

        -- Commit to dedicated public education and outreach efforts.

        -- Implement solutions or policies to address priority 
        problems.

    In addition, Congress should improve Federal coordination of 
regional activities by calling upon the President to direct Federal 
agencies to identify opportunities to further coordinate existing 
programs and activities to assist and support more effective 
implementation of regional approaches. Improving coordination of 
Federal agency activities at the regional level would be an important 
complement to state, local, and tribal efforts to address ocean and 
coastal resource management issues on a regional basis. Enhanced 
coordination would enable Federal agencies to better address state and 
local needs while also furthering national goals and priorities.
    Congress can further enable the transition toward an ecosystem-
based approach by expressly acknowledging that management of all marine 
resources should be carried out in an ecosystem-based approach, and by 
calling upon Federal agencies to develop guidelines that enable 
improved coordination and analysis to assist in the transition toward 
an integrated management approach that considers the entire ecosystem. 
Such an express acknowledgment should be part of ocean, coastal, and 
water laws currently up for reauthorization. These include the 
Magnuson-Stevens Fishery Conservation and Management Act, the Coastal 
Zone Management Act (CZMA), the National Marine Sanctuaries Act, the 
Clean Water Act, and other statutory regimes governing the use and 
management of ocean and coastal resources.
    Through reauthorization or passage of these statutes, Congress can 
provide that management goals should be set to ensure that ocean and 
coastal ecosystems remain productive with respect to all resources. For 
example, through language included in the reauthorization of the 
Magnuson-Stevens Act, Congress can acknowledge that a first step toward 
effective ecosystem-based management of fisheries is to enable 
coordinated analysis of cumulative impacts of activities on fishery 
resources, as well as the impacts of fishing activities on other 
sectors, by developing guidelines for Regional Fishery Management 
Councils and other state and Federal agencies and management entities 
to perform such analyses.
    Likewise, through reauthorization of the CZMA, Congress can require 
that state coastal programs work with Federal, state, and local 
agencies to provide for periodic assessments of the state's natural, 
cultural, and economic resources, and based on those assessments, set 
specific, measurable goals that reflect the growing understanding of 
ocean and coastal environments and the need to manage growth in regions 
under pressure from coastal development. Congress can also direct that 
states redefine the landward reach of their coastal zones to include 
coastal watersheds, thus better enabling coastal programs to look 
across political boundaries and incorporate a coastal watershed focus 
and the basic tenets of ecosystem-based management.
    Statutory acknowledgement of the need to incorporate ecosystem-
based management into marine resource management regimes is intended be 
a first step toward ecosystem-based management by enabling improved 
coordination and analysis among agencies managing marine resources and 
providing for a transition toward an integrated management approach 
that considers the entire ecosystem.
    Congress should reauthorize an improved Magnuson-Stevens Fishery 
Conservation and Management Act that incorporates a stronger reliance 
on science to guide management actions to ensure the long-term 
sustainability of U.S. fisheries. Further, it should reinforce the 
principle that fishery resources are held in the public trust for the 
benefit of all U.S. citizens and need to be managed in a way that 
considers the relationships between and among all components of the 
marine ecosystem. In addition, care should be taken to avoid changes 
that compromise existing conservation provisions or allow exemptions to 
established review processes that help ensure that fishery-related 
actions are considered in a broad ecosystem context.
    Progress on the reauthorization of the Magnuson-Stevens Act is 
promising. We applaud Senator Stevens, the Chairman of your parent 
Committee, and the many other Senators who helped move S. 2012 through 
the Senate. We have high expectations that the House will move its 
reauthorization bill to the floor after the August break and a 
resolution of the few differences between the House and the Senate will 
be reached before adjournment.
    We are pleased that both bills address recommendations made by the 
U.S. Commission on Ocean Policy and the Pew Oceans Commission. We would 
simply reiterate that, while progress on these bills is encouraging, 
the Joint Initiative believes that a final bill should reflect the 
principles outlined above, and therefore should:

  <bullet> Avoid any rollback of existing law that could result in 
        increased fishing pressure on vulnerable stocks and threaten 
        their ability to rebuild.

  <bullet> Show greater movement toward ecosystem-based management.

  <bullet> Strengthen provisions to ensure that the best available 
        science is used to make management decisions.

  <bullet> Retain the provision in S. 2012 that strengthens the ability 
        of the United States and international fishery management 
        organizations to combat illegal, unreported, and unregulated 
        fishing.

    In addition, the Joint Initiative supports provisions in S. 2012 
that strengthens the ability of the United States and international 
fishery management organizations to combat illegal, unreported, and 
unregulated fishing. The Joint Initiative encourages the House and 
Senate to work together to enact a strong Magnuson-Stevens 
reauthorization bill in 2006.
    The United States should accede to the United Nations Convention on 
the Law of the Sea. The U.S. Senate should provide its advice and 
consent to U.S. accession to the convention so that the United States 
can once again assume a leadership position in international forums 
deciding such vital ocean matters as jurisdictional claims over the 
continental margin with it vast energy resources, deep seabed mining, 
scientific research, and environmental protection.
    The Joint Initiative agrees with the President that accession 
supports vital U.S. national security, economic, and international 
leadership interests and that rapid Senate approval is needed. As a 
party, the United States would be in the best position to lead future 
applications of this framework for regional and international 
cooperation in protecting and preserving the marine environment. U.S. 
accession to the convention would send a clear message in support of 
our efforts to foster international approaches while significantly 
furthering our own national interests. As the lone industrialized 
nation not part of the convention, we jeopardize our role as a world 
leader by failing to join.
    The convention has been thoroughly reviewed in Senate hearings and 
public forums, and U.S. accession is supported by a broad coalition of 
ocean interests. The Navy and Coast Guard have testified that joining 
the convention will strengthen our ability to defend freedoms of 
navigation and overflight essential to military mobility and our 
homeland security efforts. All major U.S. industries, including 
offshore energy, maritime transportation and commerce, underwater cable 
communications, and shipbuilding support U.S. accession to the 
convention because its provisions help protect vital U.S. economic 
interests and provide the certainty and stability crucial for 
investment in global maritime enterprises. Environmental organizations 
strongly support the convention as well.
    The Senate should adopt a Sense of the Senate Resolution that 
supports the Administration's position in the World Trade Organization 
(WTO) negotiations calling for an end to fishing subsidies that promote 
overcapitalization and subsequently contribute to the global depletion 
of fish stocks. Such an action would send a strong signal to the WTO 
negotiations, where legally binding language on fish subsidies is 
currently being developed, and would further reinforce the Senate's 
leadership role in ocean and coastal policy reform. In addition, the 
U.S. Commission on Ocean Policy and the Pew Oceans Commission reports 
both identified overcapitalization of the global commercial fishing 
fleet as a major contributor to the widespread depletion of 
economically-important fish stocks. At the global level, a significant 
factor in the continued overcapitalization of the commercial fishing 
fleet is the system of fishing subsidies that exists in many countries. 
Fishing subsidies that support overcapitalization harm the 
competitiveness of U.S. exports in the international seafood market and 
promote illegal, unregulated, and unreported (IUU) fishing, which 
further harms our domestic commercial fisheries, both ecologically and 
economically. According to the Office of the U.S. Trade Representative, 
the international commercial fishing industry receives annual subsidies 
of at least $15 billion, equivalent to more than 20 percent of the 
value of the world's commercial fish catch.
    Congress should expand innovation and competitiveness legislation 
to incorporate ocean science and education consistent with the Bush 
Administration's Ocean Research Priorities Plan and Implementation 
Strategy. The innovation and competitiveness initiative being pursued 
as a result of the recommendations issued by the National Academies in 
its report, Rising Above the Gathering Storm, highlights the importance 
of improving and maintaining strong research and education programs. 
Ocean-related research and education programs in agencies across the 
Federal Government hold immense potential for propelling the economic 
interest of the United States and should be incorporated into this 
initiative.
    The Ocean Research Priorities Plan and Implementation Strategy will 
identify the best investment opportunities in marine science. Our 
oceans are rich in energy resources, marine biotechnology is a rapidly 
growing industry that is capitalizing on the vast biological and 
genetic diversity of marine life, and advanced underwater vehicles are 
opening up an era of ocean exploration that has captured the 
imagination of a new generation of school-aged children. Cutting-edge 
research using massive oceanic and atmospheric data sets and a new 
focus on promoting multi-disciplinary studies in support of ocean 
science are laying the groundwork for technological advances and a 
sophisticated workforce that will allow our Nation to be a leader in 
the global shift toward a service sector that provides environmentally-
sensitive technologies and policies.
    Congress and the President have proposed legislative and funding 
initiatives to implement innovation and competitiveness activities, 
with a focus on programs in the Department of Energy, NSF, and the 
National Institute of Standards and Technology. Congress should expand 
its vision and include enhanced programs for ocean-related research and 
education as part of the initiative. Congress should target the 
initiatives identified by the President's Committee on Ocean Policy in 
its Ocean Research Priorities Plan and Implementation Strategy, which 
is currently in development. This strategy, developed with input from 
the ocean community and subject to a comprehensive review by a special 
National Academies review committee, will identify ocean-related 
research and education priorities government-wide, providing Congress 
with an ocean science funding roadmap. This strategy is scheduled to be 
completed at the end of the year. However, the other priority 
recommendations described in this section offer immediate opportunities 
to focus and strengthen currently uncoordinated programs and platforms 
from which new initiatives can be launched.
    Congress should enact legislation to authorize and fund the 
Integrated Ocean Observing System (IOOS). The IOOS is the domestic 
element of the international Global Ocean Observing System, which is 
part of the Global Earth Observing System of Systems. Congress should 
authorize and fund a comprehensive and sustained national IOOS that 
will support and enhance our ability to understand and manage ocean and 
coastal resources in a number of ways, including: protecting lives and 
livelihoods from natural hazards; supporting national defense and 
homeland security efforts; safeguarding public health; developing new 
energy resources; adapting to climate change; and conserving 
biodiversity. Congress needs to consider both ground- and space-based 
research (NASA, NSF) and operational (NOAA) ocean-observing assets in 
developing the budget for the IOOS. Implementation of the IOOS should 
be carried out in a manner that recognizes, nurtures, and makes use of 
existing non-Federal infrastructure and capacity.
    Together, IOOS, the international Global Ocean Observing System, 
and the multi-dimensional Global Earth Observing System of Systems 
offer scientists and managers a more complete view of atmospheric, 
terrestrial, and oceanic interactions occurring at the global, 
national, and regional scales.
    IOOS, broadly speaking, provides the infrastructure and tools 
needed to translate science into products and services needed by 
decisionmakers. IOOS supports the hardware, software, data management, 
synthesis, and modeling activities that integrate the data and 
information generated by the research community. IOOS also helps ensure 
that research efforts are directed toward issues and questions that are 
limiting the capacity of decisionmakers to make informed policy and 
regulatory decisions. For example, IOOS supports activities such as the 
enhanced water quality monitoring system called for in the President's 
Ocean Action Plan, ecosystem modeling that supports multi-species 
management of our ocean fisheries, and forecasting and tracking harmful 
algal blooms.
    IOOS is also where disparate data sets are integrated to detect 
short- and long-term shifts in the health and productivity of key 
ecosystems and where socioeconomic trends are analyzed. This 
information is then synthesized and translated into products that are 
understandable to decisionmakers, who then use it to guide their 
decisions. Hidden inside this process are infrastructure requirements 
(e.g., ships, satellites, sensors, laboratories, computer soft- and 
hardware) and the development of tools (e.g., new or expanded ecosystem 
models) that are increasingly sophisticated and costly. Consequently, a 
comprehensive IOOS requires Congress to pass authorizing legislation 
that will guide both the activities of Federal agencies and the 
numerous state and private sector partners who are also deeply vested 
in the system. Without a clear specification of the roles and 
responsibilities of the various players and increased funding to 
implement such a system, the ocean will continue to be the weak link in 
a global observing system that is already driving major economic 
policymaking.
    Congress should establish a New Ecosystem Research Initiative to 
foster scientific cooperation and integration by rewarding interagency 
and multidisciplinary research that addresses ecosystem questions. 
Decisionmakers need information that will help them manage human 
activities and natural resources in a manner that provides the greatest 
benefit to the Nation. While there is broad agreement among scientists 
and natural resource managers that the United States must transition 
toward ecosystem-based management, there is considerable confusion 
about what this process entails. Will specific ecosystem concerns, such 
as the fate or habitat needs of an endangered species, or a regime-wide 
phenomenon, such as climate change, take precedent over human 
priorities? Are we headed toward dramatic ecological regime shifts 
induced by human activities, or are these changes being driven by 
natural processes?
    These are legitimate questions that require the government to 
develop a more coherent and broad-based research program. Such a 
program must be based on multidisciplinary approaches and the 
cooperation of scientists from differing disciplines within and outside 
the government. An Ecosystem Research Initiative should integrate 
ongoing basic and applied ecosystem research across the spectrum of 
Federal agencies currently engaged in such research. The consolidation 
of ecosystem-related research activities under a broad interagency 
cross-cutting initiative--perhaps modeled on the Climate Change 
Research Program--is key to delivering usable information to managers 
and policymakers. For the initiative to be successful, it must be 
granted an appropriate level of discretionary funding authority to 
direct existing and new resources toward high priority research areas 
through a competitive process.
    Congress should support an enhanced National Ocean Exploration 
Program. It should enact a National Ocean Exploration Program Act that 
supports an expanded national ocean exploration program. A robust 
exploration program that coordinates, enhances, and strengthens 
activities across Federal agencies is a missing link in a national 
strategy to better understand the Earth's environment. Exploration 
focuses on curiosity-driven research of ocean-related processes, 
properties, and places that are poorly known or understood. Put into 
context, more than 1,500 people have climbed to the summit of Mt. 
Everest, more than 300 have journeyed into space, 12 have walked on the 
moon, but only 2 people have descended and returned in a single dive to 
the deepest part of the ocean, spending less than 30 minutes on the 
ocean bottom, 95 percent of which remains unexplored.
    The opportunity is ripe to develop a multi-agency exploration 
initiative given the placement of NOAA, NSF, and NASA in the same 
Congressional Appropriations Subcommittee, augmented by the support and 
guidance provided by the Navy. Such an initiative should work across 
the spectrum of the biological, chemical, and geological sciences and 
be guided by a competitive process coordinated by NOAA and NSF with 
strong guidance from the research community. It should ensure that 
resulting technological and scientific advances, like other basic 
research programs, will generate returns far in excess of their costs.
    The discovery of new ecosystems and species has the potential for 
accelerating our understanding of the origin of life and evolutionary 
processes on Earth and possibly on other planets as well. An expanded 
national ocean exploration initiative will allow Congress and the 
Administration to create a legacy that will be recognized by future 
generations as a turning point in the development of a national ocean 
policy.
    Congress should support a National Ocean Education Strategy. 
Congress should mandate the development of a national ocean education 
and outreach strategy that coalesces and integrates the existing array 
of independently conceived and implemented education and outreach 
programs and activities. There are growing numbers of ocean-related 
education and outreach activities occurring at all levels of government 
and within the nongovernmental sector. The lack of a coherent strategy 
for aligning these activities is compromising their effectiveness and 
limiting their capacity to generate additional funding support. 
Congress should work with the President to establish a governing body 
responsible for developing a national ocean education and outreach 
strategy. The strategy should enhance educational achievement in the 
natural and social sciences, increase ocean awareness, include a five-
year plan for formal and informal activities, and facilitate links 
among Federal, state, local, and nongovernmental programs. NOAA and NSF 
should be given the lead for this activity, and Congress should look 
for opportunities to increase support for successful programs within 
these and other agencies, such as the NSF Centers for Ocean Science 
Education Excellence.
    Congress should establish an Ocean Trust Fund in the U.S. Treasury 
as a dedicated source of funds for improved management and 
understanding of ocean and coastal resources by Federal and state 
governments. Both Commissions addressed the need for stable funding for 
implementing their recommendations, making the case that our oceans, 
coasts, and Great Lakes are major contributors to the U.S. economy, 
with half the Nation's GDP generated in coastal watersheds. Maintaining 
the economic and ecological viability of our oceans and coasts requires 
decisionmakers at the national and state governmental levels to have 
access to unbiased, credible, and up-to-date information to make 
informed decisions. Unfortunately, chronic under-investment has left 
much of our ocean-related infrastructure in woefully poor condition. In 
addition, Federal and state ocean and coastal agencies need more 
financial resources to meet the challenges that were so clearly 
documented in the reports of the two Commissions.
    Given this acknowledged under-investment, each Commission was well 
aware of the budget implications inherent in its set of 
recommendations. Implementation costs outlined in the two reports 
arrived at similar projections--it will cost approximately $3-4 billion 
in new funds annually to meet the needs of a comprehensive ocean 
policy. A portion of those funds should be allocated to all coastal 
states to help sustain their renewable coastal resources. The other 
portion should be used to support the programs and activities of the 
various Federal agencies with ocean and coastal responsibilities. To 
address these needs and to demonstrate a national commitment to a new 
national ocean policy, each Commission recommended that an Ocean Trust 
Fund, composed of dedicated resources, be established in the U.S. 
Treasury.
    However, each Commission had a somewhat different approach to the 
sources of and uses for the funds. The U.S. Commission on Ocean Policy 
proposed a dedicated fund in the U.S. Treasury to be composed of all 
``unallocated'' receipts from outer continental shelf (OCS) oil and gas 
development and resource rents from other new and emerging Federal 
offshore activities. The U.S. Commission made clear that its proposal 
would not affect programs that currently receive OCS oil and gas 
revenues, specifically the Land and Water Conservation Fund and two 
additional programs. Rather, only after revenues for those programs 
were allocated in accordance with law, would any remaining offshore 
proceeds be deposited in the Trust Fund to be used by all coastal 
states and Federal ocean agencies for a range of purposes. Generally, 
those purposes for the coastal states (to receive $1 billion annually) 
would focus on the conservation and sustainable development of 
renewable ocean resources, including any new responsibilities that 
arise as a result of the U.S. Commission's recommendations and the 
enhancement of programs that are currently under-funded. Additionally, 
the U.S. Commission recognized that the OCS producing states should be 
compensated for the impacts of energy activity in adjacent Federal 
waters. Finally, the remainder of the funds would be distributed among 
Federal agencies to address the new or expanded activities assigned to 
them as a result of Commission recommendations.
    The Pew Oceans Commission recommended that Congress create a 
permanent, dedicated fund for coastal conservation. It looked at a 
broad range of potential sources of ocean-related revenues, but 
ultimately recommended using general revenues with the additional 
suggestion that Congress consider tapping proceeds derived from OCS oil 
and gas development for habitat protection. The Pew Commission went on 
to maintain that this should be done in a way that does not encourage 
additional OCS energy development.
    We are aware that recently the House, and on Monday of this week, 
the Senate, each took action to move bills that, in part, would share a 
portion of OCS oil and gas receipts with ``producing'' or ``adjacent'' 
coastal states. As noted above, these bills indirectly address one of 
the key issues reviewed by each of our Commissions--the source of 
ocean-related financial resources dedicated to carry out a range of 
ocean and coastal activities, including those occasioned by offshore 
energy activity and those needed to implement a new and comprehensive 
national ocean policy (Ocean Trust Fund). With respect to such sources 
and the eligible uses of the revenues, the Joint Initiative recognizes 
that there are several options to consider and difficult decisions to 
be made. We stand ready to engage with Congress in an ongoing 
discussion about how to resolve these important issues. In the end, 
establishing a dedicated Ocean Trust Fund is one of the most important 
early steps Congress could take to demonstrate its commitment to a new 
national ocean policy.
    Congress should increase base funding for core ocean and coastal 
programs. The loss of funding for some key ocean and coastal programs 
in FY 2006 and the lack of enhanced funding to address high-priority 
challenges identified in the Commissions' reports must be reversed if 
we are to preserve the economic benefits derived from ocean-dependent 
activities and protect the health and productivity of ocean and coastal 
ecosystems. Congress should increase funding for ocean and coastal 
activities throughout the Federal Government in FY 2007 and beyond, 
with an initial focus on enhancing core base programs and support for a 
few broad initiatives. To this end, the Joint Initiative would like to 
convey our deep appreciation for support provided for ocean-related 
programs in the FY 2007 Commerce, Justice, Science appropriations bill 
reported out of the Committee on Appropriations this month. We are 
heartened by the Senate's strong action and available to help secure 
the needed support for the spending bill as it goes before the full 
Senate and into conference with the House of Representatives. Details 
related to the Joint Initiative's funding recommendations are provided 
in Appendix B to this written testimony.
    Further, Congress should direct that the Administration develop an 
integrated ocean budget. The lack of a coherent listing and analysis of 
ocean and coastal programs distributed throughout the Federal 
Government hampers the ability of Congress and the Administration to 
evaluate, coordinate, and integrate ocean- and coastal-related science, 
management, and education programs within agencies across the Federal 
Government. To address this problem, either as separate legislation or 
as part of an appropriations bill, Congress should direct the President 
to submit an integrated ocean budget, making it easier to track support 
for and analyze the progress of departmentally-isolated but highly 
interactive ocean and coastal programs, and thus facilitating greater 
coordination among Federal programs.

Conclusion
    We close by commending this National Ocean Policy Study and its 
staff for your commitment to making meaningful change in the way we 
manage our oceans and coasts. The time is ripe for Congress again to 
act boldly to transform a dysfunctional Federal management regime into 
a truly effective and farsighted system for managing our magnificent 
oceans and coasts to benefit current and future generations. The 
members of the Joint Ocean Commission Initiative stand ready to assist 
the Congress in every way possible to meet this formidable challenge.
Appendix A--Pending Ocean and Coastal Legislation in the 109th Congress
    The following lists a number of bills that have progressed 
significantly through the 109th Congress, passage of which would signal 
progress and demonstrate Congressional commitment to addressing the 
need to improve management of our oceans and coasts. This list does not 
include reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act, which is discussed in the body of this testimony.
    Marine Debris Research, Prevention and Reduction Act (S. 362) 
establishes within NOAA a Marine Debris Prevention and Removal Program 
that would reduce the adverse impacts of lost and discarded fishing 
gear on living marine resources and navigation safety and would 
encourage outreach and education of the public and other stakeholders 
in the fishing, fishing gear manufacturing, and plastic and waste 
management industries. This bill has been approved by the Senate and in 
the House was referred to the Committee on Transportation and 
Infrastructure and additionally to the Committee on Resources. Both 
Committees have reported the bill and it was placed on the House 
calendar on July 24, 2006.
    Tsunami Preparedness Act (S. 50) directs the Administrator of NOAA 
to improve our Nation's tsunami detection, forecast, warning, 
preparedness, and mitigation capacity through improved sensing 
technology, data collection and analysis abilities, and information and 
communication systems. The bill directs the Administrator to take a 
strong international leadership role to facilitate the development of a 
global warning system. This bill was passed by the Senate in July 2005. 
In the House, it was referred to the Committees on Resources, Science, 
and Transportation and Infrastructure.
    National Ocean Exploration Program Act (S. 39) calls for the 
Secretary of Commerce to develop within NOAA a coordinated national 
ocean exploration program that will increase scientific knowledge for 
the informed management, use, and preservation of oceanic, coastal, and 
large lake resources through undersea research, exploration, education, 
and technology development. This bill was passed by the Senate in July 
2005. In the House, it was referred to the House Committees on 
Resources and Science.
    Coastal and Estuarine Land Protection Act (S. 1215) would codify an 
existing Federal program in NOAA by which coastal states can compete 
for matching funds to acquire land or easements for the protection of 
sensitive coastal ecosystems with the goal of better ensuring the 
ecological and economic health of coastal communities. This bill has 
been reported out of the Senate Commerce Committee and placed on the 
Senate calendar. A companion bill in the House, H.R. 3187, has been 
referred to the Committee on Resources.
    Coral Reef Conservation Amendments Act of 2005 (S. 1390) enhances 
funding for coral reef conservation, creates a community-based planning 
grants program to implement locally designed coral management and 
protection plans, and strengthens Federal authority to undertake 
emergency response actions to prevent or mitigate imminent coral reef 
destruction from vessel or other physical damage. This bill was passed 
by unanimous consent in the Senate and has been referred to the 
Committee on Resources in the House.
    Ocean and Coastal Mapping Integration Act (S. 364) directs the 
Administrator of NOAA to establish a program to develop a coordinated 
and comprehensive Federal ocean and coastal mapping plan for the Great 
Lakes and coastal state waters, the territorial sea, the Exclusive 
Economic Zone, and the continental shelf of the United States. The 
mapping plan should enhance ecosystem approaches in decisionmaking, 
establish research priorities, and advance ocean and coastal science. 
This bill has been reported out of the Senate Commerce Committee and 
placed on the Senate calendar.
    In addition, the following bills should be high priorities for 
Congress to work on this year. The Joint Initiative is working to 
provide input on specifics of each of these bills and stands ready to 
work with Congressional staff to ensure that these bills incorporate 
the principles embodied by the two Commissions in their reports.
    Ocean and Coastal Observation System Act of 2005 (S. 361) calls on 
the President to establish an integrated system for ocean and coastal 
observation that would provide data and information for the timely 
detection and prediction of changes in the ocean and coastal 
environment that impact the Nation's social, economic, and ecological 
systems. This bill was passed by the Senate in July 2005. In the House, 
it was referred to the House Committees on Resources and Science.
    Coastal Zone Enhancement Reauthorization Act (S. 360) would improve 
the planning and coordinating capabilities of coastal states, support 
community-based planning to address pressing development issues in the 
coastal zone, protect coastal habitats, and encourage the development 
and use of innovative technology in coastal and estuarine management. 
This bill was the subject of a hearing by the Senate Committee on 
Commerce, Science, and Transportation and was reported favorably by the 
Committee. It is currently on the Senate legislative calendar.
    Ballast Water Management Act of 2005 (S. 363) is designed to 
prevent ballast water introductions of nonindigenous species, and 
address aquatic nuisance species and the significant adverse 
environmental and economic harm that results from these releases. The 
bill was reported from the Senate Committee on Commerce, Science, and 
Transportation in November 2005 and is currently on the Senate 
legislative calendar.
    The Flood Insurance Reform and Modernization Act of 2006 (S. 3589) 
would forgive nearly $24 billion owed to the U.S. Treasury by the 
National Flood Insurance Program for the 2005 hurricane season. It 
would also phase-out premium subsidies on all non-primary residences 
and severe repetitive loss properties and calls for new standards that 
program officials must use to complete a floodplains map modernization 
process. This bill was introduced at mark-up and reported out of the 
Senate Committee on Banking, Housing, and Urban Affairs and was placed 
on the Senate calendar.
    Water Resources Development Act of 2005 (S. 728) would reauthorize 
the Act and reform the U.S. Army Corps of Engineers. The bill was 
reported by the Senate Committee on Environment and Public Works in 
April 2005, and is on the Senate legislative calendar. It underwent 
Senate floor action in July 2006 and was returned to the Senate 
calendar.

 Appendix B--Overarching Initiatives for Funding Integrated Ocean and 
                           Coastal Governance

    As Congress considers ocean-related funding during the FY 2007 
appropriations process and beyond, its funding priorities should 
recognize and support programs and activities that strengthen the long-
term economic health of the Nation. The ocean and coastal economies of 
the coastal states generate roughly three-quarters of the Nation's 
annual GDP, exceeding $7.0 trillion in 2000. The ``ocean economy'' 
alone, meaning those activities that rely specifically on the oceans to 
support production, generated approximately $120 billion in 2000. Thus, 
the ocean economy was almost 2.5 times larger than the agricultural 
economy in terms of output and over 150 percent larger than employment 
in the farm sector. \1\
---------------------------------------------------------------------------
    \1\ An Ocean Blueprint for the 21st Century. U.S. Commission on 
Ocean Policy, Appendix C, 2004.
---------------------------------------------------------------------------
    Unfortunately, under-investment in core ocean and coastal science, 
management, and education programs have left the Nation vulnerable to 
both chronic and catastrophic threats along our coasts. Poor water 
quality due to non-point source pollution, ecologic degradation 
associated with invasive species and habitat loss, and inappropriate 
land use that has resulted in escalating costs associated natural 
hazards are all evidence of the inadequacies of current ocean and 
coastal governance and funding regimes.
    Further exacerbating the situation is the fact that the funding 
regime for Federal ocean-related programs is in disarray. NOAA, the 
Nation's lead civilian ocean agency, has a $3.9 billion budget 
consisting of hundreds of budget lines, which support important but 
discrete activities. Ocean and coastal programs in other agencies, such 
as DOI, EPA, and NASA, are often considered lower priorities and suffer 
from chronic under-investment. The lack of emphasis on enhancing core 
ocean programs and activities across the government is clearly 
illustrated by the Administration's 2005 Ocean and Coastal Activities 
Report to the U.S. Congress \2\ outyear budget projection for FY 2010, 
which shows decreases in most agencies' ocean budgets, with NOAA 
decreasing by $60 million, Department of Defense by $180 million, NASA 
by $90 million, Department of Transportation by $120 million, and USDA 
by $100 million, while the ocean budget for DHS increases by $500 
million.
---------------------------------------------------------------------------
    \2\ Federal Ocean and Coastal Activities Report to the U.S. 
Congress. Prepared by the Interagency Committee on Ocean Science and 
Resource Management Integration. December 2005.
---------------------------------------------------------------------------
    Due to the wide distribution of ocean-related programs throughout 
the Federal system and the lack of a coherent process for monitoring 
their support, the Joint Initiative recommends that Congress begin 
moving toward a more comprehensive funding regime for ocean-related 
programs that is capable of focusing on high priority, large-scale 
initiatives that provide the agencies with increased flexibility and 
discretionary funding authority to respond to existing and emerging 
challenges. This will require a significant shift in the Administration 
budget formulation process, as well as how Congress exercises its 
fiscal oversight of Federal ocean programs and activities.
    Following the approach outlined above, the Joint Initiative has 
identified four broad functional categories for organizing ocean and 
coastal funding. These are:

  <bullet> Ocean Governance and Coastal Management.
  <bullet> Ocean Science and Research.
  <bullet> Monitoring, Observing, and Mapping.
  <bullet> Ocean Education and Outreach.

    Outlined below, the Joint Ocean Commission Initiative recommends 
$715 million in new funding above FY 2006 levels to cover the costs of 
implementing a new national ocean policy consistent with the 
recommendations of the two Commissions. In addition, recommended new 
funds for implementing a strengthened Magnuson-Stevens Fisheries Act 
($29 million) and for implementation costs related to accession to the 
United Nations Convention on the Law of the Sea ($3 million) bring the 
overall new funding needed to a total of $747 million.
Funding Category 1: Ocean Governance and Coastal Management
    Congress should provide funds to support new governance efforts at 
both the Federal and regional levels, with additional emphasis on 
expanding support for watershed initiatives that support ecosystem-
based management. Moving toward an ecosystem-based management approach 
will demand major changes to the current Federal approach to ocean 
management and governance. The coordination and integration required as 
part of this process has demanded considerable additional effort by 
managers given the increasing complexity of the issues being addressed, 
such as evaluating cumulative impacts on coastal watersheds. This 
process should mature over time, but it will languish unless managers 
are provided with additional funding to help facilitate the 
communication and coordination needed to make it successful. While 
funding is needed across a broad spectrum of ocean management 
activities, the Joint Initiative believes that the greatest potential 
for short-term gains is associated with the support for the following 
actions.
    Support for the new interagency coordination efforts. The President 
established the Committee on Ocean Policy and its supporting science 
and policy coordination subcommittees to facilitate greater interagency 
collaboration and communication. The costs associated with these 
efforts have been borne by the member agencies, which provide staff and 
funding to support the interagency effort. While this is a functional 
approach, providing both CEQ and the Office of Science and Technology 
Policy with $500,000 each to support a small permanent staff dedicated 
to supporting interagency cooperation, as recommended by both 
Commissions, would greatly increase the effectiveness of the current 
effort to integrate Federal programs and also enhance Federal, state, 
and regional partnerships. Total: +$1 million.
    Support regional coordination. Efforts to develop regional ocean 
and coastal coordination strategies are increasing around the Nation. 
Great progress has been made in the Great Lakes and the Gulf of Mexico, 
and efforts are beginning to emerge on the West Coast and in the 
Southeast. Funding for these efforts has come from a mixture of 
sources, but there is no coherent Federal strategy for supporting these 
efforts. The U.S. Commission on Ocean Policy estimated the cost 
supporting regional coordination efforts at roughly $5 million the 
first year, rising to $12 million in the third year. Total: +$5 
million.
    Support watershed-related activities. There is growing recognition 
of the value of a watershed approach and the importance of addressing 
the cumulative impacts of all activities that take place within a 
watershed. EPA has reoriented Federal and state clean water programs to 
address certain problems on a watershed basis and has developed 
extensive guidance for use by states, tribes, and territories, 
including the development of an online Watershed Academy and a targeted 
watershed grant program that encourages community-based approaches. 
USDA has chosen high priority watersheds in which agricultural runoff 
is a major source of pollution as the basis for distributing funds 
under its conservation programs. NOAA's Coastal Zone Management Program 
has been instrumental in guiding state efforts to watershed management 
approaches, and the opportunity exists for Congress to strengthen its 
support for watershed management during the reauthorization of the 
CZMA. The transition toward watershed management would benefit from 
additional resources for these programs, and the Joint Initiative 
suggests providing an additional $20 million for the NOAA Coastal Zone 
Management Program, $5 million for the EPA watershed grant program, and 
$4 million for USDA's Watershed Surveys and Planning account, above 
their FY 2006 funded levels. The U.S. Army Corps of Engineers also 
requires greater ability to use its funding to support watershed-wide 
feasibility studies and impact analyses prior to making final 
determinations on proposed coastal projects. Total: +$29 million.
    Other established conservation and management programs have made 
significant contributions toward maintaining and improving the quality 
of coastal resources and could make even greater contributions with 
additional fiscal resources. These include the EPA National Estuary 
Program; the DOI Coastal Program, Coastal Barrier Resources System, and 
Coastal Wetland Grants Program; and NOAA's Coastal and Estuarine Land 
Conservation Program and National Marine Sanctuaries Program. While the 
Joint Initiative has not identified discrete levels of funding 
applicable to each of these programs, the need clearly exceeds $50 
million, recognizing that the U.S. Commission suggested at least an 
additional $35 million in support for the Coastal Estuarine Land and 
Conservation Program and the +$10 million funding cut endured by the 
National Marine Sanctuary Program in FY 2006. Total: +$50 million.
    Total for Ocean Governance and Coastal Management: +$85 million.

Funding Category 2: Ocean Science and Research
    Congress should encourage greater interagency collaboration in 
support of all dimensions of ocean science, from exploration and basic 
research to applied research, by supporting a number of overarching 
initiatives, including ocean exploration, ecosystem research, ocean 
observing, and education, the Administration is currently developing an 
Ocean Research and Priorities Plan and Implementation Strategy \3\ that 
will eventually provide a roadmap to assist Congress in prioritizing 
ocean science and research funding. However, given the overwhelming 
need to take meaningful action promptly, priority should be given to 
supporting endeavors that offer frameworks capable of providing focus 
and continuity for ocean science and research programs. The Joint 
Initiative strongly encourages Congress to support an enhanced ocean 
research and education program, establishment of a new ecosystem 
research initiative, the implementation of an Integrated Ocean 
Observing System, and a national ocean education strategy.
---------------------------------------------------------------------------
    \3\ Ocean Research Priorities Plan and Implementation Strategy 
(http://ocean.ceq.gov/about/docs/jsost_orpp_planningdoc.pdf).
---------------------------------------------------------------------------
    Congress should expand the national innovation and competitiveness 
initiative to include oceans. The President's American Competitiveness 
Initiative provides an excellent opportunity for Congress to draw upon 
the scientific and educational resources and expertise of the ocean 
community to contribute toward this broad national initiative. Thus, in 
the context of supporting an enhanced national research enterprise, 
Congress should increase resources for ocean research and exploration 
programs in NOAA, NSF, and the Navy, as well as other ocean and coastal 
programs in Federal agencies, as part of the innovation and 
competitiveness initiative.
    Ocean science and exploration are closely related endeavors. 
Explorers discover the new places, species, and phenomena that other 
scientists then study and explain. Many experts have pointed out that 
we now know more about the surface of the Moon--and increasingly the 
surface of Mars--than we do about the bottom of the ocean, despite the 
huge potential for answering fundamental questions about our planet and 
discovering new forms of life in the soup of biological diversity 
contained within our oceans. This effort, in turn, has the potential to 
not only support a new economic enterprise in marine biotechnology, but 
also allow us to begin to address the growing health-related concerns 
associated with harmful algal blooms, seafood-related illnesses, and 
water-borne chemical contaminants.
    Congress should support the development of an expanded ocean 
research and exploration initiative. The Joint Initiative recommends 
that Congress support an expanded ocean exploration initiative that 
incorporates many of the basic ocean research programs and activities 
within the Federal Government. Currently, ocean exploration is 
supported by a broad array of Federal programs housed in NSF, NOAA, and 
the Navy, while basic ocean research is spread across many Federal 
agencies. Unfortunately, ocean research and exploration funding has 
stagnated or decreased, resulting in a steady real dollar decline in 
support for basic research over the past decades. This decline 
compromises our Nation's economic and national security and was the 
basis for both Commissions' support for doubling the Federal ocean and 
coastal research budget from its current level of $650 million per year 
to $1.3 billion over the next 5 years.
    Congress must reverse this decline by enhancing ocean research 
funding. Under an ocean research and exploration initiative, Congress 
should strongly consider enhancing the NSF Geosciences Directorate 
account by $42 million, the NSF Major Research Equipment and Facilities 
Construction Account by $50 million, the NSF Polar Programs by $50 
million, and the Navy's 6.1 account by $50 million from FY 2006 enacted 
levels. These programs are the foundation of ocean research and 
exploration, and enhanced support is crucial. In addition, there are 
numerous other basic research programs that merit increased support 
from their FY 2006 funding levels, including, but not limited to: NOAA 
Ocean Exploration (+$36 million); NOAA/National Centers for Ocean 
Coastal Science (+$25 million); NOAA/Ocean Human Health (+$15 million); 
NOAA/National Undersea Research Program (+$11 million); DOI/USGS 
Coastal and Marine Geology Program (+$10 million); and EPA/ORD Ocean 
and Coastal Research (+$10 million). Other areas of ocean-related 
research of great importance that would benefit from additional funding 
include ocean and coastal remote sensing, arctic research, atmospheric 
deposition, economic and social analysis, invasive species, and coral 
reefs. Total: +$299 million.
    Congress should complement its ocean research and exploration 
initiative with an ecosystem research initiative. Such an initiative 
would greatly assist the Nation as we transition toward an ecosystem-
based management approach. The initiative would stimulate 
multidisciplinary approaches and scientific cooperation among Federal 
and non-Federal research entities. The Joint Initiative envisions this 
initiative as having an applied research focus, addressing issues that 
will directly benefit managers and policymakers who must understand and 
balance economic, social, and environmental factors when making 
decisions that will affect the health and productivity of coastal 
ecosystem.
    The Joint Initiative recognizes that budgetary initiatives are 
primarily a responsibility of the Executive Branch. Thus, we recommend 
that Congress strongly encourage the Administration to consider 
developing and supporting an ecosystem research budget initiative. Such 
an initiative would help identify and begin the process of coordinating 
the broad suite of ecosystem-related research activities taking place 
throughout the government. Examples of programs and activities that 
could possibly be coordinated under this initiative include: aquatic 
invasive species research; ocean remote sensing; marine mammal 
research; development of fishery ecosystem plans; habitat restoration; 
coral reef research; and marine protected areas, including the National 
Estuarine Research Reserve System. Congress should ensure that funding 
for these activities and programs is protected, and preferably 
enhanced, as part of concerted national effort to support Federal, 
state, and regional efforts to restore the health and productivity of 
our oceans, coasts, and Great Lakes.
    Funding Total for Ocean Science and Research: +$299 million.

Funding Category 3: Monitoring, Observing, and Mapping
    Congress should increase funding for the implementation of an 
Integrated Ocean Observing System (IOOS) and other scientific tools and 
infrastructure that are the backbone of the ocean science enterprise. A 
critical component of a robust ocean science enterprise is the set of 
tools that allow scientists to collect, monitor, observe, map, model, 
analyze, and synthesize data, and then translate and communicate their 
findings in useable and understandable forms to managers and 
policymakers. An important tool to achieve well-informed, science-based 
ocean and coastal management with an ecosystem focus is the national 
IOOS. As the ocean component of the President's Global Earth Observing 
System of Systems, a fully operating IOOS will provide critical 
information for: protecting human lives and property from marine 
hazards; improving ocean health; predicting global climate change; 
enhancing the Nation's security; and providing for the protection, 
sustainable use, and enjoyment of ocean resources.
    Many of the elements of a national system are already in place, but 
they operate independently. Support for IOOS is the process through 
which these elements are interconnected into global and coastal 
observation networks. Congress should place a high priority on the 
passage of legislation mandating the implementation of an IOOS and 
should increase the level of funding in support of global and regional 
IOOS programs, providing the community with the flexibility to direct 
funding toward activities and infrastructure that will allow for the 
orderly and coherent development of an effective and efficient program.
    There are many elements that constitute the IOOS, some 
infrastructure-related, others programmatic activities that develop 
more effective tools for translating and sharing the information 
generated. One very important element is the need to create a national 
base map that is seamless across the shoreline and can incorporate new 
geospatial data of all types as they are collected. Another is the need 
to reinforce the network of infrastructure and technology used to 
support science and exploration, such as research vessels, satellites, 
buoys, and sensors, as well as computer hardware and software. A third 
is establishing a data management and communication center where 
Federal and state agencies can coordinate the collection, archiving, 
fusion, modeling, and distribution of IOOS-related information and 
products.
    Congress should increase its support for the IOOS. The U.S. 
Commission on Ocean Policy identified four components that are 
essential for the IOOS, including: data management and communications; 
enhancing regional coastal information systems; accelerating 
implementation of the Global Ocean Observing System; and enhancing and 
integrating existing federally-supported observing programs. The first 
year cost was calculated at $138 million, with the annual cost 
increasing to roughly $500 million in the fifth year. The Joint 
Initiative strongly recommends that Congress bolster the funding 
commitment to IOOS, with new funding being targeted among the three 
areas described above. Total: +$138 million.
    Other monitoring-related activities and suggested levels of 
increased financial support they require are provided below. The 
funding levels are generally based on guidance provided in Chapter 30 
and Appendix G of the U.S. Commission on Ocean Policy report and 
represent increases above enacted funding levels: develop a national 
monitoring network ($10 million); implement improved sediment research 
monitoring, assessment, and technologies ($12 million); expand Federal 
mapping and charting and data integration ($50 million); establish a 
NOAA/Navy ocean and coastal information management and communication 
partnership ($20 million); develop regional approaches to address 
atmospheric deposition ($3 million); modernize NPDES monitoring, 
strengthen enforcement, and implement stormwater programs ($7 million); 
increase ballast water research and demonstration programs ($2 
million); implement early detection and notification plans for aquatic 
invasive species ($30 million); expand marine debris monitoring ($5 
million); create and fund a national program for social science and 
economic research ($5 million); and increase support for data 
management software ($7 million). Total: +$151 million.
    Total for Monitoring, Observing, and Mapping: +$289 million.

Funding Category 4: Ocean Education and Outreach
    Congress should increase funding for established ocean education 
programs. We recommend the establishment of a national ocean education 
strategy, with NOAA and NSF being given the lead in coordinating the 
program. The strategy should enhance educational achievement in the 
physical, natural, and social sciences, increase ocean awareness, 
include a five-year plan for formal and informal activities, and 
facilitate links among Federal, state, local, and nongovernmental 
programs. It is our understanding that the Administration's Ocean 
Research Priorities Plan and Implementation Strategy will include 
recommendations for advancing Federal ocean education programs. The 
Joint Initiative feels strongly that Congress should increase funding 
for existing Federal ocean education initiatives in NOAA, NSF, and the 
Navy in FY 2007. Doing so will contribute directly to the objectives of 
the innovation and competitiveness initiative supported by Congress by 
enticing more students at all levels of education into scientific and 
technical professions. An increased investment in ocean-related 
education will play a key role in stimulating a new generation of 
engineers and scientists who will help this Nation maintain its 
technological lead in an increasingly competitive world while also 
helping to establish a new ocean stewardship ethic.
    Congress should make funding for formal and informal education a 
priority and provide support above the FY 2006 enacted level for the 
following programs: NOAA Education Initiatives ($12 million); NSF 
Centers for Ocean Science and Education Excellence ($10 million); and 
NOAA Sea Grant ($20 million). We anticipate identifying a broader suite 
of programs across other Federal agencies when the Administration 
completes its Ocean Research Priorities Plan and Implementation 
Strategy, one component of which will address ocean-related education 
funding needs.
    Total for Ocean Education and Outreach: +$42 million.
    The Joint Initiative recognizes that expanding beyond relatively 
rigid mission-driven responsibilities toward multi-agency, multi-
discipline funding initiatives that are not rewarded in the Federal 
budget formulation process will require a major change in the Executive 
Branch budget formulation process. It will also require Congress to 
reconsider how it authorizes and funds such initiatives. A sustained 
and successful transition toward ecosystem-based management is as 
dependent upon the willingness of Congress to reconsider its 
institutional policy-setting and funding processes as it is upon the 
ocean science community to demonstrate its capacity for collaborating 
and coordinating in a meaningful way through the Federal budget 
process. Thus, Congress should look toward developing oversight 
mechanisms that will strengthen its capacity to evaluate and guide 
interagency cooperation and funding.
    In this appendix, the Joint Initiative makes a number of funding 
recommendations, both general and specific, and we want to emphasize 
that current funding levels are clearly inadequate given the state of 
our oceans and coasts. It is not our intent to develop a comprehensive 
budget analysis in this document. Rather, we will continue to work with 
the ocean community to build upon these funding recommendations in the 
coming months and provide Congress with additional information that we 
hope will be helpful in the appropriations process.

    Senator Sununu. Thank you very much, Congressman Panetta. 
Next we have Mr. Paul Kelly, who was a Commissioner on the U.S. 
Commission on Ocean Policy. Welcome.

  STATEMENT OF PAUL L. KELLY, MEMBER, JOINT OCEAN COMMISSION 
                     INITIATIVE TASK FORCE

    Mr. Kelly. Thank you, Mr. Chairman. It is a pleasure for me 
to be here this morning. When the U.S. Commission on Ocean 
Policy, of which I was a Commissioner and the Pew Commission 
were developing our respective reports, we wondered where the 
two Commissions would come out but then we discovered that we 
were looking at a lot of the same problems and issues and in 
many ways, the recommendations we came up with were strikingly 
similar. Coincidentally, we had members of the Commission from 
all three states represented by you here on the panel. We had 
Andy Rosenberg from New Hampshire, who is a great fisheries 
expert, Ann D'Amato from Los Angeles in California and we also 
had Lillian Borrone and a new resident of New Jersey, Admiral 
Paul Gaffney, who recently became President of Monmouth 
University. This group was diverse. We worked well together in 
a different geographical representation. I'm from Texas.
    What I wanted to talk about here, Mr. Panetta has covered a 
number of the issues that are important to us. I wanted to talk 
some about the concept of regional ecosystem management, which 
was so important to our commission. In his testimony, Admiral 
Lautenbacher talks about the Gulf of Mexico region and how five 
states and groups of agencies within those states are now 
collaborating under the leadership of NOAA and EPA in looking 
at a series of issues that have tremendous impact on the Gulf 
of Mexico, but what is new is how this approach to management 
seems to be inspiring both the academic community and the 
private sector. I think what is going on in the Gulf is a good 
example of this. For example, Texas A&M University and their 
system has decided to create up to 40 new faculty positions 
that will, in their system, deal with ocean science and related 
issues. We had an extraordinary contribution made by a 
gentleman named Ed Harte, who is a rancher and newspaper 
publisher from Corpus Christi. Mr. Harte donated $46 million to 
Texas A&M Corpus Christi to set up a new institute called the 
Harte Research Institute for Gulf of Mexico Studies and they 
are looking worldwide for new researchers on these various 
issues that we've been talking about. So we see important 
developments. We find the private sector contributing funds to 
organizations like the Gulf of Mexico Foundation, which does 
wetlands restoration and is involved in teacher education and 
education of middle school students. So we're very excited 
about all of these activities and I want to say that in the 
regions, our states are excited by both Commissions' reports 
and they are taking off, taking actions in response to this. 
They are excited about what NOAA is doing, but what is missing 
is the funding component from Congress. So there are a lot of 
expectations out there in the field and I want you to know 
about that. Because Dr. Mike Orbach will be talking about 
science and education, I'll make brief remarks there but both 
our Commissions feel that funding of some key ocean and coastal 
programs are very important and the funding for some of those 
programs were actually reduced in 2006. If you take, for 
example, one of the programs that is special to me, is the Sea 
Grant Program, Sea Grant College Program, which does a 
tremendous amount of good work in getting students interested 
in ocean science and ocean policy. Down in the Gulf of Mexico, 
the programs in the universities have a very interesting 
liaison with the private sector as well. They work with ports 
and waterways, they work with the fishing industry to provide 
research and support. They work with offshore energy in 
collaborative efforts, often dealing with ocean observations. 
The recent budget for Sea Grant is $30 million more in the 
Senate than it is in the House and to me that is moving in the 
wrong direction.
    Last, I want to elaborate just a little on what Mr. Panetta 
said about the Law of the Sea issue. It is estimated by people 
who track things on Capitol Hill that if we took a vote on the 
floor of the Senate today, there would be at least 95 votes in 
favor of ratification and yet, we're sitting on our hands. I 
want to report to you that my company is involved 
internationally and I've been involved in a number of Law of 
the Sea meetings put on by the U.N. and some of the academic 
institutions and what I've learned there is that Russia has 
applied, pursuant to Article 76 of the Convention, which allows 
a country to extend the limits of its continental shelf beyond 
200 miles if you can prove, through bathymetric mapping and 
science, that your shelf actually extends beyond there. The 
Russians have already filed with the Continental Shelf 
Commission and the U.N. The Canadians are preparing an 
application. The Norwegians have just announced that they are 
going to start preparing an application and it becomes pretty 
obvious that minerals exploration is what is driving this 
interest. The issue sat there quietly for a long time but with 
tight oil and gas supplies in growing demand, these countries 
are beginning to look at the Arctic for future exploration. So 
again, here in the United States, we have the technology that 
these countries are using to map their continental shelves but 
we are not doing anything with it and we haven't even started 
mapping. So that is another important issue that I hope you'll 
consider. That really is part of our need to demonstrate 
international leadership for all things ocean by acceding to 
the Convention and doing some of the things that NOAA and the 
Department of State have been doing in this field. Again, I 
think--let me just conclude by saying that our Joint Ocean 
Commission Initiative stands by to assist in any we can to 
provide and support Congressional action. Thank you very much.
    Senator Sununu. Thank you, Mr. Kelly. And finally we have 
Professor Michael Orbach of the Duke University Marine 
Laboratory. Welcome.

         STATEMENT OF DR. MICHAEL K. ORBACH, DIRECTOR,

         DUKE UNIVERSITY MARINE LABORATORY; PROFESSOR,

       MARINE AFFAIRS AND POLICY, NICHOLAS SCHOOL OF THE

         ENVIRONMENT AND EARTH SCIENCE, DUKE UNIVERSITY

    Dr. Orbach. Thank you, Mr. Chairman, Subcommittee Members. 
Although I direct a marine laboratory full of primarily 
biophysical scientists, I am a social scientist by training, an 
economist and cultural anthropologist. Much of what I say to 
you today will embody what is called the Human Dimension 
Perspective on Coasts and Oceans. I will say also that although 
I am from the academic community, I am representing my own 
viewpoints here today.
    I want to make four points to you. The first point is that 
I referred in the past to the ocean as the ``black hole'' of 
environmental science and policy on this globe. What I mean by 
that is that we have devoted tremendous and appropriate 
resources understanding and governing terrestrial environments, 
we've spent tremendous and appropriate resources investigating 
and governing atmospheric environments but we've spent 
virtually nothing, in comparison for understanding and 
governing the ocean. This is because the ocean has been ``out 
of sight, out of mind,'' to most people who live on the land 
historically. We understand more about the surface of the moon 
and Mars than we do about the surface of our own planet, 
especially the 70 percent of that surface that lies below the 
ocean. That is a tragic historic error that we have made in 
allocating our world resources. If we follow the 
recommendations of our two recent Ocean Commissions, we can 
help fix that. Second, even though we need a lot more science 
for many things, we know enough to make significant beginnings 
in solving some of our problems. We need an organizing concept, 
and the organizing concept that has emerged is the one of 
``ecosystem management'' or ``ecosystem-based management.'' 
This concept will help us organize scientifically and in our 
policymaking. Consistent with this concept approach to coastal 
and ocean issues includes their ecosystem--realizing that the 
proper definition of a coast is the watersheds to the deep 
ocean, which includes, of course, about a third of the middle 
of this country, if you look at the Gulf of Mexico. But that's 
the kind of definition that we need to make in terms of 
boundary definitions to address our coastal and oceans issues. 
Now, the trick with ecosystem management--and here is my social 
science coming out--is that we don't ever manage biophysical 
resources themselves. We don't ever manage fish, we don't ever 
manage water; what we manage is people. So when we build in the 
concept of ecosystem management, we have to realize that it is 
the human ecology, not the biophysical ecology that we are 
going to be addressing. There are very specific ways to do 
this, and language for the bills that are currently in 
Congress. Members of our faculty and staff at the Nicholas 
School of the Environment, at Duke, have in fact, suggested 
some of that language to some of your committees and 
subcommittees. We have the tools to accomplish ecosystem 
management scientifically; we have the tools to do it in terms 
of geospatial analysis and referencing as well. So we can make 
progress with what we know if we organize it properly. The 
third point has to do with what I would call the institutional 
ecology of coasts and oceans. This is the issue of split 
jurisdictions, of lack of jurisdiction over coastal and ocean 
environments. There are two aspects to this. One is what one 
might call the harmonization of Federal legislation. We have 
largely passed single-issue legislation in the Congress--
fisheries, oil and gas, water quality--that do not coordinate 
well with one another, so there is some harmonization of 
legislation to be done. In terms of the administrative 
agencies, it is widely written in academia and in the Ocean 
Commissions reports, that we have a very fragmented agency 
structure. Now, I compliment the wonderful work that Admiral 
Lautenbacher and his staff have done with NOAA. But frankly, 
they have been structurally constrained in solving our problems 
and the reason is, they are placed in an inappropriate agency 
and have been from the very beginning of the existence of NOAA. 
They do not have enough control over enough things, that is, 
there are too many things in other agencies that matter to what 
NOAA does in terms of coastal and ocean science and policy, to 
have them do a complete job. They have done a wonderful job 
with what they have but they've been constrained in a way that 
does not allow us to solve our problems and that is the 
important bottom line here. Part of the challenge will be 
national issues and part of this will be regional issues, as 
has been pointed out. There are regional models, whether it is 
the River Basin Commissions or the Fishery Management Councils, 
that have shown us we can, in fact, coordinate things 
regionally. But a structure has to be set up to do it and 
Congress will probably have to take the lead in enabling that 
to happen. I would also say that although it is a great idea to 
have this current Committee on Ocean Policy, which coordinates 
the agencies, that is not enough. As Mr. Panetta said, we need 
major ocean policy guidance from the Congress to coordinate the 
framework for all of our ocean policies. One of my colleagues 
at Duke, Larry Crowder, and some other colleagues have an 
article coming out in Science Magazine, this afternoon which 
addresses this point. It is embargoed until 2 o'clock this 
afternoon but I understand the Science people are here with 
pre-released copies for everyone. This article makes this point 
very well and I would like to enter this into the record as 
well.
    My final point has to do with the international dimension 
of coastal and ocean policy. What I would like to add to the 
previous speakers is that the United States has implemented all 
of the provisions of the Law of the Sea Convention as a matter 
of substance. Fisheries, oil and gas, continental shelves, even 
now the deep-sea bed mining legislation. What we haven't done 
is acceded to the Convention and ratified the Treaty. Now, this 
has some important symbolic aspects to it, that is, if we are 
going to be perceived in are role, which I think we should be a 
leader in ocean science and policy, we have to demonstrate that 
we are, in fact, part of the international community in spirit, 
to do this. Ratifying the treaty also has great practical 
implications, as Mr. Kelly pointed out. The situation that he 
was describing is one where the U.S. will not be able to 
protect its interests because we are not a party to the 
Convention. That is a very important legal and political 
limitation on us. Again, not ratifying the Treaty will not 
allow this country to protect its own interests 
internationally. We cannot solve the ocean policy or scientific 
or human problems by ourselves. So ascension to that Treaty is 
very important and I hope you and your colleagues will provide 
the leadership to ratify that treaty. Thank you very much.
    [The prepared statement of Dr. Orbach follows:]

Prepared Statement of Dr. Michael K. Orbach, Director, Duke University 
   Marine Laboratory; Professor, Marine Affairs and Policy, Nicholas 
      School of the Environment and Earth Science, Duke University

    Ladies and Gentlemen,
    I am pleased to testify before you today on the topic of United 
States coastal and ocean policy, how that policy is reflected in 
current and pending legislation in the U.S. Congress, and how the 
development and implementation of that policy could be improved. My own 
background is the social and policy sciences, including the human and 
institutional ecology of coastal and ocean environments. I have worked 
with most of the Federal agencies involved with coastal and ocean 
policy in the U.S., all of the coastal states in the U.S., all of the 
Regional Fishery Management Councils and Interstate Marine Fishery 
Commissions, and with several international marine resource management 
institutions. I also served as an advisor to both the U.S. Commission 
on Ocean Policy and the Pew Oceans Commission.
    In my testimony today, I will emphasize the concept of ecosystem 
management, and the applications of that term to coastal and ocean 
policy.

The ``Ecologies'' of Coastal and Ocean Environments
    My definition of the term ``coastal and ocean environment'' begins 
with the biophysical resources that occur from the heads of coastal 
watersheds to the deep ocean, and the interaction of those terrestrial 
and marine resources with the atmosphere. This environment can be 
bounded in various ways for particular place-based policy applications, 
such as in the Chesapeake Bay watershed; the watersheds and ocean 
jurisdictions of states or nations; or the environments of particular 
species or biophysical features such as the habitat of Pacific salmon, 
the Gulf Stream, or the Sargasso Sea. These bounded biophysical 
resources and environments I term the biophysical ecology for a 
particular policymaking purpose.
    Included in my definition of ``coastal and ocean environments'' are 
also two other ecologic systems, the human ecology and the 
institutional ecology. The human ecology are those humans and human 
behaviors that affect, are affected by, or are otherwise concerned with 
the elements of a defined biophysical ecology. I define the 
institutional ecology as those governance institutions that govern or 
affect the behavior of people in the human ecological system. So, for 
example, if we are considering the salmon fishery of the U.S. Pacific 
Northwest, the biophysical ecology is defined by the salmon species and 
their habitats throughout their migratory range (Idaho, Washington, 
Oregon, Canada, and the North Pacific Ocean). The human ecology 
consists of those humans and their behaviors that affect the salmon 
directly (fishing) or the salmon habitats (development, agriculture, or 
hydroelectric power), or even the biophysical trophic linkages with 
salmon (predators, prey). The institutional ecology consists of those 
policy and management institutions (local, state, regional, national, 
and international) whose policies and rulemaking affect the defined 
human ecology. There are, of course feedback loops among all of the 
elements of this ``total ecology'', including the relationship between 
``civil society'' and our formal public trust institutions.
    Thus, when I use the term ``coastal and ocean environment'' for the 
purposes of policymaking, I am including all three of the above 
``ecologies''--biophysical, human, and institutional.
    It is also important to note at the outset that all public policy 
for coastal and ocean resources has biophysical, economic and social 
objectives, and when implemented has attendant biophysical, economic 
and social impacts. Public policy decisions, usually in the form of 
regulations or incentives, involve changing human behavior. Every 
public policy decision involves tradeoffs between some state of the 
biophysical environment (abundance of fish, water quality) and some 
flow of costs and benefits to humans (dollars, cultural traditions, 
aesthetic values).
    My own definition of the term ``ecosystem management'' is the 
policy toward, and management of, human behaviors (human ecology), 
through a specific governance structure (institutional ecology), that 
affect, or are affected by, a defined biophysical environment 
(biophysical ecology). I will frame my comments below within this 
definition, and discuss the policy frameworks necessary to address the 
biophysical, human, and institutional dimensions of ecosystem 
management of coastal and ocean resources.

Characteristics of Coastal and Ocean Environments
    For most of the world's human population, the ocean is ``out of 
sight, out of mind'' (Orbach, 2002). Not only do most humans not live 
or work on or in the ocean, but it is in fact an extremely hostile 
environment for humans. It is too salty to drink or to irrigate crops. 
Its density both smothers us if we are immersed in it and crushes us if 
we go too deep without elaborate protection. Its waves bash us on 
beaches and in boats, and its biochemical characteristics foul and 
corrode our machines and structures. We can more easily go--and 
commonly do go--one mile up into the atmosphere than one mile deep into 
the ocean. Even though an increasing number of us live or work near the 
ocean, it is still not an ``intimate environment'' for most humans 
(Revelle, 1969; Orbach, 1982).
    This matters precisely because humans develop governance 
institutions for those spaces and resources about which they care most, 
and with which they are the most intimately involved. This is why the 
most complete set of governance institutions evolved first for humans 
in relation to terrestrial, as opposed to ocean and atmospheric, spaces 
and resources, beginning several thousand years ago. Those are the 
spaces and resources for which we first developed awareness, and 
intimate and dense use.
    In the ocean, on the other hand, human societies did not 
effectively begin to govern human behavior on the ocean through public 
policy in any large measure until late in the 1700s with the adoption 
of the 3-mile Territorial Sea, and no substantial universal management 
of ocean resources occurred until the middle of the 1900s, beginning 
with the mineral resources of the continental shelves and eventually 
extending to the current 200-mile Exclusive Economic Zones (EEZ). Even 
with universal 200-mile Exclusive Economic Zones having been declared 
by riparian states, in accordance with the Law of the Sea Convention, 
approximately 40 percent of the world ocean remains outside of areas of 
national jurisdiction. Added to this are the twin notions of 
traditional ``open access'' to resources such as fisheries, and the 
companion principle of the ``freedom of the seas'', elucidated in the 
early 1600s and still alive today as a basis for much policy-making for 
the ocean. The principles of private property and the appropriateness 
of the management of public trust resources, long established in 
terrestrial and even atmospheric environments, have only recently begun 
to be applied to ocean environments and resources (Orbach 2002).
    Thus, the challenge of managing ocean environments and resources is 
a relatively new one compared to terrestrial ones and, at the moment, 
human society has more powerful and complete public policies for human 
activity on land--and even in the atmosphere--than for human activity 
in the ocean.

The Biophysical Ecology
    In virtually every part of the coastal and ocean environment where 
human behavior is a significant presence, the biophysical environment 
continues to degrade. There are notable exceptions to this--some cases 
of improved water quality, recovered fisheries, or increases in the 
populations of threatened or endangered species--but they are truly the 
exception. There are three reasons for this continued degradation: (1) 
lack of awareness or information regarding the issue; (2) an inadequate 
public policy framework within which to address the issue; or (3) a 
lack of political will, or political will that makes the policy trade-
off in favor of the conscious degradation of the biophysical ecology.
    The ocean covers over 70 percent of the Earth's surface, and 
throughout history much of that area has been relatively inaccessible 
to humans. Although humans have had significant impact on coastal and 
some nearshore resources for many centuries, it is only in the last 150 
years that humans have had the capacity to impact oceanic resources to 
a significant degree. We have now demonstrated the effects of that 
capacity.
    The important point to this testimony is that the biophysical 
resources of the oceans--from fisheries, to mineral resources, to 
pharmaceuticals, to the ocean's role in weather--are an immense 
potential resource and are critical for the future of humankind. Our 
scientific knowledge of these resources, which leads to awareness of 
their specific importance to, and potential use by, humans, is sorely 
lacking. Our investment in ocean research and exploration, for example, 
is only a tiny fraction of that invested in terrestrial or atmospheric 
research. We must make a comparable investment in ocean research and 
exploration to see the full potential of ocean resources.

Legislative Implications
    This immediate application of the above situation to current 
pending legislation in the U.S. Congress is that authorizations and 
appropriations for coastal and ocean research should be significantly 
increased, in both the biophysical and social sciences, as is 
recommended in both the reports of the U.S. Commission on Ocean Policy 
(USCOP) and the Pew Ocean Commission (POC). This will give us the basis 
for the rational and comprehensive management of ocean resources and 
environments, as well as the means for increasing awareness of issues 
involving these resources and environments.

The Human Ecology
    As a society, in our conceptualization of ``environmental issues'', 
in our research and data collection, and in our construction of public 
policy processes, we have made the error of focusing too much on the 
biophysical ecology of coastal and ocean issues. It is imperative that 
we have as much documented, valid data and information about the human 
ecology of environmental issues as we do about the biophysical ecology. 
This is not the case at present. For example, virtually all of the 
scientific components of our Federal coastal and ocean management 
agencies are dominated by natural or physical scientists, with only a 
small smattering of social scientists. The result of this is that we 
have been unable to adequately document or judge the tradeoffs between 
the state of the biophysical ecology and the state of the human ecology 
that are required for rational, comprehensive policy and management 
decisions.

Legislative Implications
    The immediate application of this situation to current pending 
legislation in the U.S. Congress is that every piece of legislation 
that makes reference to ``ecosystems'' or to ``ecosystem management'' 
(for example, the Magnuson-Stevens reauthorization bills) should 
include as much reference to the human ecology of ecosystems (often 
termed the ``socioeconomic'' or ``sociocultural'' characteristics) as 
to the biophysical ecology of ecosystems, and that this attention 
should carry though to the research and application funding process, 
both within the Federal agencies and in extramural funding for social 
science research.

The Institutional Ecology
    The institutional ecology of coastal and ocean governance--ocean 
and coastal legislation and those entities with authority and 
responsibility for the implementation of that legislation--in the U.S. 
is most often correctly characterized as fragmented and single-issue 
oriented. That is, we have one piece of legislation for marine 
fisheries, one for offshore oil and gas, one for shipping, one for 
marine sanctuaries. There is clearly insufficient coordination among 
these legislative mandates, and among the agencies to which the 
legislation gives authority and responsibility. There is also a lack of 
coordination among local, state, regional, national and international 
levels of policy and policy-making (Cicin and Knecht, 2002; USCOP; 
POC).
    The authority and responsibility for developing, reauthorizing, and 
implementing this legislation is also fragment and not well-
coordinated. For example, a myriad of different committees and 
subcommittees of the U.S. Congress have authority or responsibility for 
coastal and ocean legislation, and a myriad of different Federal 
agencies and sub-agencies have authority or responsibility for 
implementing this legislation (USCOP, 2004; POC, 2003). The major 
Federal ``ocean agency,'' NOAA, is famously placed in an inappropriate 
agency, the Department of Commerce (see Wenk, 1972, for the history of 
this placement). Major authority for coastal and ocean policy also 
resides in, among others, the Departments of the Interior (Fish and 
Wildlife Service, Minerals Management Service), Defense (Navy, Army 
Corps of Engineers), and in the Environmental Protection Agency 
(Oceans, Coast and Estuaries), often for policy and management topics 
very similar to those under the authority of various NOAA entities 
(National Marine Fisheries Service, Office of Ocean and Coastal 
Resource Management (OCRM)). One case of this is the placement of the 
Coastal Zone Management Program in OCRM/NOAA under the Coastal Zone 
Management Act, while the National Estuary Program is in Oceans, Coast 
and Estuaries/EPA under the Clean Water Act.
    Much of this split jurisdiction makes both overall policy-making 
and specific regulatory processes difficult. As an example of the 
former, a mechanism to mediate conflicts among the mandates of the 
Magnuson-Stevens Fishery Conservation and Management Act (marine 
fisheries); the Outer Continental Shelf Lands Act (offshore oil and gas 
development), and the Marine Mammal and Endangered Species Acts does 
not exist. All are based on different principles and values, and all 
direct the Federal regulatory agencies toward different goals. 
Unfortunately, this occurs in a world where the biophysical and human 
ecologies of marine fisheries, offshore oil and gas development, and 
marine mammal and threatened and endangered species protection are 
inextricably intertwined. In the area of specific regulatory processes, 
one example is that NMFS/NOAA (Commerce) has authority and 
responsibility for threatened and endangered sea turtles while they are 
in the ocean, while the Fish and Wildlife Service (Interior) has 
authority and responsibility for the same turtles when they come ashore 
to nest (and local and state governments have authority over many of 
the factors that affect sea turtles, such as beach lighting and beach 
nourishment).

Legislative Implications
    The immediate application of this issue to current pending 
legislation in the U.S. Congress is two-fold. First, in cases of 
conflicting legislative mandates regarding the same resources or 
environments, the legislation should be ``harmonized'' to give clear 
policy direction to the appropriate administrative agencies. Second, 
serious consideration should be given to the recommendation of both the 
USCOP and POC that comprehensive ocean policy and planning legislation 
be passed to reconcile these fragmented and conflicting mandates, 
authorities and responsibilities under a comprehensive policy and 
planning framework for coasts and oceans. Such comprehensive 
legislation would include both attention to specific mandates and 
agencies (such as the need for organic legislation to establish the 
structure and function of NOAA, wherever that structure and function 
may ultimately reside, as proposed by both the USCOP and POC), and to 
authority and responsibility for overall ocean planning within the U.S. 
Exclusive Economic Zone in legislative vehicles such as the National 
Ocean Policy Act proposed by the Pew Oceans Commission. Such 
legislation could, for example, provide for a comprehensive framework 
for zoning of the different uses of the EEZ (see Crowder et al., 2006). 
The current Federal Committee on Ocean Policy, established through 
Executive Order and which reports to the President through the Council 
on Environmental Quality, has the potential to provide administrative 
and some policy coordination for coastal and ocean issues. However, 
such a Committee will not be able to address the overall integration of 
policy principles that could be accomplished through comprehensive 
ocean legislation.
    The above recommendations apply primarily to activities in the U.S. 
EEZ, and between and among the U.S. Federal Government and the states 
for activities in the EEZ. Bracketing the EEZ, however, are two needs 
referred to, once again, by both the USCOP and the POC. These are: (1) 
The need for an ecosystem-based, regional policy and management system 
for environments and resources that connect the watersheds and EEZ of 
the U.S. and its Territories, Commonwealths and possessions together, 
such as is reflected in the idea of ``Regional Ocean Councils'' 
(Nicholas Institute, 2006) suggested by both the USCOP and the POC; and 
(2) the need for better international cooperation on coastal and ocean 
policy and management, such as would be reflected in the U.S. 
ratification of the Law of the Sea Convention and Treaty. Even though 
the U.S. has implemented virtually all of the elements of the 
Convention, the fact that the U.S. has not formally ratified the 
Convention and Treaty is an important omission in our necessary linkage 
with other countries on coastal and ocean policy issues and processes. 
This fact is also noted by both the USCOP and the POC.

Summary
    The coastal and ocean resources and environments of the U.S. will 
be well-served by the advancement of the concept of ``ecosystem 
management.'' Advancing this concept should include attention to the 
biophysical, human and institutional dimensions of coastal and ocean 
environments. These three dimensions must be mapped onto one another to 
provide a complete picture of our coastal and ocean systems, and to 
allow rational, comprehensive policy and management processes to be 
developed, both within the U.S. and in the international community.

References
    Cicin-Sain, B. and R. Knecht, 2000. The Future of U.S. Ocean 
Policy: Choices for the New Century. Washington, D.C.: Island Press.
    Crowder, L., et al., 2006. Resolving mismatches in U.S. Ocean 
Governance. Science 313:617-18.
    Nicholas Institute, 2006. Pathways to Ocean Ecosystem-based 
Management: Design Principles for Regional Ocean Governance in the 
United States. Nicholas Institute for Environmental Policy Solutions. 
Durham: Duke University.
    Orbach, M., 1982. U.S. Marine Policy and the Ocean Ethos. Marine 
Technology Society Journal 16:4:41-49.
    Orbach, M., 2002. ``Beyond the Freedom of the Seas: Ocean Policy 
for the Third Millennium.'' Washington, D.C. National Academy Press.
    Pew Oceans Commission, 2003. America's Living Oceans: Charting a 
Course for Sea Change. Washington, D.C.: Pew Oceans Commission.
    Revelle, R., 1969. The Ocean. Scientific American Special Issue 
221:3, September, 1969, pp. 55-65.
    U.S. Commission on Ocean Policy, 2004. An Ocean Blueprint for the 
21st Century. Washington, D.C.: U.S. Commission on Ocean Policy.
    Wenk, E., 1972. The Politics of the Ocean. Seattle, WA: University 
of Washington Press.
                                 ______
                                 
                               Attachment

                     Science Magazine, August 2006

                             Sustainability

             Resolving Mismatches in U.S. Ocean Governance

   Problems in ocean resource management derive from governance, not 
     science. Ocean zoning would replace mismatched and fragmented 
             approaches with integrated regulatory domains.

by L. B. Crowder, G. Osherenko, O. R. Young, S. Airame, E. A. Norse, N. 
    Baron, J. C. Day, F. Douvere, C. N. Ehler, B. S. Halpern, S. J. 
Langdon, K. L. McLeod, J. C. Ogden, R. E. Peach, A. A. Rosenberg, J. A. 
                                 Wilson

    That the oceans are in serious trouble is no longer news. Fisheries 
are declining, formerly abundant species are now rare, food webs are 
altered, and coastal ecosystems are polluted and degraded. Invasive 
species and diseases are proliferating and the oceans are warming.\1\ 
Because these changes are largely due to failures of governance, 
reversing them will require new, more effective governance systems.
    Historically, ocean management has focused on individual sectors. 
In the United States, at least 20 Federal agencies implement over 140 
Federal ocean-related statutes. This is like a scenario in which a 
number of specialist physicians, who are not communicating well, treat 
a patient with multiple medical problems. The combined treatment can 
exacerbate rather than solve problems. Separate regimes for fisheries, 
aquaculture, marine mammal conservation, shipping, oil and gas, and 
mining are designed to resolve conflicts within sectors, but not across 
sectors. Decisionmaking is often ad hoc, and no one has clear authority 
to resolve conflicts across sectors or to deal with cumulative effects. 
Many scientists are now convinced that the solution can be found in 
ecosystem-based management.\2\ Ecosystem-based management focuses on 
managing the suite of human activities that affect particular places. 
This is a marked departure from the current approach. The time has come 
to consider a more holistic approach to place-based management of 
marine ecosystems, comprehensive ocean zoning.\3\
    Management regimes for individual sectors operate under different 
legal mandates and reflect the interests of different stakeholders, so 
governance is riddled with gaps and overlaps.\4\ Fishing has a larger 
impact on biological diversity than any other human activity,\5\ but 
the Magnuson-Stevens Act, which governs fisheries, contains no mandate 
to maintain biodiversity. Ecosystem-based fisheries management \6\ is 
only a partial solution--it does not account for impacts on non-target 
species or manage other activities that degrade fisheries, such as 
pollution or wetlands loss.\7\ The problem of fragmented governance is 
growing, as new place-based activities in the sea [e.g., aquaculture, 
wind farms, liquefied natural gas (LNG) terminals] are increasing the 
potential range and severity of conflicts across sectors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    California's Channel Islands illustrate the potential for conflict 
and fragmentation of management authority (see figure, above). In 2003, 
California established a network of fully protected marine reserves and 
conservation areas that allow limited take in the state waters (0 to 3 
nautical miles) of the Channel Islands National Marine Sanctuary. This 
followed a 5-year multi-agency, multi-stakeholder process. Yet Federal 
agencies still have not implemented the proposed reserves in Federal 
sanctuary waters (3 to 6 nautical miles) because the roles of the two 
National Oceanic and Atmospheric Administration agencies (Fisheries and 
National Marine Sanctuaries) are unclear.
    Spatial mismatches between scales of governance and ecosystems are 
common. Current subdivisions of state, Federal, and international 
waters are understandable in historical and political terms. But it 
makes little ecological sense for managing highly migratory fishes or 
for LNG terminals, which can be built in state or Federal waters.
    Spatial mismatches typically arise from jurisdictional boundaries 
too small for effective management. Leatherback and loggerhead sea 
turtles forage over much of the Pacific, but bycatch reduction efforts 
required in U.S. fisheries are not used in foreign fisheries, which 
potentially contributes to ongoing declines.\8\ Western and eastern 
substocks of Atlantic bluefin tuna migrate, so the high catches in the 
East may cancel the potential benefits of restricted catches in the 
West.\9\
    Sometimes, the causes of the problems are too far removed from the 
effects. Farming in the Mississippi River watershed contributes to 
nutrient loading and hypoxia in the Gulf of Mexico, displacing fishes 
and other marine organisms.\10\ Jurisdictions can also be too large. 
Cod management in the Northwest Atlantic focused on the whole region as 
local stocks experienced serial depletion.\11\
    Temporal mismatches between biological systems and human 
institutions can also degrade marine ecosystems. Annual appropriations 
and 2- or 4-year voting cycles drive many policy processes. But 
problems affecting marine systems can occur on time-scales that are too 
fast for these policy rhythms (e.g., sudden collapses of fish 
populations, outbreaks of invasive species or harmful algal blooms) or 
too slow (e.g., increases in ocean temperatures, acidification, or the 
cumulative loss of wetlands). The white abalone fishery in California 
expanded and crashed rapidly in the early 1970s, 20 years before the 
management agency restricted fishing.\12\ Longline tuna fisheries in 
the Gulf of Mexico reduced oceanic whitetip sharks by 99.7 percent over 
five decades, but the change was so gradual that managers failed to 
notice or prevent it.\13\
    Problems generated by fragmentation and mismatches become 
particularly severe in systems that include multiple, interactive, and 
cumulative stressors. Just as stressed humans are more susceptible to 
opportunistic infections, stressed ecosystems lack robustness and 
resilience. On the U.S. West Coast, the combination of degraded 
spawning habitat, shifting ocean temperatures, and overfishing led to 
population declines and endangered species listings for salmon. This 
did not occur in Alaska, because of better river conditions, protection 
of spawning habitat, and a spatial fisheries permit system.\14\
    These governance problems are difficult to alleviate even after 
they become well understood.\15\ Incremental improvements in sectoral 
governance can reduce some problems (e.g., overfishing of target 
species), but they generally cannot address fragmentation and 
mismatches.
    Marine spatial planning with comprehensive ocean zoning can help 
address these problems. Although property rights and management 
arrangements in the sea differ from those on land, spatial planning 
could be initiated with cooperation among Federal, state, tribal, and 
local authorities. Zoning would not replace existing fishing 
regulations or requirements for oil and gas permits, but would add an 
important spatial dimension by defining areas within which compatible 
activities could occur.
    Key elements of successful zoning include locating and designating 
zones based on the underlying topography, oceanography, and 
distribution of biotic communities; designing systems of permits, 
licenses, and use rules within each zone; establishing compliance 
mechanisms, and creating programs to monitor, to review, and to adapt 
the zoning system. Not only does comprehensive ocean zoning directly 
address fragmentation and spatial mismatches, zoning also facilitates 
efforts to adjust governance to the rhythms of human institutions and 
the dynamics of spatially bounded ecosystems.
    Of course, establishing an effective system of ocean zoning in the 
United States will present a formidable challenge. But other countries, 
including Belgium, China, Germany, the Netherlands, and the United 
Kingdom, have already begun implementing or experimenting with marine 
spatial planning.\16\<SUP>-</SUP>\18\ Massachusetts is considering 
legislation to develop and implement an ocean management plan.\19\ A 
striking example of comprehensive, multiple-use zoning of marine 
resources is Australia's Great Barrier Reef Marine Park. It provides 
specific areas with high levels of protection, while allowing other 
uses, including fishing, to continue elsewhere.\20\
    The transition to comprehensive ocean zoning in the United States 
will not be easy. Critics point to the contentiousness of efforts to 
introduce zoning, the difficulties of developing legislation acceptable 
to all stakeholders, and failures to achieve desired results even after 
zoning is established. But our current approach simply cannot address 
the critical issues in the oceans. Recovering ocean ecosystems will 
require a better understanding of the consequences of interconnections 
among ecosystem components, as well as a systemic change in the way we 
consider issues and make choices regarding ocean use.

References and Notes
    \1\ Millennium Ecosystem Assessment (MEA), Living Beyond Our Means: 
Natural Assets and Human Well-Being (MEA, United Nations Environment 
Programme, Nairobi, Kenya, 2005).
    \2\ K. L. McLeod et al., Scientific Consensus Statement on Marine 
Ecosystem-based Management (Communication Partnership for Science and 
the Sea, Washington, D.C., 2005).
    \3\ E. A. Norse, in Marine Conservation Biology: The Science of 
Maintaining the Sea's Biodiversity, E. A. Norse and L. B. Crowder, Eds. 
(Island Press, Washington, D.C., 2005), pp. 422-444.
    \4\ O. R. Young, Institutional Dimensions of Environmental Change: 
Fit, Interplay, and Scale (MIT Press, Cambridge, MA, 2002).
    \5\ J. B. C. Jackson et al., Science 293, 629 (2001).
    \6\ E. K. Pikitch et al., Science 305, 346 (2004).
    \7\ A. A. Rosenberg, K. L. McLeod, Mar. Ecol. Prog. Ser. 300, 270 
(2005).
    \8\ R. Lewison et al., Ecol. Lett. 7, 221 (2004).
    \9\ B. A. Block et al., Nature 434, 1121 (2005).
    \10\ J. K. Craig, L. B. Crowder, Mar. Ecol. Prog. Ser. 294, 79 
(2005).
    \11\ J. A. Hutchings, J. D. Reynolds, BioScience 54, 297 (2004).
    \12\ G. D. Davis et al., Trans. Am. Fish. Soc. 125, 42 (1996).
    \13\ J. K. Baum, R. A. Myers, Ecol. Lett. 7, 135 (2004).
    \14\ R. Hilborn et al. Proc. Natl. Acad. Sci. U.S.A. 100, 6564 
(2003).
    \15\ O. R. Young, Matching Institutions and Ecosystems: The Problem 
of Fit [Institut du Developpement Durable et des Relations 
Internationales (IDDRI), Paris, 2002].
    \16\ F. Douvere et al., Mar. Policy (2006), in press.
    \17\ Department for Environment, Food, and Rural Affairs, A Marine 
Bill (www.defra.gov.uk/corporate/consult/marinebill/consult.pdf).
    \18\ Dynamic and Interactive Assessment of National, Regional and 
Global Vulnerability of Coastal Zones to Climate Change and Sea-Level 
Rise (www.pik-potsdam.de/DINAS-COAST/).
    \19\ The Commonwealth of Massachusetts, Senate, No. 2308, reported 
out of the Committee on Environment, Natural Resources, and 
Agriculture, 15 December 2005 (www.mass.gov/legis/).
    \20\ J. C. Day, Ocean Coastal Manage. 45, 139 (2002).
    \21\ Supported by the National Center for Ecological Analysis and 
Synthesis, University of California at Santa Barbara; Working Group on 
Ocean Ecosystem Management; the David and Lucile Packard Foundation; 
the Gordon and Betty Moore Foundation; and the Center for Marine 
Conservation, Nicholas School of the Environment and Earth Sciences, 
Duke University, Beaufort, NC 28516, USA.

    Senator Sununu. Thank you very much. We will begin the 
questioning with Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman. I have two questions 
that I will combine into one. I'm going to ask Admiral 
Lautenbacher and the Hon. Leon Panetta to comment on them. 
Congressman Panetta referenced a series that has been done by 
the Los Angeles Times on the state of the oceans and Mr. 
Chairman, I would ask unanimous consent that I could place that 
series in this record. *
---------------------------------------------------------------------------
    * The information referred to can be found online at http://
www.latimes.com/news/local/oceans/la-oceans-series,0,7842752.special.
---------------------------------------------------------------------------
    Senator Sununu. Without objection.
    Senator Boxer. Mr. Chairman, I'm going to just read from 
this one part. This is really almost a prize-winning series, I 
think. It's called, Dark Tides, Altered Oceans. ``With 
sickening regularity, toxic algae blooms are invading coastal 
waters. They kill sea life and send poisons ashore on the 
breeze, forcing residents to flee.'' Now, I'll just read a 
little bit of this. ``All Susan Laden has to do is stick her 
head outside and take a breath of sea air. She can tell if her 
10-year-old son is about to get sick. They thought they found a 
paradise a decade ago,'' and it goes on. ``Now they fear the 
sea has turned on them. The dread takes hold whenever purplish 
red algae stain the crystal waters of Florida's gulf coast. The 
blooms send waves of stinking dead fish ashore and insult every 
nostril on the island with something worse. The algae produce 
an arsenal of toxins carried ashore by the sea breeze.'' She 
says, ``I have to pull my shirt up over my mouth or I'll be 
coughing and hacking.'' Her husband, a 46-year-old building 
contractor, said the wind off the gulf can make him feel like 
he spent too much time in an over-chlorinated pool. His chest 
tightens and he grows short of breath. His throat feels 
scratchy, his eyes burn and his head throbs. Their symptoms are 
mild compared to those of their son, also named Richard. He 
suffers from asthma and recurring sinus infections. When the 
toxic breeze blows, he keeps himself and his parents up all 
night, coughing until he vomits. It goes on to say they have to 
leave the area and goes on to say that once this was a freak of 
nature and it is commonplace, red tides, and it goes on from 
there. So I have a very important question for you, Admiral 
Lautenbacher. In 2004, this Congress passed a law called the 
Harmful Algal Bloom and Hypoxia Research and Control Act and 
you were required, your Administration, to come in with reports 
that were due last December. Where are these reports?
    Admiral Lautenbacher. I will have to check on them. I'm not 
familiar with it. I'll get back on the record with an answer to 
that. I don't know where the reports are.
    Senator Boxer. And Mr. Panetta, are you aware of this 
particular bill that we passed?
    Mr. Panetta. I am aware of the bill and aware of the fact 
that reports were due but I don't know the status of those 
reports.
    Senator Boxer. Well, I didn't expect you to but sir--I 
mean, I would hope, since this is, I believe, under your 
jurisdiction of your department, that you would get back to me 
ASAP with when we can expect these reports. And my final 
question for both of you is that we've just put back those 
funding cuts. Admiral Lautenbacher, you also made a beautiful 
speech to us and I'm wondering if you support these cuts?
    Admiral Lautenbacher. You have to realize how that comes 
about. We have a budget cycle that is dysfunctional in the way 
we deal with this issue. So I am right now building the Fiscal 
Year 2008 budget on the basis of the Fiscal Year 2007 input. 
You are still working on the Fiscal Year 2007 input. So we have 
national programs that go on from year to year and we have----
    Senator Boxer. OK, but I didn't ask you to comment on the 
process. Do you support these cuts here? Do you support 
eliminating the Marine Debris Program, eliminating the Oceans 
and Health Program, eliminating Coastal and Estuarian Land 
Program and cutting the Marine Mammals and Marine Aquaculture 
Program. It is just a simple yes or no. Do you support?
    Admiral Lautenbacher. I support the President's budget.
    Senator Boxer. You do?
    Admiral Lautenbacher. For the best that we could do with 
the funding that we have to provide for all of the issues that 
we have to for our oceans.
    Senator Boxer. OK. Well, I know that Senator Lautenberg 
will follow-up. Mr. Panetta, could you--I mean, I remember when 
you were the head of the whole budgetary process, so this 
answer--I support the President's budget, given the money. 
Don't you think it is the role--I mean, without being super 
critical, you and I know that when we sit around the table, the 
people who are supposed to have control of these budgets have 
to fight for the budgets. You don't sit back and let OMB just 
cut the heck out of it and I just wonder if you could comment.
    Mr. Panetta. I raised this issue with the Committee that 
was established within the Administration because of our 
concern that at the same time, that we've identified all of 
these needs for additional funding that the Administration was 
presenting a budget that in fact, cut many of these programs 
and I think Admiral Lautenbacher is not going say it but I 
think he shares the same concern with regard to these budgets. 
You can't--all we're talking about in terms of the ocean--we 
cannot deal with these issues. We can't establish reserves. We 
can't deal with acidification. We can't deal with the issues 
related to any kind of ocean policy without science, without 
research. We just can't do it. And we are in a situation, where 
as I said, less than 6 percent of our research budget is 
dedicated to the oceans and that is an area that is twice the 
size of our land mass, that we have under our territory. One 
interesting figure is something like 1,500 people have made 
their way to the top of Mount Everest, something like 300 
people have walked on--or have gone into space and about 12, I 
guess, have walked on the Moon. Only two people have gone to 
the deepest part of our oceans. Only two people. We have just 
have to properly invest in that area and if we are serious 
about doing anything on ocean policy, you're going to have to, 
like everything else, back it up with resources. I might 
commend, by the way, Senators Mikulski and Thad Cochran and 
others who are on the Appropriations Committee, who have, in 
fact, restored funding because we are getting a double whammy 
here. We not only get cut by the Administration but then the 
House cuts it even lower. The Senate then faces a huge task of 
trying to restore that funding and they've done a good job.
    [Laughter.]
    Senator Boxer. Well, thank you for commending them and yes, 
it is pretty hard to cut it more than eliminate it.
    Senator Sununu. Before I turn it over to Senator 
Lautenberg, I do want to make a general observation. I'm not 
familiar with these programs and we all appreciate the position 
that Admiral Lautenbacher is in, to put together a budget, 
given whatever resource constraints there are, they try to 
allocate the funding as effectively as possible and of course, 
defend those priorities. But I think if we look at the overall 
budget, where it was or is in Fiscal Year 2006, which is at 
about $3.9 billion . And we compare that to where it was 5 or 6 
years ago, which was a level of about $2.5 billion, a little 
bit less than that, in Fiscal Year 2000. That is a 60 percent 
increase in resources over 6 years. So I think we need to 
appreciate that we have made good strides, very significant 
strides, a 60 percent increase in funding over that 6-year 
period. But that doesn't change the fact that we have the 
priorities that we've heard the panel raise. We have areas of 
the oceans that are in crisis, that need to be dealt with. But 
it would be a mistake to lose sight of the global concerns, the 
global considerations and the global commitment to resources by 
focusing too narrowly on one particular program, which we might 
agree should be funded and might not have received funding in 
the President's budget. And it does bear repeating that this 
Senate Appropriation bill does provide funding, even in excess 
of that $3.9 billion level, which was the 2006 level. Senator 
Lautenberg?
    Senator Lautenberg. Thanks very much for your testimonies. 
I have to kind of bounce off of Senator Boxer's inquiry, 
Admiral. I pronounce my name Lautenberg, you pronounce yours 
Lautenbacher, or is that Lautenbacher?
    Admiral Lautenbacher. Lautenbacher.
    Senator Lautenberg. I know we are kinfolk someplace.
    [Laugher.]
    Senator Lautenberg. But the place that we leave our kinfolk 
relationship--I was a Corporal in my 3 years in the Army. It 
took me a fair amount of time to get through that, too. So I 
was accustomed to just taking orders and just marching on. If 
they told me to pick up the butts, I did. If they told me to 
climb the poles, I did, whatever I had to do. You sir, of 
substantial rank, I recognize for your service. In response to 
the question about whether or not these programs deserve 
elimination, you responded by saying, well in the budgetary 
climate in which we are, that--forgive me, is not your 
assignment. Is there no heart in addition to some head that you 
give this post? Do you do any analysis about the value of these 
things? How tough is your fight to say, yes, I would like to 
see a little more here, a little more there or just stand by, 
salute and say, ``OK, Commander-In-Chief. I get you. That's 
what we'll do.'' Are you concerned about these programs that 
are eliminated?
    Admiral Lautenbacher. I am concerned about them. I am very 
concerned about them and I do fight for resources every year. I 
am an enthusiastic advocate for the ocean community. I think 
the gentlemen here at the table will attest to that and I work 
hard to try to get a balance in what we do with other programs 
and you can talk to my boss about that if you want, if you 
don't think that I am pushing forward for programs that I think 
are important. I have submitted--I have built an analytical 
process inside of NOAA to try to look at all of these things, 
to look at the benefits, to rack them up so when I go forward 
with the rationale, I can have the best possible rationale that 
will convince the Administration as well as convince you and I 
will keep working as hard as I can to make that happen.
    Senator Lautenberg. So I then I take that is, a no. You 
don't agree with the elimination of these programs.
    [Laughter.]
    Senator Lautenberg. The Chairman here, he is a bright 
fellow and works hard and he told us about how lucky we are to 
get a 60 percent increase in the budget, from the budget that 
got us to where we are. From the budget that was inadequate at 
the time and that permitted the whitening of the coral reef, 
that permitted the decline in species of fish going from 
codfish and Mr. Panetta, that's bacalao. I mean, it's serious 
stuff that we're talking about. We have our own language but 
the decline in these species, the things that this person wrote 
about in the Los Angeles Times. So our budget has got us to 
this point. Maybe it would have been even worse had we not 
gotten these increases but the fact is, it is a foul-smelling 
situation that we've got and it's frustrating as the devil. I 
would ask the Admiral, the recent studies from NOAA and 
elsewhere show that global warming is making our oceans more 
acidic. A change in the chemistry of our oceans could harm 
corals, plankton, fish, it could place a larger part of the 
ocean food chain at risk. I would ask if you've had an 
opportunity to discuss global warming threats and what the 
effects on our oceans might be. Have you had a chance to talk 
to the President or anyone else at the White House about these 
problems?
    Admiral Lautenbacher. I talked with the Chairman of the 
Environmental Quality Council, Jim Connaughton and his staff 
and we provide information and we work with them on the effects 
and the assessments of the issues that are assigned or coming 
out of the climate change research, obviously the acidification 
of the oceans is a very important one. Those papers were 
generated in great part by NOAA scientists and it is a very 
important work-in-progress at this point.
    Senator Lautenberg. Yes, do you think that global warming--
do you have any evidence that global warming is part of the 
cause of the acidification of the ocean?
    Admiral Lautenbacher. People use the word global warming in 
sort of--to encompass all sorts of sins and broad issues but 
the issue is, is that there is increased carbon dioxide in the 
atmosphere and it is being absorbed in the oceans and the 
oceans are experiencing the effect of that. It is making it 
harder for invertebrates that use calcium-based systems, 
skeletal systems, to support them to grow, which means an 
effect on the food chain. So I believe that carbon dioxide in 
the atmosphere is making a change to the ocean acidification. 
So let me put it in those more specific terms, sir.
    Senator Lautenberg. Dr. Orbach, how do you--do you see the 
impact of global warming, even though you are on the human 
side? I suggest that you don't really get into the other areas 
that we talking about. What do you think about global warming 
and its effect on the acidification?
    Dr. Orbach. Yes, certainly there is a role and again, 
remember you are talking to a cultural anthropologist here, but 
I do keep up on the other areas in cross-disciplinary work. 
That's what we do at the Marine Laboratory and we have some of 
the top experts in the world on this topic at our related labs. 
There is definitely a contribution although the exact extent of 
the effects are not well understood. I think the other thing 
that is important to note, is that it is not just the effect of 
changes in the atmosphere on the ocean that are of concern but 
also the effects of changes in the ocean on the atmosphere. So 
if we don't understand, for example, enough about the thermo-
haline circulation of the ocean as well as the carbon exchange 
from the atmosphere to the ocean, much of which is driven by 
the ocean and changes we're making in the ocean itself, we 
won't be able to address the issues we need to address in the 
future. So yes, there is an effect and the thing to remember 
is, it goes both ways, not just top down.
    Senator Lautenberg. Thanks. The one I quote for this 
comment, because I sit on the Environment and Public Works 
Committee as well and the Chairman there made public statements 
about global warming being one of the great hoaxes perpetrated 
on the American public. I think he said the greatest hoax 
perpetrated on the public, so we don't really--it's not as hot 
out there as you think. Come on!
    [Laughter.]
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    Senator Sununu. Thank you, Senator Lautenberg. I do want to 
be clear notwithstanding Senator Lautenberg's comments. I don't 
think we are lucky to have $3.9 billion as opposed to $2.5 
billion. It is not a matter of luck and it certainly would be 
wrong to describe $3.9 billion as being adequate if there are 
needs that are going unmet. But the point is, we need to 
understand where we are relative to past years so that we can 
at least have an honest assessment of whether or not there has 
been a reasonable commitment to keep up some of these budget 
line items with what those anticipated needs are. I think it is 
also important to recognize that whether what we're spending 
today is $3.5 billion or $4.5 billion or $20 billion, many of 
the problems that have been outlined here dealing with 
fisheries management or reef protection or invasive species 
require Congress to act and we have a responsibility to develop 
legislative solutions to many of these problems regardless of 
the absolute budget levels and all the money in the world won't 
solve the problem if we don't have good legislative policy, 
good regulatory policy in place. And of course, funding and 
resources to implement those policies will be required. But the 
problem that I've heard come very clearly through today's 
witnesses and others, is that we do not yet have a regulatory 
framework, a statutory framework for dealing with these issues. 
Let me ask a few questions about some of the legislation and 
the policy that was mentioned by our witnesses. Admiral, you 
mentioned an Organic Act and I think this was also mentioned in 
the Commissions reports, to establish a statutory language that 
describes NOAA's responsibility and mission. Congressman Vern 
Ehlers of Michigan has introduced legislation to streamline 
NOAA's six line offices into three; weather service, 
operations, and research. Could you talk about both of these 
pieces of legislation, whether they are at odds with one 
another or whether they can be viewed as complementary? I would 
ask Admiral Lautenbacher and also Congressman Panetta to 
respond.
    Admiral Lautenbacher. I think they can be viewed as 
complementary. We have submitted a views letter. Essentially, 
what we think would be more prudent is a bill that is less 
prescriptive in the exact organization because it might need to 
be changed in a year so you would have to have another Act and 
another Act. We believe that the Organic Act, as it exists for 
all of the other parts of the government, should be couched in 
terms which set forward the mission and the requirements and 
the authorities and the responsibilities of the agency that it 
has to Congress and to the President and to the public and that 
individual changes could be made, should be made through 
authorization bills each year, if you want to have a deputy for 
this and a deputy for that and a report at the end of the month 
for this. Those are things that should be part of the normal 
business of Congress. So we support what is going on in the 
House very much. This is the first time it has proceeded as far 
as it has. We love to work with everybody to try to produce an 
Organic Act that we could all live with.
    Senator Sununu. Mr. Panetta?
    Mr. Panetta. Chairman, we've sat down with Congressmen on 
the House side and have commended them for the work on trying 
to move a NOAA Organic Act over there and we would strongly 
urge that the Senate do the same. I think--I mean, I understand 
the Administration's position is basically codify what is in 
existence today and don't make any additional changes. My 
experience in the Congress is that you ought to take advantage 
of the opportunity, if you're going to codify and if you are 
going to pass anything, you ought to try to provide the 
additional authorities that are needed dealing with ecosystem, 
dealing with a national policy on oceans, dealing with some of 
the other strengthening features that I think have to be done 
with regards to NOAA. I would do that and as a matter of fact, 
last year, I think there was a NOAA bill that actually passed--
that came out of Committee. Senator Hollings was very involved 
in that. I think you ought to look at that model and try to 
work from something like that because I do think that if you 
have the opportunity not only to codify NOAA but to, in fact, 
strengthen it, do it.
    Senator Sununu. If we enact an Organic Act that establishes 
NOAA as a lead agency on ocean policy, how does that affect the 
other Federal agencies like the EPA or Interior? Is it 
appropriate to remove some authority there to avoid redundancy 
and duplication and conflict between differing regulatory 
structures?
    Mr. Panetta. Mr. Chairman, I fall back on my Congressional 
experience more than someone who worked on the Executive side 
and my sense is that--I mean, I would think it would be well to 
try to coordinate, better coordinate the management of ocean 
issues and that, obviously, in the best of all worlds, it would 
mean moving some authorities not only from EPA and Interior and 
other areas to NOAA but it would mean, obviously, better 
coordination of those policies through NOAA's authority. I 
think because of the turf wars you'd run into and because of 
the jurisdictional wars you'd run into, I would say I would be 
hesitate to jump into that at this point and it depends a great 
deal upon your ability to move legislation as quickly as 
possible without having those kinds of conflicts.
    Senator Sununu. Secretary Chrisman, we've done work in this 
Subcommittee on invasive species and I'd be interested to hear 
of your assessment of the work we've done and also any thoughts 
or concerns you might have about this issue, given the impact 
it's had on California's bays.
    Mr. Chrisman. A big issue for us, a big issue for the 
states, obviously a big issue nationally. We have recognized 
this. My comments--I spoke to the creation of our Ocean 
Protection Council in overarching ocean management effort in 
California, bringing myself, the Head of California 
Environmental Protection Agency and the Chair of the State 
Lands and a couple of members, ex officio Members of the 
legislature together to begin this process of taking a look at 
these overarching issues and invasive species is clearly close 
to the top of the list in the efforts that we are working on. 
If you look at our efforts in the Sacramento-San Joaquin area 
and the San Francisco Bay, you look at our efforts down in Los 
Angeles. We've got a ways to go in terms of our efforts, in 
terms of how we interdict the invasives as they come in through 
our border stations, through our ports, working with our 
partners in the State Department of Food and Agriculture and 
the United States Department of Food of Agriculture, Plant and 
Animal Health, and Industry groups. For us, we're always behind 
the curve when it comes to dealing with invasive and we've teed 
this up on our Ocean Action Plan as a critical effort. We are 
putting some dollars into it through the work of our Ocean 
Protection Council to address that. And again, from our 
perspective, I'd like to--we'd like to urge working closely 
with this committee and working closely with Members of 
Congress to enhance that at the Federal level, if we could.
    Senator Sununu. Thank you. And again, I want to thank all 
of our witnesses. We do have a vote ongoing. I appreciate the 
time and effort each of you has put into your work and your 
testimony today. We will have some additional questions 
submitted for the record. I know Senator Boxer had a number of 
additional questions that she wanted to include and we look 
forward to working with you on an ongoing basis on invasive 
species and fisheries management and reef protection, the 
issues that have been mentioned here but I think there are also 
issues where the Senate and this Subcommittee have made some 
real contributions today. The hearing is adjourned.
    [Whereupon, at 11:22 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Mr. Chairman, thank you for calling attention to this issue. As you 
know, the health of our oceans is particularly important to me. I am 
pleased that the Committee will take a close look at our progress to 
date, as well as actions we still must take, to ensure that future 
generations have access to healthy and productive oceans.
    I am proud of the Committee's accomplishments toward implementing 
the recommendations of the Ocean Commissions reports. In the first 
session of the 109th Congress, the Senate approved 6 bills on key Ocean 
Commissions recommendations, and the Committee has approved another 3 
that are awaiting Senate consideration.
    Four Senate bills currently awaiting action in the House are 
particularly important to me, and we would like to see the House take 
these up soon:

  <bullet> S. 50, the Tsunami Preparedness Act;

  <bullet> S. 362, the Marine Debris Research, Prevention, and 
        Reduction Act;

  <bullet> S. 2012, the reauthorization of the Magnuson-Stevens Act; 
        and

  <bullet> S. 1390, the Coral Reef Conservation Amendments Act of 2005.

    I urge House leaders to move these bills forward as they play a 
vital role in our Nation's ability to respond to and reduce threats to 
our safety and the safety of our resources.
    I would like to comment specifically on the international 
provisions of S. 2012, which provide a complement to the impressive 
conservation and management program we have established under the 
Magnuson-Stevens Act here at home. These provisions would strengthen 
U.S. leadership in international conservation, and put teeth into our 
efforts to end illegal, unregulated, and unreported fishing as well as 
the bycatch of protected living marine resources on the high seas.
    This problem is particularly important in the Western Pacific, 
where increasing pressure from other high seas fishing nations has 
resulted in our bigeye tuna stocks being overfished, as well as in 
uncontrolled bycatch of endangered sea turtles. Without addressing this 
problem internationally, both our tuna stocks and our sea turtles will 
continue to decline, which harms both our fishermen and our ecosystems.
    I look forward to enactment of these essential provisions this 
Congress, as well as Senate action on our other priorities, including 
S. 363, the Ballast Water Management Act of 2005.
    We share the Commissions' dedication to keeping national attention 
on oceans. I was dismayed that oceans were entirely ignored in the 
President's new science initiative. However, I am pleased that the 
Committee's technology bill included provisions to promote ocean 
science and education.
    I also look forward to discussing with Chairman Stevens how we may 
move forward on legislation that strengthens NOAA and its missions, as 
we did in the 108th Congress.
    I am disappointed that the President continues to request funding 
well below the levels that are required to implement key Ocean 
Commissions recommendations. The President's FY 2007 budget request is 
$227 million, or 6 percent, below the FY 2006 appropriated level of 
$3.91 billion, which is still half of the level recommended by the 
Ocean Commissions and only one quarter of the amount devoted to space 
exploration.
    The Administration has even failed to request funds for its ``Ocean 
Action Plan'' priorities, including areas that the Commerce Committee 
has acted on, such as Oceans and Human Health, Marine Debris, and Ocean 
Observing Systems. I call on this Administration to fully fund these 
important programs and make protecting and managing our ocean, coastal, 
and Great Lakes resources a true priority.
    I am proud of the progress this Committee has made, starting with 
the legislation in 2000 that created the U.S. Commission on Ocean 
Policy. Yet without like-minded partners, we cannot fully succeed. We 
must continue to remind everyone that oceans sustain the life of all 
Americans, wherever they live. We will not give up our stalwart effort 
to make oceans a priority, and we hope others will join us this year.
                                 ______
                                 
     Prepared Statement of Hon. Sam Farr, U.S. Representative from 
                               California

    Chairman Sununu, Ranking Member Boxer, and members of the 
Subcommittee: I would like to thank you for including my testimony in 
your hearing records, and I want to commend you for having this 
discussion on the State of the Oceans. This is one of many recent 
initiatives to bring oceans to the forefront of the legislative agenda. 
Making oceans more of a priority in Congress has been one of my top 
goals during my tenure. As a founding Co-Chair of the House Oceans 
Caucus and a member of the Congressional Coastal Caucus, I have been 
very engaged in ocean policy and marine science issues. I was also one 
of the lead authors of H.R. 2939: Ocean Conservation, Education, and 
National Strategy for the 21st Century Act (OCEANS-21), which 
encompasses many of the legislative priorities included in the U.S. 
Commission on Ocean Policy (USCOP) 2004 report (An Ocean Blueprint) and 
the recent report (From Sea to Shining Sea) from the Joint Ocean 
Commission Initiative (JOCI). These priorities highlight some of the 
many steps we can take to improve the ``failing grade'' the Nation 
received on JOCI's U.S. Ocean Policy Report Card.
    As a native of the Central Coast of California, one of the most 
beautiful stretches of coastline in the world, I have had a lifelong 
love for the ocean. Now, as a Member of Congress representing the area, 
I remain intimately connected to and an advocate for the oceans. 
Several ocean-related programs abound in my district and help make it 
one of the most dynamic coastal destinations in the country. For 
instance, it includes the Monterey Bay National Marine Sanctuary--the 
Nation's largest and highest profile marine sanctuary--the Monterey Bay 
Aquarium, and NOAA' s National Marine Protected Area Center and Science 
Institute. In addition, it houses several top ocean research 
laboratories and education institutions (e.g., University of California 
at Santa Cruz, Moss Landing Marine Lab, California State University at 
Monterey Bay, Monterey Bay Aquarium Research Institute), where key 
studies/programs are conducted related to highly migratory species like 
sharks and tuna, protected species like salmon, ocean observing/
exploration, data collections on fish stocks and ocean economics, and 
various others.
    It is undeniable that our oceans and coasts are among our Nation's 
greatest natural resources, and the direct and indirect impacts they 
have on our lives and livelihoods are paramount. Over half of the U.S. 
population live in coastal states. Coastal and marine waters support 
over 2.8 million jobs and produce one-third of the Nation's GDP. The 
culture, economy, and security of our Nation depend on the health and 
sustainability of these assets. In addition, they impact human health, 
climate variability/stability, social dynamics, and more.
    Despite the many benefits we can and do reap from our oceans and 
coasts, we are not sufficiently managing and protecting them. For far 
too long, we have considered the marine and coastal resources to be 
inexhaustible, but we are finally starting to realize that we are 
pushing them to their very limit. Despite this realization, we are, as 
a Nation, letting time continue to pass without making effective 
changes to slow or reverse this degradation. Therefore, an increased 
and sustained investment in the protection and understanding of our 
largest public trust is urgently needed and will enhance future 
benefits. The longer we wait to make oceans more of a priority, 
however, the greater and more irreparable the losses will be.
    I cannot emphasize enough the need to show stewardship for our 
oceans, so we can turn the tide on the dire consequences facing them--
and us by extension. The time to do so is now! So, again, I greatly 
appreciate your efforts to take action for the sake of our oceans--not 
only our Nation's most valuable resource, but the life-support of our 
only planet.
                                 ______
                                 
 The Sad State of Our Oceans: Rep. Sam Farr's Call for National Action

    Our oceans are this country's largest public trust resource, 
covering an area 23 percent larger than the Nation's land area (about 
one and a half times the size of the continental U.S.), and we must 
start treating them as such.
    Every American depends, directly and indirectly, on the oceans--for 
food, jobs, scientific knowledge, recreation, spiritual reflection, and 
other reasons.
    Many Americans desire to be near an ocean. In fact, coastal 
watershed counties account for less than 25 percent of the Nation's 
land area but are home to more than 50 percent of the U.S. population.
    Our oceans and coastal areas contribute over $1 trillion per year 
to our economy. If we don't change our course, we won't continue to see 
this economic benefit.
    2 major reports document the urgent need for improved management of 
U.S. ocean resources:

  <bullet> The Pew Oceans Commission Report (2003)--private sector 
        bipartisan group.

  <bullet> The U.S. Commission on Ocean Policy's Report (2004)--based 
        on Oceans Act of 2000; Presidential appointees.

    Both reports stress that our current system of oceans governance is 
inadequate or has failed. It is fragmented, both institutionally and 
geographically, with over 10 Federal departments and 20 Federal 
agencies implementing over 140 laws.
    These 2 reports are very similar. They do not differ on assessment 
of the crises facing the oceans; they only differ slightly on the 
details of how we should affect positive change.
    Ocean crises resulting from human activities:

  <bullet> Polluted waters: In 2001, 23 percent of the Nation's coastal 
        areas were unsuited for swimming, fishing, or supporting marine 
        life and more than 80 of our coastal areas suffered from the 
        negative consequences of nutrient overloading, such as toxic 
        algal blooms.

  <bullet> Compromised fisheries: Only 8.6 percent of federally-managed 
        fish populations are known to be healthy while over \1/3\ of 
        the Nation's assessed fish stocks are overfished or 
        experiencing overfishing.

  <bullet> Other ocean perils: Irreversible loss of coral reefs; 
        destruction of essential habitat; and staggering rates of 
        marine mammal, sea turtle, sea bird, and non-target species 
        bycatch in fisheries.

    How we correct these crises? Congress should pass a comprehensive 
bill that:

  <bullet> Employs an ecosystem-based management approach: This type of 
        approach transcends political boundaries and recognizes complex 
        interactions between living and nonliving components of the 
        systems.

  <bullet> Improves national governance: We desperately need a national 
        oceans policy--one that states the national goal is to protect 
        and maintain healthy marine ecosystems and, where needed, to 
        restore the health of degraded marine systems. At the heart of 
        a new system of national governance is a strengthened National 
        Oceanic and Atmospheric Administration (NOAA).

  <bullet> Creates strong regional governance: Based on large marine 
        ecosystems.

  <bullet> Promotes an ocean stewardship ethic: Based on a long-term 
        vision of protecting, restoring, and maintaining healthy marine 
        ecosystems.

  <bullet> Invests in the future: By strengthening marine science 
        research and education.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman. As Chair of the Subcommittee on Fisheries 
and Coast Guard, I am especially pleased to be here today to discuss 
the status of the United States' ocean policy. Two years have passed 
since the U.S. Commission on Ocean Policy published its eagerly 
anticipated, Congressionally-mandated report on the state of our 
Nation's oceans and coasts. The Commission is to be commended for its 
comprehensiveness and for sparking debate and discussions--like the one 
taking place here today--that can lead to implementation of its 
recommendations. Its report assigned numerous tasks to Congress, and 
here in the Senate, my colleagues and I are making great efforts to 
answer the Commission's call to action.
    However, discussion is not enough. I wholeheartedly agree with the 
Commission that Congress must act, and act swiftly. The world's 
population is more dependent than ever on the benefits of a healthy 
ocean. According to the United Nations, approximately three billion 
people, half the world's population, live within 100 miles of a 
coastline. The average population density in coastal areas is about 160 
persons per square mile, twice the global average. In the United States 
alone, activities on our oceans contribute hundreds of billions of to 
our economy every year, and directly support more than 2 million jobs. 
Never in history have so many relied on the ocean for so much of their 
livelihood.
    In response to one of the Commission's cornerstone recommendations, 
I pushed out of the Senate, S. 361 the Ocean and Coastal Observation 
bill. Establishing a national and global ocean observation network will 
provide scientists an unprecedented amount of information that will 
allow them to protect our oceans and mitigate the impacts of its 
systems on human health, life, and property. In my own state, the Gulf 
of Maine Ocean Observation Network has had practical, positive impacts 
notifying mariners of dangerous weather offshore and assisting the 
Coast Guard in its search and rescue missions. The network gathers 
information that was once unobtainable and paints a more complete 
picture of the physical and chemical characteristics of the Gulf of 
Maine.
    Last Congress I also succeeded in implementing another of the 
Commission's recommendations with the passage of my Harmful Algal Bloom 
legislation. NOAA estimates the annual average cost of harmful algal 
blooms to the U.S. economy is $49 million in lost revenues, with 
individual events--such as the recent red tide outbreak in New 
England--often surpassing that total in a matter of months or even 
weeks. In order to relieve the financial and ecological burden of 
harmful algal blooms, my bill focuses on increasing our understanding 
of the causes of these events and improving methods to predict their 
occurrence.
    Of course, legislation and new programs are only part of the 
solution. New funding is critical to the success of improved oceans 
management. In the past, I have supported the concept of using revenues 
from oil and gas leases on the outer continental shelf to fund 
oceanographic research and management. If we as a country are serious 
about moving forward with any of the recommendations of the Commission, 
we must take a hard look at this approach once more. If our only 
responses to the Commission's report are unfunded mandates, then we in 
Congress have not done our job. We must give our ocean managers and 
researchers the ability to make meaningful strides toward responsible, 
forward-thinking management of our invaluable marine resources.
    Thank you, Mr. Chairman.
                                 ______
                                 
            Prepared Statement of John Connelly, President, 
                      National Fisheries Institute

    I would like to thank Chairman John Sununu, Ranking Member Barbara 
Boxer and the members of the Subcommittee on National Ocean Policy 
Study for giving me the opportunity to submit a written statement for 
the Committee record on the very important issue of the status of our 
Nation's oceans.
    The National Fisheries Institute (NFI) is the Nation's leading 
advocacy organization for the seafood industry. Its member companies 
represent every element of the industry from the family fisherman at 
sea to the national seafood restaurant chains. This water-to-table 
diversity allows NFI to speak with authority to decisionmakers in 
Washington, D.C., and impact public policy that will help secure a 
healthy future for all Americans.
    NFI and its members are committed to sustainable management of our 
oceans and being stewards of our environment by endorsing the United 
Nations' Principles for Responsible Fisheries. Our members recognize 
the value of ensuring our industry does not adversely affect 
surrounding ecosystems or damage native species. Our investment in our 
oceans today will provide our children and future generations the 
health benefits of a plentiful supply of fish and seafood tomorrow.
    From responsible aquaculture, to a marketplace supporting free and 
fair trade, to ensuring consumers have the facts on the health benefits 
of fish and shellfish, NFI and its members support and promote sound 
public policy based on hard science. The informed, educated, and 
involved consumer will sustain the seafood industry and its products 
well into the future.
    Today's hearing is timely and necessary to continue an earnest 
discussion of the many issues, both real and perceived, facing our 
Nation's oceans and the Americans whose health and livelihoods rely on 
the ocean's vast resources. From a nutrition standpoint, seafood is an 
important part of a healthy, balanced diet and Americans should feel 
comfortable and confident knowing that the seafood they consume is 
harvested in a sustainable manner and that the fish they serve their 
families is healthy and safe. NFI sees the dissemination of this health 
message as one of our most important objectives.
    Numerous health and nutrition experts, including the American Heart 
Association and the Federal Government in its most recent dietary 
guidelines, recommend Americans consume at least two servings of fish 
per week, specifically mentioning the health benefits from Omega-3 
fatty acids that can ``reduce the risk of mortality from cardiovascular 
disease,'' the leading cause of death for both men and women. These 
conclusions are substantiated by a vast body of scientific evidence.
    Joint advice from the U.S. Food and Drug Administration and U.S. 
Environmental Protection Agency, indicates that certain groups of the 
population--women who are pregnant, planning to become pregnant or 
nursing, and young children--can choose fish species that are likely to 
be lower in mercury content as a precaution, while continuing to take 
advantage of these health benefits.
    The general public should not let undue concerns about whether or 
not our fisheries are sustainably managed prevent them from enjoying 
the proven health and nutritional benefits of regular fish consumption. 
Fortunately, the most recent government reports indicate that U.S. 
fisheries are, on the whole, sustainable and well-managed.
    On the matter of the state of our country's fisheries management, I 
would like to draw the Committee's attention to a very positive report 
recently issued by the National Oceanic and Atmospheric Administration 
(NOAA), the ``Status of Fisheries of the United States.'' This report 
on U.S. fish stocks indicates that the vast majority of U.S. fisheries 
are sustainably managed. Specifically, 81 percent of fish stocks 
assessed for 2005 are sustainably managed and one stock in the Pacific 
Northwest, lingcod, has been fully rebuilt 3 years ahead of schedule. 
This report is an excellent illustration of the positive steps forward 
the U.S. fishing community is making toward the goal of ensuring our 
products will be available to American consumers for years to come.
    Of the 206 stocks assessed this year, about three-quarters of those 
stocks are healthy. Six fish stocks with previously low populations are 
now rebuilt and considered sustainable. Stocks that have been assessed 
with a low sustainable population will undergo a rebuilding plan 
developed by the regional fishery management councils to restore the 
fish to sustainable levels. As in the past, this year's findings 
demonstrate the continued effort by NOAA Fisheries, along with 
commercial and recreational fishermen, to support sustainable 
harvesting of this nutritious and affordable protein source. The bottom 
line is that if the species of fish is in the store or on the menu, the 
stock is available to meet consumer demand.
    While NOAA's most recent Status of the Stocks report indicates a 
very positive trend in fisheries management, there is still much work 
for Congress to undertake in order for us to build upon these 
successes. I would like to now turn my focus to three key policy issues 
that the seafood community sees as necessary and primed for 
Congressional action. These issues are: (1) reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act; (2) passage 
of an offshore aquaculture act; and (3) increased Congressional 
attention to the agencies that conduct oceans research and the agencies 
that ensure the safety of our Nation's food supply.
    It has been 10 years since Congress last authorized the Magnuson-
Stevens Act (MSA), placing much greater emphasis on conservation, the 
social and economic impacts of fishery regulations, and fish habitat. 
In 2004, the U.S. Commission on Ocean Policy made several 
recommendations to improve fisheries conservation and management as 
part of a larger set of recommendations to improve ocean resource 
management. Since then, the Senate has passed one version of a MSA 
reauthorization, S. 2012, and the House Resources Committee has marked-
up their version, H.R. 5018, the American Fisheries Management and 
Marine Life Enhancement Act.
    H.R. 5018, a bipartisan bill sponsored by House Resources Committee 
Chairman Richard Pombo (R-CA) and Rep. Barney Frank (D-MA), strikes a 
good balance between addressing the need to conserve fish stocks and 
habitat and the need to feed American families. The bill protects 
livelihoods and culture of tens of thousands of fishermen and the 
communities that depend on their economic support. H.R. 5018 will 
strengthen conservation and the role of science in regional fisheries 
decision-making and protect our ability to provide a healthy product to 
today's consumers by maintaining strong regional control over 
management decisions.
    More specifically, under the MSA, our country's fishing areas are 
managed by a system of eight regional councils, each consisting of 
conservationists, fishing industry experts, government officials, 
scientists, and community representatives who have the greatest 
understanding of local fishing issues and management challenges. Both 
S. 2012 and H.R. 5018 ensure that the regionally-based management 
structure is strengthened and that individuals most familiar with local 
waters can continue to make the decisions for their region.
    The two primary MSA reauthorization measures, S. 2012 and H.R. 
5018, build on current best practices and improve the role that science 
plays in conserving fish and marine ecosystems. By making available the 
latest science and statistics, local management decisions can be made 
in real-time, ensuring fishermen limit harvests and leave enough fish 
in the water so that they are able to replenish for generations to 
come.
    And there's proof this system works: the principles based in the 
reauthorization bills are based on a fisheries management model in 
Alaska, where more than half of our Nation's fish are caught. Alaska 
pollock, the country's largest fishery, has been healthy for decades 
and is certified by an international environmental organization, the 
Marine Stewardship Council. That's because Alaska's fishermen listen to 
advice from conservation scientists and take measures to protect marine 
animals and habitats.
    At this time, the House and Senate have a unique opportunity to 
make great strides forward to ensure a reliable supply of seafood for 
Americans now and into the future. I would encourage the Committee to 
weigh in with House and Senate Leadership to help expedite complete 
consideration of a Magnuson-Stevens Act reauthorization before the 
109th Congress adjourns.
    Another pending legislative opportunity that I would encourage 
Congress to address for the future of oceans management is the 
enactment of legislation to establish a regulatory framework for 
offshore aquaculture operations in U.S. waters. The Committee has 
already heard from me on the broader issue of aquaculture as I 
submitted written testimony for the Subcommittee on Ocean Policy Study 
hearing held on April 6th. However, I believe that message is one worth 
repeating since Congress still has yet to move forward on this 
important matter.
    The Senate has pending before it now one of the key outcomes of 
last year's U.S. Oceans Action Plan: a proposal for establishing the 
regulatory infrastructure for a national offshore aquaculture program. 
S. 1195, the National Offshore Aquaculture Act, would create a 
framework for the Department of Commerce to issue permits for offshore 
aquaculture. This legislation would streamline the permitting process 
and allow permits to be granted to build fish farms in certain 
geographic areas and for certain types of fish. The permits would be 
renewable. Finally, the permitting process would take into the account 
the views of states, other Federal agencies, and other impacted parties 
(such as fishing vessels operators and offshore oil drilling 
companies).
    A number of nations are already engaged in offshore aquaculture. 
This kind of cutting-edge technology will become essential to meet the 
ever-growing demand for seafood around the world. The U.S. has the 
advantage of being able to rapidly develop the high technology systems 
that would be required to commercialize offshore aquaculture. What is 
missing is the regulatory system to develop this business.
    The National Offshore Aquaculture Act is just the beginning of the 
dialogue. The bill's sponsors, Senators Ted Stevens (Alaska) and Daniel 
Inouye (Hawaii), and Congress on the whole will examine these 
recommendations and undoubtedly alter the initial language as part of 
the legislative process.
    Many in Congress clearly recognize that we will be unable to 
sustain our level of consumption or expected increases in the future by 
solely relying on wild capture. The 80 million metric ton difference 
estimated by the U.N. Food and Agriculture Organization (FAO), or 
``aquaculture gap,'' between our global wild harvest and the world's 
demand for healthy seafood needs to be met.
    Farm-raised products are sustainable sources of food that help 
retailers and restaurants meet the ever-growing demand for seafood 
across our Nation and around the world. Aquacultural practices--
traditional and marine alike--should be viewed in the public eye as a 
``relief valve'' for wild capture fisheries, not a replacement for 
them.
    Furthermore, aquaculture products are often a cost-effective 
alternative for the producer. That benefit can be passed along to 
consumers by expanding the kinds of fish available and reducing prices. 
Five of the top ten kinds of fish Americans eat are at least partially 
farmed, including shrimp, salmon, catfish, tilapia, and clams.
    Once again, in order for consumers to reap the healthful rewards of 
frequent seafood consumption, the Federal Government must work to 
ensure that we have the ability to meet the increased demand. This bill 
will strengthen that ability while striking a delicate balance with our 
environment.
    Finally, I would like to call the Committee's attention to an issue 
that many here feel strongly about and that is an increased commitment 
from Congress and the Administration to support and more adequately 
fund the National Oceanic and Atmospheric Administration. In the most 
specific of terms, NFI would recommend that Congress appropriate at 
least $4.5 billion to NOAA in FY 2007.
    As you know, NOAA is one of the premier science agencies within our 
government and the data, products and services that they provide help 
to protect our Nation's economy, security, environment and quality-of-
life. While the National Marine Fisheries Service, or NOAA Fisheries, 
is but one aspect of the agency's broad network, the Nation's seafood 
community absolutely depends on the statistics, mapping, data and 
management tools they provide. For example, it was NOAA that provided 
accurate and timely information regarding the impending landfall of the 
devastating hurricanes of 2005 which allowed thousands of residents and 
visitors adequate time to evacuate the regions where the storms made 
landfall. In addition, in the wake of the hurricanes, NOAA deployed its 
leadership staff and personnel immediately to the most affected areas 
in order to gather information and begin working with the fishing 
communities on the development of a recovery plan. The Gulf seafood 
community, which was absolutely overwhelmed and crippled after Katrina 
and Rita hit, has finally seen financial relief for the oyster and 
shrimp industry as a result of Emergency Supplemental Appropriations 
Congress passed this spring. However, had NOAA been provided with more 
adequate funding tools prior to the hurricanes we believe that much of 
the devastation could have been mitigated or prevented beforehand.
    In addition to fisheries disaster mitigation efforts, another 
specific example of the beneficial work NFI sees ongoing at NOAA is the 
Sea Grant Program, most specifically within the seafood science and 
technology theme of the program. Our Nation's seafood industry faces 
many challenges as well as opportunities in the coming decades. These 
challenges include an increasingly competitive global marketplace, 
complex trade policies, strict regulations, rising energy costs and 
limited seafood supply. While the U.S. demand for seafood continues to 
grow, our country's fish harvesters and processors require continued 
investment in the research and technologies needed to help meet our 
Nation's demands.
    A programmatic set-aside for Sea Grant's seafood science and 
technology theme programs would be used to rebuild the Nation's 
university-based seafood technology infrastructure, including 
supporting new research faculty and graduate students, and expanding 
Sea Grant extension capabilities. Funds also would support cutting-edge 
research and development activities through competitive, peer-reviewed 
grant processes. The Sea Grant network is poised to help the industry 
increase quality and safety, add value, lower costs, and expand seafood 
supplies and markets, and this funding would be crucial to helping 
achieve these goals.
    NFI is especially supportive of this initiative because, in 
addition to helping the safety of seafood for the American consumer, 
this additional funding would help many small seafood businesses that 
derive productivity and competition benefits from university-based 
research that they are unable to do themselves due to the high costs. 
With that, I would ask that the Committee express support to the 
appropriators for a programmatic set-aside for the seafood science and 
technology theme within NOAA's Sea Grant program.
    Finally, President Bush requested $4.5 billion for NOAA in his FY 
2007 budget request and NFI believes that Congress must meet this 
broader request for the agency to fully meet its mandate. While we 
understand that there are many funding priorities on the table at this 
time, the research, data collection and oceans management tools 
underway and in development at NOAA are an imperative investment for 
now and for the future.
    We at NFI look forward to working with the Congress and with your 
Committee on the National Aquaculture Act, reauthorization of the 
Magnuson-Stevens Act, and on procuring additional funds for NOAA, all 
of which are necessary steps to helping ensure a sustainable and 
environmentally-sound ocean resource for future generations. I 
appreciate the opportunity to testify here today, and look forward to 
working with you on these important initiatives in the coming weeks and 
months.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                    VADM Conrad C. Lautenbacher, Jr.

    Question 1. Does the Administration believe that our oceans are in 
crisis?
    Answer. As stated in the 2004 report of the U.S. Commission on 
Ocean Policy, our oceans, coasts, and Great Lakes are critical to the 
existence and well-being of our Nation and its people; they are also 
vulnerable to human activities. The Bush Administration is focused on 
achieving meaningful results--making our oceans, coasts, and Great 
Lakes cleaner, healthier, and more productive. A key challenge is 
developing management strategies that ensure continued conservation of 
coastal and marine habitats and living resources, while at the same 
time ensuring the American public enjoys and benefits from those same 
resources. To advance the next generation of ocean, coastal, and Great 
Lakes policy, we have developed a U.S. Ocean Action Plan that supports 
sound management of these important resources.

    Question 2. As you well know, NOAA's authority currently comes from 
numerous statutes--it is quite a tangled and bureaucratic web. Given 
that the Ocean Commissions have called for an Organic Act establishing 
a more organized and efficient approach to oceans governance, what path 
would you recommend? How should NOAA be strengthened and improved?
    Answer. In its report, the U.S. Commission on Ocean Policy 
recommended immediate Congressional action on an Organic Act to enhance 
NOAA's ability to conduct operations consistent with the principles of 
ecosystem-based management and with its primary functions. The 
Administration concurs fully and transmitted an Administration proposal 
for a NOAA Organic Act to the Congress on June 10, 2004.
    A NOAA Organic Act would provide a unified, coherent charter to 
define NOAA's future service to the United States. The Administration's 
proposed bill would greatly strengthen NOAA's ability to undertake 
research activities, to disseminate information, to manage ocean and 
coastal areas, and to provide stewardship of living marine resources by 
codifying in one place its core administrative authorities. While NOAA 
has many of these authorities under statutes for specific programs, or 
under the Department's general authorities, the Administration's 
proposed bill provides clear authorities on a NOAA-wide basis, and 
places the NOAA authorities together in one public law. This would 
clarify NOAA's existing authorities and would enhance interagency 
cooperation. Furthermore, passage of a NOAA Organic Act would 
demonstrate Congressional support for the agency and its missions by 
providing NOAA with a clear and unified legislative mandate.

    Question 3. The Administration's Ocean Action Plan calls for taking 
a regional ecosystem-based approach to managing ocean resources. What 
steps has the Administration taken toward implementing this goal?
    Answer. In response to the U.S. Commission on Ocean Policy's 
recommendation, the Administration committed to continue working toward 
an ecosystem-approach in making decisions related to water, land, and 
resource management in ways that do not erode local and state 
authorities and are flexible to address local conditions. Accordingly, 
NOAA is committed to executing its stewardship responsibilities for 
ocean resources by employing an ecosystem-based approach to management. 
An ecosystem approach to management is one that provides a 
comprehensive framework for living resource decisionmaking. In contrast 
to individual species or single issue management, an ecosystem approach 
to management considers a wider range of relevant ecological, 
environmental, and human factors bearing on societal choices regarding 
resource use. This approach involves both organizing governance 
institutions (Federal, state, tribal and local) to work across 
traditional ``sectors'' (e.g., fishing, energy exploration and 
extraction, marine commerce and shipping), and by understanding how 
various physical and biological components interact.
    To achieve more coordination of NOAA's various mandates, NOAA 
commissioned a FACA panel, the External Ecosystem Task Team, to look 
carefully at all its ecosystem-related programs and make 
recommendations about how these programs can work more closely at the 
regional ecosystem scale (large marine ecosystems), and to provide data 
and analysis products that can serve many sectors at once. The report 
of the External Ecosystem Task Team (available at http://
www.sab.noaa.gov/Reports/eETT_Final_1006.pdf) is now at NOAA for 
appropriate action. As part of this exercise, NOAA scientists 
collaborated on a series of ``white papers'' to envision what 
ecosystem-related capabilities NOAA (and other appropriate agencies) 
would need to develop over the next 15 years (by 2020) in order to 
fully support a variety of ecosystem-based issues (e.g. impacts of 
climate variability, management of living resources in an ecosystem 
context, fresh water issues, social benefits).
    NOAA and other agencies, under the auspices of the Joint 
Subcommittee on Ocean Science and Technology, have developed priorities 
within the Administration's draft ``Ocean Research Priorities Plan.'' 
The Administration's priorities directly relate to the national 
responsibilities to support ecosystem-based management in order to work 
across Federal agencies and with the state and local governments. 
Additionally, the Subcommittee on Integrated Management of Ocean 
Resources has created several items in its work plan for the current 
year to conduct a series of planning workshops to develop interagency 
approaches to ecosystem-based management.
    The President's U.S. Ocean Action Plan also charged the Department 
of the Interior and NOAA to coordinate and better integrate the 
existing network of National Parks, National Wildlife Refuges, National 
Marine Sanctuaries and National Estuarine Research Reserves. Many of 
these sites adjoin and overlap with each other across various 
ecosystems to conserve a rich assemblage of coastal, ocean, and Great 
Lakes resources. On August 21, 2006, the Department of the Interior and 
NOAA signed an interagency agreement to increase the coordination of 
these programs. In FY 2007, the four programs are identifying regional 
and local level opportunities to enhance scientific understanding and 
conservation of coastal and marine ecosystems at these sites.
    On the international scene the U.S. Department of State, 
representing all Federal agencies, participated in the 7th meeting of 
the U.N. Open-ended Informal Consultative process on Oceans and the Law 
of the Sea, and successfully negotiated language for establishing 
principles supporting ecosystem approaches to management. In addition, 
NOAA is working with the Global Environmental Facility in over 75 
countries to adopt regional ecosystem approaches to collaborative 
science and management, especially in the developing world under its 
Large Marine Ecosystem program.
    In addition to these efforts, the Administration has supported 
stronger language supporting ecosystem approaches to management in the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.

    Question 4. Admiral Lautenbacher, you acknowledged there are budget 
disconnects, and that you have been trying to deal with them through 
your requirements-based ``Planning, Programming, Budgeting and 
Execution System'' (PBBES) process.
    Ideally does PBBES identify the agency's fiscal requirements to 
meet its missions? If not, what exactly is it supposed to identify? How 
does the amount identified initially as ``requirements'' by NOAA for FY 
2007 compare to what is in the PBBES request for FY 2007? Please 
provide these figures.
    Answer. PPBES is an integrated, requirements-based planning, 
programming, budgeting and execution system that serves two fundamental 
purposes: (1) it uses NOAA's strategic vision and goals to drive annual 
investment and management priorities, programmatic and policy choices, 
and budget development; and (2) it provides a systematic approach to 
allocating resources optimally and maximizing programmatic impact. 
Requirements are central to the entire PPBES system: all of NOAA's 
programs derive from validated requirement drivers (such as statutes or 
Executive Orders), and all investment decisions are assessed in terms 
of programmatic requirements. Through the PPBES system, NOAA 
systematically adjusts its priorities and corresponding budget requests 
to respond to external environmental changes, scientific and technical 
trends, Congressional and Administration priorities, and other factors 
that shape the demand for NOAA's mission functions. NOAA has proposed a 
fiscally prudent FY 2007 budget that focuses resources on NOAA's 
highest impact and most urgent programmatic requirements and adheres to 
the Administration's policy priorities.

    Question 4a. Admiral, as well as Mr. Panetta, can you explain where 
in the system of clearances in the Administration budget process are 
reductions from requirement-driven proposed levels taken--and be 
specific (e.g., NOAA line offices, NOAA HQ, DOC, OMB)? In your 
experience, at each level of review, what types of considerations would 
result in reductions to funding of a program identified as an agency 
requirement? For example: Lack of authorization (whether a subject-
specific Act or an organic Act)? Lack of scientific consensus? Failure 
to be highlighted as an Administration priority or by expert reports 
(such as in the Ocean Action Plan and the report of the U.S. Commission 
on Ocean Policy)?
    Answer. NOAA is provided fiscal guidance in order to prepare the 
budget submission; the budget request is shaped to meet those 
constraints. The budget request is then continually refined at each 
stage of the process: line office, NOAA headquarters, DOC, and OMB. 
These refinements can be increases, reductions, or reallocations. 
Fiscal constraints and policy considerations at each stage, combined 
with the priorities established through the PPBES process, determine 
the appropriate levels requested in the President's budget. NOAA fully 
supports the funding levels put forth in the President's budget.

    Question 4b. None of these categories seems to explain why the 
Oceans and Human Health and Marine Debris lines were defunded, and yet 
they were. Can you explain how that happened? Is it likely to happen 
again in the FY 08 request? What considerations would place them in 
danger of being zeroed out yet again?
    Answer. What you will see in the FY 2008 President's budget 
represents NOAA and the Administration's priorities. Within a 
constrained budget environment, items of lower priority are not 
requested. For FY 2008, NOAA's highest priority is sustaining mission-
critical operations. Other priorities include advancing key 
Presidential policy priorities such as: Magnuson-Stevens 
reauthorization, the President's Ocean Action Plan, the Global Earth 
Observation System of Systems, the Climate Change Science Plan, and the 
President's Management Agenda.

    Question 5. How can we improve the situation so that real-life 
budgets reflect real-life needs? Would an independent budgeting 
authority such as the one proposed in the Hollings National Ocean 
Policy and Leadership Act (which is included in my National Oceans 
Protection Act, S. 1224) be helpful in this regard? What other changes 
in the budget process would be helpful?
    Answer. The PPBES process allows NOAA to systematically adjust its 
priorities and corresponding budget requests to respond to external 
environmental changes, scientific and technical trends, Congressional 
and Administration priorities, and other factors that shape the demand 
for NOAA's mission functions. In this manner, within the budget 
environment, the budget reflects current needs and priorities. The 
proposal in S. 1224 to remove NOAA from the Department of Commerce, and 
thus its budget oversight, would not be helpful. Changes in the budget 
process such as the President's proposed line item veto legislation and 
earmarking reform would be helpful.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                    VADM Conrad C. Lautenbacher, Jr.

Competitiveness and Education
    Question 1. Currently, innovation and competitiveness initiatives 
are being pursued as a result of recommendations from a National 
Academies report, Rising above the Gathering Storm. As you know, ocean 
and atmospheric science and education were not explicitly mentioned in 
the report. However, the U.S. Commission on Ocean Policy and other 
experts have identified ocean and atmospheric research as key to 
improving America's science education and competitiveness. That is why 
we include a section on ocean and atmospheric science in the 
Committee's American Innovation and Competitiveness bill. What benefits 
do you believe ocean and atmospheric research and education have for 
U.S. scientific advancement, education, and competitiveness?
    Answer. America's economic strength and global leadership depend in 
large measure on our Nation's ability to generate and harness the 
latest in scientific and technological developments and to apply these 
developments to real world problems. These applications are fueled by 
scientific research, a strong education system that equips our 
workforce with the skills necessary to transform those ideas into goods 
and services, and an environment that encourages entrepreneurship, risk 
taking, and innovative thinking.
    NOAA is not included in the President's American Competitiveness 
Initiative. The three agencies named in the initiative (the National 
Science Foundation, the Department of Energy's Office of Science, and 
the National Institute for Standards and Technology within the 
Department of Commerce) were chosen because they support the largest 
proportion of basic research in physical sciences and engineering--two 
areas that were determined by the Administration to need additional 
support. These fields are high-leverage fields and produce both the 
fundamental research results and new research tools that support all of 
the sciences.
    NOAA's primary contributions to American competitiveness exist 
through providing an infrastructure of environmental observations, 
research and information services, and resource management that support 
efficient commerce, reduce business uncertainty and directly benefit 
the economy and society. We believe investments in oceanic and 
atmospheric research and education are essential to America's economic 
strength and global leadership. NOAA's impacts in these areas are 
particularly pronounced in weather- and climate-sensitive industries, 
the energy sector and energy-intensive industries, maritime-based 
industries, and the transportation sector.
    For example, total losses for the 2005 hurricane season in 
Louisiana, Mississippi, and Alabama have been estimated at $140 
billion, of which $40 to $67 billion were insured. NOAA's ability to 
observe, model, forecast and warn of environmental events is dependent 
on maintaining operational requirements for NOAA's platforms such as 
geostationary and polar satellites, data collecting buoys, and wind and 
weather missions on P-3 and G-IV aircraft. In the transportation 
sector, waterborne cargo alone contributes more than $742 billion to 
the U.S. GDP and creates employment for more than 13 million citizens. 
NOAA's technical information services are essential to the safe and 
efficient transport of people and goods at sea, in the air, and on land 
and waterways.

    Question 1a. What programs does NOAA have that will advance 
national innovation and competitiveness?
    Answer. With continued support from Congress, NOAA is in a strong 
position to improve the science base for environmental decisionmaking, 
improve environmental education, and transition science to operations, 
generating broad benefits for the America's economy.
    NOAA's highest technical priority is to build integrated, global 
Earth observations. To address the growing requirements for 
environmental data on national and global scales, NOAA, the National 
Aeronautics and Space Administration (NASA), and the Office of Science 
and Technology Policy are co-leading the implementation of the 
Strategic Plan for the U.S. Integrated Earth Observation System. The 
U.S. Integrated Earth Observation System is an essential component of 
the Global Earth Observation System of Systems, or GEOSS, which is a 
global Earth data collection and dissemination initiative to benefit 
worldwide stakeholders and decisionmakers. GEOSS will allow users to 
share, compare and analyze a diverse array of datasets, providing the 
information necessary to mitigate the impacts of natural hazards. GEOSS 
will provide the global information required to understand the 
interactions between Earth processes and, thereby, improve the 
forecasting skills of a wide range of natural phenomena. GEOSS will 
also promote improved decision-making in various sectors, including 
natural resource management, public health, agriculture and 
transportation. NOAA's environmental satellite systems and the 
Integrated Ocean Observing System (IOOS) are among the critical 
components of the GEOSS initiative.
    The Office of Ocean Exploration is devoted exclusively to the 
critical mission of exploring the still largely unknown ocean. The 
ocean exploration program focuses on discovery of new ocean resources 
for societal and economic benefits, serves as an effective means to 
promote ocean education and ocean literacy, and enables NOAA to become 
aware of ocean issues that may become the basis for future NOAA 
missions. NOAA's Undersea Research Program, NURP, harnesses the 
academic community to focus on NOAA's undersea research needs. NURP 
currently supports NOAA's mission by providing undersea scientists 
inside and outside NOAA with advanced technologies, such as an 
underwater laboratory, submersibles and remotely-operated vehicles, and 
the expertise needed to work in the undersea environment. NURP has a 
proven record of providing the advanced technologies and infrastructure 
necessary to support undersea research and exploration operations for 
both the academic community and NOAA.
    NOAA's environmental literacy programs are working to improve 
educational systems that will equip our workforce with the skills 
necessary to transform research results to goods and services that 
improve our lives and provide our Nation with the researchers of the 
future. Our formal and informal activities include the Ernest F. 
Hollings and Nancy Foster scholarship programs and Educational 
Partnership Program, including both undergraduate and graduate science 
fellowships. In 2005, NOAA provided scholarship and internship 
opportunities to over 150 undergraduate students and 57 graduate 
scholarship opportunities. In 2005, 28 teachers participated in NOAA's 
Teacher at Sea Program. NOAA's education investment is also geared 
toward hiring students trained through these scholarship and internship 
opportunities. Through June 15th, NOAA had hired 31 students trained 
through its Graduate Sciences Program.
    NOAA is committed to maximizing the value of its research and 
ensuring successful transition of research to application. Application 
of the best available, most cost-effective science and technology is 
essential to meeting the NOAA vision and mission, as well as improving 
America's competitiveness. NOAA reviews all of its research annually to 
assess readiness for transition, transition plans are developed and 
approved, and the oversight of all transition projects is conducted by 
a senior board within NOAA. Implementation of these procedures is 
underway with 45 transition projects identified. NOAA regularly 
transfers research projects into operations for the economic and social 
benefit of society. Pertinent examples include:

  <bullet> Air quality forecast research which is being used to predict 
        ground-level ozone,

  <bullet> Harmful Algal Bloom (HAB) Ecological Forecasting research 
        which is being used to understand the HAB dynamics and to 
        provide products that help mitigate and reduce the impacts of 
        HABs,

  <bullet> Deep-ocean Assessment and Reporting of Tsunami (DART) buoys 
        used to detect tsunamis,

  <bullet> Geophysical Fluid Dynamics Laboratory (GFDL) hurricane model 
        which improved prediction of the paths of hurricanes, and

  <bullet> Tropical Atmosphere Ocean (TAO) array used to track El Nino 
        and La Nina.

    Question 1b. Are these programs fully funded?
    Answer. Within Congressional appropriations, NOAA works hard to 
maintain its strong position to improve the science base for 
environmental decision-making and generate broad benefits for the 
economy and society. NOAA has proposed a fiscally prudent FY 2007 
budget that focuses resources on NOAA's highest impact and most urgent 
programmatic requirements and adheres to the Administration's policy 
priorities.

    Question 1c. What programs do states have?
    Answer. While NOAA has a number of important cooperative research 
initiatives and transition projects with states, we are not in a 
position to provide a comprehensive description of state initiatives in 
competitiveness.
Ocean Funding
    Question 2. The Ocean Commission originally recommended increasing 
spending by $3.9 billion annually, and a new report by the Joint Ocean 
Commission Initiative proposes an increase for this year of $747 
million above the FY 2006 levels for specific government-wide programs. 
How much of the recommended budget increase is necessary for NOAA to 
carry out its core missions?
    Answer. NOAA has requested the following amounts in FY 2007 to 
carry out core mission requirements of the U.S. Ocean Action Plan: for 
the National Ocean Service, $382.9M; for the National Marine Fisheries 
Service, $736.9M; for Oceanic and Atmospheric Research, $117.11M; for 
the National Weather Service, $71.09M; for the Office of Marine and 
Aviation Operations, $131.7M; for the National Environmental Satellite, 
Data, and Information Service, $175.81M; and for Program Support, 
$97.81M.

    Question 2a. How much would be needed for NOAA to fully implement 
the recommendations in Ocean Commission report?
    Answer. The U.S. Commission on Ocean Policy recognized that at the 
Federal level, 11 of the 15 Cabinet-level departments and four 
independent agencies play important roles in the development of ocean, 
coastal and Great Lakes policy. These agencies interact with one 
another and with state, territorial, tribal, and local authorities, and 
others to find the balance between conservation of ocean resources and 
ensuring that the American public enjoys the multiple benefits of its 
resources. As a result the Commission, in its report released on 
September 20, 2004 provided the Administration, Congress and the 
Nation's Governors with 212 recommendations to make the oceans better 
and cleaner. In response to the Commission's recommendations, on 
December 17, 2004, the President issued Executive Order 13366 
establishing the Cabinet-level Committee on Ocean Policy and directed 
the heads of executive departments and agencies to coordinate 
activities regarding ocean-related matters in an integrated and 
effective manner to advance the environmental, economic, and security 
interests of present and future generations of Americans. The Executive 
Order further directs the members of the Committee to facilitate, as 
appropriate, coordination and consultation regarding ocean-related 
matters among Federal, state, tribal, and local governments, the 
private sector, foreign governments, and international organizations.
    In conjunction with the Executive Order, the President released the 
U.S. Ocean Action Plan outlining fundamental components, both in 
response to the Commission's report as well as recent action, which 
together provide the foundation to advance the next generation of 
ocean, coastal, and Great Lakes policy. The U.S. Ocean Action Plan also 
recognizes the challenges in developing management strategies to ensure 
continued conservation of coastal and marine habitats and living 
resources, while at the same time ensuring that the American public 
enjoys and benefits from those same resources. There are adequate funds 
in the NOAA budget to support the U.S. Ocean Action Plan. Furthermore, 
NOAA is actively collaborating with several Federal agencies, states 
and nongovernmental organizations on other areas highlighted in the 
U.S. Ocean Action Plan and by working together effectively and 
efficiently, more can be accomplished.
Northwestern Hawaiian Islands National Marine Monument
    Question 3. I am concerned that the President's decision to declare 
the area around the Northwestern Hawaiian Islands as a National 
Monument may have been hasty. The Administration has created a 139,796 
square mile Monument with no firm commitments on budget, no clear legal 
authorities for management, and an undefined role for NOAA's expertise.
    Why was the Sanctuary designation process stopped despite clear 
direction from Congress in 2000 to establish it as a National Marine 
Sanctuary?
    Answer. The National Marine Sanctuaries Amendments Act of 2000 and 
Executive Order 13178 directed the Secretary of Commerce to initiate 
the Sanctuary designation process for the region encompassed by the 
Northwestern Hawaiian Islands Coral Reef Ecosystem Reserve. The 
ultimate determination as to whether designation would occur was left 
to the managing agency, and the Department of Commerce, through NOAA, 
satisfied the statutory requirement once it initiated the process. To 
that end, the Department did conduct public scoping and develop a range 
of alternatives, consistent with the requirements of the National 
Marine Sanctuaries Act and the National Environmental Policy Act. Prior 
to completion of the process, however, administrative action was taken 
to designate the region as the Northwestern Hawaiian Islands Marine 
National Monument. This designation provides protection for the 
region's resources and has built upon the public input provided through 
the sanctuary designation process.

    Question 3a. Do you have a cost assessment to implement the 
Monument?
    Answer. Since the President's announcement, we have been developing 
a cost assessment for the Monument and identifying the resources needed 
to implement the Presidential proclamation.

    Question 3b. Does the President's FY 2007 budget request include 
the necessary funds to begin implementation based on the expedited 
process and announcement?
    Answer. No, the President's budget proposal was transmitted to the 
Congress on February 6, 2006. The President did not create the 
Northwestern Hawaiian Islands Monument until June 15, 2006. Until 
specific funds can be considered through the President's Budget 
process, we will continue to fund the highest priority basic management 
needs out of existing resources.

    Question 3c. This is the time of the Fiscal Year that NOAA is 
making determinations regarding its FY 2008 budget needs. What are 
NOAA's FY 2008 budget estimates currently for the Northwestern Hawaiian 
Islands? Is the President's Office of Management and Budget responsive 
to these additional needs or are they making NOAA shift resources 
internally?
    Answer. The FY 2008 NOAA budget request is in the process of 
development. The President's FY 2008 budget proposal will be 
transmitted to the Congress the first week in February 2007.

    Question 3d. The President has decided to end future fishing in the 
NWHI for the 8 vessels remaining in the bottomfish fishery. While 
making a striking decision with respect to these families' futures, he 
has done nothing to address the resulting economic dislocation. In 
fact, I see that private organizations are announcing that they are 
negotiating payments with families that are affected by this closure. 
Does the President endorse or support this approach, and is the 
Administration involved? Is he planning to propose any Federal funding? 
What mechanism ensures that any of these families would receive fair 
compensation for their businesses? Unless the Federal Government is 
involved, how do you ensure that this process does not take advantage 
of fishermen, who are not experienced negotiators?
    Answer. Following a 5-year process with broad stakeholder input to 
develop the appropriate level of conservation around the Northwestern 
Hawaiian Islands, a decision was made not to renew permits for 
commercial groundfish fishing after a 5-year period. A 5-year period 
was selected to allow the 8 remaining fishermen time to plan for the 
expiration of their permits to this portion of the Pacific Ocean. The 
decision not to renew permits for the Northwestern Hawaiian Islands 
does not preclude the fishermen from fishing in other fisheries where 
they are permitted.
    We are aware that a private organization was offering the 8 
remaining fishermen a financial incentive to end fishing even earlier 
than the 5-year period after which permits would not be renewed. The 
Federal Government was not involved in those discussions. We understand 
that many of the fishermen refused to accept the offer and, as a 
result, the offer was recently withdrawn.
    NOAA remains committed to working with the NWHI fishermen during 
this transition period. In response to a request from Senator Inouye, 
Bill Hogarth, Assistant Administrator for Fisheries, met with a small 
group of stakeholders and industry leaders to discuss issues related to 
this fishery.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                    VADM Conrad C. Lautenbacher, Jr.

    Question 1. I am very concerned about NOAA's proposal to eliminate 
funding for the Mid-Atlantic Undersea Research Center at Rutgers 
University, including its technology programs, which are a lynchpin in 
increasing knowledge of coastal conditions. As you know, the Center 
houses the ``LEO-15'' observatory, which is conducting valuable ocean 
and coastal research. Why is NOAA proposing to eliminate funding for 
the Mid-Atlantic Center?
    Answer. Under the President's FY 2007 budget, none of the National 
Undersea Research Centers will be eliminated. The FY 2006 enacted 
budget provided no funding for the National Undersea Research Program 
centers on the East Coast. NOAA redirected a small amount of internal 
funds to preserve essential personnel and facilities at the East Coast 
centers, including the Mid-Atlantic Undersea Research Center at Rutgers 
University. The President's FY 2007 budget provides funding consistent 
with this FY 2006 redirection to enable the preservation of core 
expertise and to maintain key operational facilities at the East Coast 
regional centers, including the Mid-Atlantic Undersea Research Center, 
as NURP develops a plan to restructure and to merge with the Office of 
Ocean Exploration.
    As part of this restructuring, LEO-15 will be transitioned out of 
the National Undersea Research Program in FY 2007. LEO-15 incorporated 
the most advanced cabled ocean observatory technology when it was 
installed in 1996, and served as a successful proof of concept for 
coastal ocean observation and research needs. The observatory currently 
serves a wide range of operational functions including observations, 
education, and research support. In light of the subsequent 
advancements in observation platforms and remote communications 
technology, NOAA intends to transition support for LEO-15 consistent 
with its Policy for Transition from Research to Application.

    Question 2. As we consider the state of our oceans, and their 
future, how important is it to strengthen and expand our ocean 
education programs for all grade levels?
    Answer. NOAA believes it is essential to strengthen and expand 
ocean education for all grade levels. Understanding the world's ocean 
is essential to comprehending the planet we live in. More and more, our 
lives have been affected by ocean-related events--from disasters like 
the devastating December 2004 Tsunami in the Pacific to Hurricane 
Katrina in the United States--and concerns about global climate change. 
Society is largely ocean illiterate and a basic understanding of the 
key concepts needed for sound decisionmaking on matters related to 
sustainability, management, and preservation is lacking. The need for 
ocean literacy has been recognized by the U.S. Ocean Action Plan which 
encourages not only efforts in formal education (i.e., K-12, colleges, 
and universities) but also teaching and learning about the ocean by 
students of all ages. Ocean literacy has been recognized as a need at 
national, regional, and local levels.

    Question 3. I believe some of my colleagues are skeptical of having 
NOAA take a lead role in ocean education, preferring it to be done by 
the Department of Education, or just leaving it to the states. Do you 
agree with me that providing NOAA with a clear mandate to lead our 
Federal ocean education efforts is the right approach?
    Answer. As a Federal science agency, the primary purpose of NOAA's 
science activities is to serve the public need for relevant information 
to promote social and economic prosperity. NOAA's vision: ``An informed 
society that uses a comprehensive understanding of the role of the 
oceans, coasts, and atmosphere in the global ecosystem to make the best 
social and economic decisions'' recognizes that this responsibility 
requires more than accurate and precise scientific information; it also 
requires a public sufficiently empowered to understand and apply our 
information for the benefit of our Nation. NOAA's education programs 
are focused on science areas where NOAA has unique expertise and 
responsibility, and where public responsiveness to warnings, forecasts, 
and stewardship efforts is essential for meeting our mission.
    Assessments of NOAA activities during Hurricane Isabel in 2003 
demonstrated that our responsibility to society requires more than 
accurate and timely science information. The lack of appropriate public 
and civic responses was attributed to a fundamental lack of 
understanding of storm surge and an inability to interpret predictions. 
Education and outreach were identified among the most important actions 
NOAA could take to reduce future loss of life and property associated 
with similar storms.
    As one of our Nation's premier ocean agencies, responsible for 
serving the public need for relevant marine and coastal science 
information, NOAA believes it has a unique role to ensure an integral 
connection between ocean science and activities to promote ocean 
literacy. The availability of information in today's technology-
demanding society is quickly elevating this role to a critical 
obligation. Timely access to accurate, life-relevant information 
through the Internet is resulting in less dependence on traditional 
static sources of educational material, such as textbooks, and is 
building an ever increasing demand for current data and information to 
teach inquiry-based science. As the demand for such information 
expands, so does the public expectation that the agencies federally-
funded to collect this information will anticipate and act to fill this 
need. This expectation was articulated in Blueprint for Change: Report 
from the National Conference on the Revolution in Earth and Space 
Science Education (Barstow, 2002): ``NASA, USGS, NOAA and other 
agencies have . . . [a] treasure trove of satellite imagery, 
animations, interactive maps and other visualizations for ready access 
by schools and the general public. The Internet helps students see how 
Earth's forces affect their daily lives and provides . . . links for 
further exploration. Such efforts should be continued and expanded, 
including developing related educational materials to help teachers and 
students take better advantage of these resources.''
    This characterization of a need for relevant resources for science 
education defines a leadership role for science agencies that serves as 
an essential complement to the efforts of states and the Federal 
departments of education. NOAA recognizes the authority of state and 
local entities as the sole providers of ``direction, supervision, or 
control over the curriculum program of instruction, administration, or 
personnel of any educational institution, school, or school system.'' 
However, with the establishment of the Department of Education, 
Congress recognized a role for Federal involvement to supplement and 
complement efforts at the state and local level. In support of this 
role, the Department of Education focuses on four major types of 
activities: overseeing Federal education financial aid; tracking and 
disseminating education data and research; formulating and implementing 
broad Federal policy on education reform; and enforcing civil rights 
statutes to ensure equal education opportunity. This leaves an 
appropriate role for Federal science agencies to assist in promoting 
educational excellence by leading efforts to improve availability and 
access to valid, relevant science content. As one of our Nation's 
premier ocean agencies, NOAA is uniquely qualified to complement the 
activities of state and Federal departments of education by integrating 
timely, real-life ocean science and education to promote ocean 
literacy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Leon E. Panetta

    Question 1. You have called for an Organic Act for NOAA, and you 
outline elements that you think should be included. It is my 
understanding that NOAA's responsibilities are spread out over dozens 
of separate statutes.
    Can you elaborate on why you think passage of an Organic Act should 
be a priority for this Committee and for Congress?
    Answer. At a time when our oceans are in crisis, our Nation needs 
the only civilian agency with an ocean-focused mission to function 
effectively and efficiently. However, NOAA currently suffers from 
programmatic and functional overlaps, disconnects among current line 
offices, and changing organizational principles. These problems are 
attributable to many reasons, arising, in part, because the agency has 
never been established in law and so lacks a clearly defined mission 
and the organizational structure to fully carry out that mission. By 
codifying and more importantly, strengthening NOAA, Congress could 
enhance its mission, improve its structure, and better enable it to 
carry out existing and new responsibilities in a more effective manner 
that is consistent with ecosystem-based management.
    There is considerable concern within the ocean community regarding 
NOAA's capability to fulfill its expanding mission. As our 
understanding of the complex and interrelated processes that drive 
ocean and coastal ecosystems improve, along with our awareness of the 
negative effects of cumulative impacts associated with human activities 
on these processes and the health of ocean-related resources, it is 
abundantly clear that major advances in science, management and 
education are needed to address the situation. The fact that NOAA's 
structure has not changed significantly since its establishment in 
1970, notwithstanding advances in knowledge and recognition of the 
inadequacies of the current governance regime, is evidence of the need 
for Congress to exercise its authority to restructure NOAA's 
institutional organization.
    Such reorganization would also provide Congress and the 
Administration an opportunity to revisit NOAA's budget structure and 
funding priorities. The extensive compilation of individual line items 
included in NOAA's budget is a reflection of the inadequacies of the 
existing budget structure, which in turn has perpetuated a lack of 
confidence in the agency's capacity to fulfill its missions. The 
recommendations of the U.S. Commission on Ocean Policy, as well as 
internal evaluations, such as the NOAA Science Board's Ecosystem 
Research Review Team, clearly identify the need for the realignment of 
the agency's organization and resources. The benefits of providing 
additional resources to NOAA would be significantly enhanced by also 
granting the agency greater discretion in the use of existing and new 
resources. Such action would allow the agency to be more responsive to 
unanticipated needs and expand its reliance on partnerships with other 
Federal agencies, state agencies, and nongovernmental entities.

    Question 1a. How would it help NOAA better accomplish its mission 
of protecting and restoring our oceans and coasts?
    Answer. NOAA's mission is to understand and predict changes in the 
Earth's environment and to conserve and manage ocean and coastal 
resources to meet the Nation's economic, social, and environmental 
needs. The agency's responsibilities have been spread across five line 
offices: the National Ocean Service; the National Marine Fisheries 
Service; the National Weather Service; the Environmental Satellite, 
Data, and Information Service; and the Office of Oceanic and 
Atmospheric Research.
    While NOAA has made significant strides in many of its mission 
areas, the current structure leads to significant programmatic and 
functional overlap, as well as frequent disagreements and disconnects 
among line offices. A sixth line office, the Office of Program Planning 
and Integration was established recently in order to improve horizontal 
integration among NOAA line offices. However, this change is only one 
of several steps needed to strengthen NOAA's performance. NOAA needs to 
manage its current activities more effectively and be prepared to 
respond to a growing suite of new responsibilities. A stronger, more 
effective, science-based, and service-oriented ocean agency is needed.
    A strong Organic Act for NOAA should orient the agency's structure, 
leadership, and staff to support the exercise of its core functions. 
NOAA's primary functions can be categorized as:

  <bullet> Assessment, prediction, and operations.

  <bullet> Marine resource and area management.

  <bullet> Scientific research and education.

    An Organic Act should encourage improved interaction within and 
among these categories such that NOAA's functions complement and 
support each other.
    If NOAA were established as the lead civilian ocean agency and 
restructured along functional lines, it would mark the first step in 
the important process of reevaluating how the multitude of Federal 
agencies with ocean-related responsibilities coordinate and integrate 
their respective activities. This in turn would set the stage for 
Congress and the Administration to take a measured and thoughtful 
approach to eventually realigning ocean programs that are currently 
spread throughout various Federal agencies.

    Question 1b. What are the key elements of an effective Organic Act 
for NOAA?
    Answer. An effective Organic Act for NOAA will strengthen the 
agency, enhance its mission, improve its structure, and better enable 
it to carry out existing and new responsibilities. An effective Organic 
Act for NOAA should:

  <bullet> Establish NOAA as the lead civilian ocean agency by statute.

  <bullet> Set forth core missions of: assessment, prediction, and 
        operations; ecosystem-based management of ocean and coastal 
        areas and resources; and science, research, and education.

  <bullet> Call for reorganization of the agency along functional lines 
        to better equip it to carry out its core mission and remain 
        science-based, but with its management programs better 
        connected to make use of that science in decisionmaking.

  <bullet> Establish leadership roles and accountability mechanisms for 
        implementation of major elements of the agency's mission.

    Question 2. Oceans do not follow state political lines. 
Unfortunately, however, decisions in some states can negatively impact 
the ocean waters and coasts of other states. To address this problem, 
and better manage the ocean, the Ocean Commissions recommended a 
regional approach to ocean management.
    How would regional ocean governance work, and how do you react to 
fears expressed that such a structure will bring unnecessary 
bureaucracy?
    Answer. Regional ocean governance as envisioned by the U.S. 
Commission on Ocean Policy is a system of voluntary cooperative and 
collaborative approaches to realizing opportunities and addressing 
concerns at the regional level. Currently, several states have shown 
initiative in developing these regional structures to address ocean and 
coastal problems, proving that they can and desire to make progress on 
ocean management reform. However, both ocean commissions recommended 
the establishment of a more coordinated and effective regional ocean 
governance system and found that additional tools and support from the 
Federal Government are needed.
    In 2004, the Administration created the Cabinet-level Committee on 
Ocean Policy and its Subcommittee on Integrated Management of Ocean 
Resources (SIMOR) and Joint Subcommittee on Ocean Science and 
Technology (JSOST). Responsibilities of these interagency committees 
include providing support for regional approaches to ocean management 
and improving coordination of the ocean activities of Federal agencies. 
While this is an important step, much more should be done at the 
Federal level to help regions solve important ocean and coastal 
problems.
    A more robust national framework is needed to enable coordinated, 
integrated, ecosystem-based management that builds on existing regional 
and ecosystem-based efforts. This framework should allow sufficient 
flexibility for states to shape regional initiatives according to their 
particular situations, while encouraging all regional approaches to 
possess key characteristics, such as diverse membership from the state 
and Federal level, a meaningful process for receiving input from 
citizens, and an effective procedure for developing regional ocean 
strategic plans. Under a regional ocean governance system, the Federal 
Government would assist regions in the development of compatible and 
coordinated plans and processes that would facilitate the development 
of regional goals and priorities, improve responses to regional needs, 
and develop and disseminate regionally-significant research and 
information.
    A national framework should also include a strong national ocean 
policy that acknowledges in legislation the importance of oceans to the 
Nation's economic and ecological health. It should include increased 
authority for a high-level national body to provide leadership and 
support for the national ocean policy and to work with a broad range of 
stakeholders to develop a process for regional ocean governance.
    The framework recommended by the Joint Initiative would not add 
unnecessary layers of bureaucracy. While enhanced authority for a 
national coordinating body would be necessary for better regional-level 
coordination of Federal ocean activities and for development of a 
Federal system to assist regions in the development and implementation 
of regional ocean management plans, it would not by default establish 
new agencies. In many cases, enhanced authority could be given to an 
existing body.
    An important component of effective regional ocean governance that 
is currently lacking is a coordinated offshore management regime to 
increase our understanding of offshore areas and resources, prioritize 
uses, and ensure that activities in a given area are compatible. Where 
a proposed activity will occupy ocean space to the exclusion of other 
uses, it is the Federal Government's responsibility to determine where 
the activity can take place, by whom, in what manner, and for what 
length of time. Wise decisions on such questions cannot be made in 
isolation; agencies administering different activities must be aware of 
one another's actions, as well as activities occurring in adjacent 
state waters. To this end, coordination should be immediately improved 
among single-activity management programs that regulate offshore 
activities. In addition, coordination of the management of all offshore 
activities is necessary, including those not tied to a specific 
geographic location. Regional initiatives that enjoy strong support 
from the Federal Government in the development of regional ocean 
management initiatives can provide the opportunity for a broad dialogue 
among stakeholders at all levels on a more coordinated and deliberate 
approach to managing activities in offshore areas.
    Developing an effective coordinated offshore management regime will 
take time. Fortunately, there are several important and immediate 
actions that Congress can take to assist state and Federal agencies in 
their progress on regional efforts:

  <bullet> Congress should call upon the Federal agencies to identify 
        opportunities to further coordinate existing programs and 
        activities at the regional level and to develop guidelines that 
        enable improved coordination and analysis to assist in the 
        transition toward an integrated management approach that 
        considers the entire ecosystem.

  <bullet> Congress should require regional ecosystem assessments to 
        guide management decisions and improve the process mandated 
        under NEPA.

  <bullet> Congress should expressly acknowledge that management of all 
        marine resources should be carried out with an ecosystem-based 
        approach by including such language as part of the 
        reauthorization of ocean, coastal, and water laws.

    Question 3. Admiral Lautenbacher acknowledged there are budget 
disconnects, and that he has been trying to deal with them through his 
requirements-based ``Planning, Programming, Budgeting and Execution 
System'' (PBBES) process.
    Mr. Panetta, can you explain where in the system of clearances in 
the Administration budget process are reductions from requirement-
driven proposed levels taken--and be specific (e.g., NOAA line offices, 
NOAA HQ, DOC, OMB)? In your experience, at each level of review, what 
types of considerations would result in reductions to funding of a 
program identified as an agency requirement? For example: Lack of 
authorization (whether a subject-specific Act or an organic Act)? Lack 
of scientific consensus? Failure to be highlighted as an Administration 
priority or by expert reports (such as in the Ocean Action Plan and the 
report of the U.S. Commission on Ocean Policy)?
    Answer. Reductions in Federal budgets are made at all stages of the 
budget formulation process as managers in the line offices, NOAA 
headquarters, Department of Commerce (DOC), and Office of Management 
and Budget (OMB) attempt to reconcile the agency's mission requirements 
within the given year's funding limitations. Presuming NOAA is given a 
budget cap by the DOC, its budget request must be very close to this 
cap or it risks having DOC and/or OMB modify the agency's budget to fit 
within the cap. Opportunities for securing funds above the cap are 
limited given that these additional funds would have to be taken from 
the budgets of other DOC or Federal agencies. It is unclear what input 
or opportunity NOAA has to influence either the initial budget 
allocation provided to DOC by OMB, or the allocation by DOC among its 
agencies. General guidance for government-wide science priorities is 
provided in an annual guidance memo distributed by the Director of OMB 
and the President's Science Advisor. However, in recent years, this 
guidance memo, which has only recently included ocean-related issues, 
has been distributed very late in the budget formulation process, 
significantly discounting its usefulness to the agencies.
    Perhaps the most significant disconnect in the NOAA budget process 
is associated with the agency's alignment with the DOC and the General 
Government Program directorate of the OMB. As a stewardship-oriented 
agency that represents approximately 60 percent of the DOC's budget, 
NOAA is placed in an awkward position of competing with eight commerce-
oriented agencies whose funding priorities have limited relationship 
with those of NOAA. It is very difficult for senior administrators 
within DOC to balance their commerce and trade mission with the 
stewardship-oriented mission of NOAA. This difficulty of highlighting 
NOAA funding priorities is further exacerbated at the OMB level where 
the NOAA budget competes with other DOC programs, but also with 
programs from the Departments of Housing, Treasury, Transportation, and 
Justice, as well. All of the other Federal science and resource 
agencies--Department of the Interior, Environmental Protection Agency, 
U.S. Department of Agriculture, National Aeronautics and Space 
Administration, National Science Foundation, and U.S. Army Corps of 
Engineers--are housed under the Natural Resources Programs directorate 
at OMB.
    Evidence of the difficulty NOAA faces in securing additional 
funding within the Administration's budget formulation process is 
clearly demonstrated by the limited increase in the President's budget 
request for NOAA despite the recommendations of the Pew Oceans 
Commission and the U.S. Commission on Ocean Policy, whose members were 
appointed by President Bush. There is clear scientific and policy 
consensus that our oceans, coasts, and Great Lakes are in poor health 
and that ocean-related science, management, and education programs have 
been significantly under-funded despite the modest growth in the 
agency's budget. As noted in responses to other questions submitted for 
the record and in its Final Report, the U.S. Commission on Ocean Policy 
recommended an additional $4 billion be provided to support ocean-
related programs throughout the Federal Government, as well as in the 
states (see Chapter 30 and Appendix G of An Ocean Blueprint for the 
21st Century, the Final Report of the U.S. Commission on Ocean Policy). 
The recommendations contained in the report reflect and are 
supplemented by numerous reports issued by the National Academies, 
highlighting general consensus and support for these funding 
initiatives within the scientific and policy community. In its June 
2006 report to the U.S. Senate, From Sea to Shining Sea, the Joint 
Ocean Commission Initiative identified $747 million in very high 
priority funding that is needed immediately to put the Nation on a path 
to restoring the health of our oceans and coasts.
    Unfortunately, the failure of the Administration to submit a 
comprehensive ocean funding request for NOAA and the many other 
agencies that share responsibility for managing and studying oceans and 
coasts has resulted in Congress adding programs to NOAA's budget during 
the appropriations process. The resulting patchwork of programs and 
activities not formally requested by the Administration is subsequently 
terminated (or funding is substantially reduced) by the Administration 
in the next budget formulation process. Until the Administration and 
Congress come to agreement on the programs that constitute NOAA's 
``base'' budget, energy and resources that should be directed toward 
identifying and supporting new high-priority funding initiatives will 
be lost in the struggle to secure funding to maintain and enhance core 
programs. NOAA could more easily justify budget increases provided by 
Congress were the additional funding incorporated in the discretionary 
budgets of key programs instead of being identified as individual line 
items. This approach will require Congress, the Administration, and 
NOAA, to come to agreement on the scope of activities supported by the 
new funding and the expectations for the agency to partner with 
nongovernmental entities that have the expertise to support these 
activities, fully recognizing the competitive nature of the granting 
process.
    Finally, the opportunity to justify increased budgetary support for 
NOAA would be greatly enhanced were Congress to pass an Organic Act for 
the agency. NOAA's role as the Nation's lead civilian ocean agency 
would be significantly strengthened if such legislation reorganized the 
agency in a manner described in our response to Senator Boxer's first 
question. Reorganization along the functional lines described above 
would allow Congress and the Administration to retool NOAA's budget in 
a manner that would provide the agency with greater flexibility and 
discretion to direct its resources toward high priority programs and 
activities.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Hon. Leon E. Panetta

Competitiveness and Education
    Question 1. Currently, innovation and competitiveness initiatives 
are being pursued as a result of recommendations from a National 
Academies report, Rising above the Gathering Storm. As you know, ocean 
and atmospheric science and education were not explicitly mentioned in 
the report. However, the U.S. Commission on Ocean Policy and other 
experts have identified ocean and atmospheric research as key to 
improving America's science education and competitiveness. That is why 
we include a section on ocean and atmospheric science in the 
Committee's American Innovation and Competitiveness bill.
    What benefits do you believe ocean and atmospheric research and 
education have for U.S. scientific advancement, education, and 
competitiveness?
    Answer. Ocean and coastal research, science, and education are 
vital contributors to our Nation's intellectual and competitive edge. 
They are critical to our economy and to our ability to tackle serious 
environmental problems such as climate change, resource depletion, 
harmful algal blooms, invasive species, and non-point source water 
pollution, to name just a few.
    Our oceans host great biological diversity and are a frontier for 
exciting exploration and effective education. Our oceans are rich in 
energy resources, marine biotechnology is a rapidly growing industry 
that is capitalizing on the vast biological and genetic diversity of 
marine life, and advanced underwater vehicles are opening up an era of 
ocean exploration that has captured the imagination of a new generation 
of school-aged children. Cutting-edge research using massive oceanic 
and atmospheric data sets and a new focus on promoting multi-
disciplinary studies in support of ocean science are laying the 
groundwork for technological advances and a sophisticated workforce 
that will allow our Nation to be a leader in the global shift toward a 
service sector that provides environmentally-sensitive technologies and 
policies.
    The Joint Ocean Commission Initiative has identified several key 
ocean science projects that can help our Nation to maintain its 
position at the forefront of science and innovation. These include a 
renewed commitment to:

  <bullet> Implementation of an International Ocean Observing System 
        (IOOS), a critical missing link in the Administration's plan 
        for a Global Earth Observation System of Systems.

  <bullet> Investment in ocean exploration, which can marry curiosity-
        driven basic research with more practical applied research 
        needs, providing for the discovery of new species, drugs, or 
        geological processes, along with information that provides 
        important societal benefits, such as improved understanding of 
        the impacts of climate change on all marine ecosystems.

  <bullet> Establishing an ``ecosystem research initiative'' that would 
        integrate ongoing basic and applied ecosystem research across 
        the spectrum of Federal agencies doing such research and 
        provide information critical in the transition toward 
        ecosystem-based management.

    Ocean science is also highly relevant for:

  <bullet> Our predictive capabilities.

  <bullet> Climate modeling.

  <bullet> Forcing functions--e.g., predicting the impact of storms.

  <bullet> Cyber-enabled discovery and innovation.

  <bullet> Fishery resource management.

  <bullet> Energy development.

    The interdisciplinary nature of ocean issues is driving an 
increasing number of students toward multidisciplinary studies, which 
provides them with the tools and perspectives to address problems on an 
ecosystem level. This capacity to reach across scientific disciplines, 
as well as to marry policy and science, is a crucial skill that will 
help guide the technological advances that are driving national 
economies forward so that they do not come at the expense of the 
natural environment.

    Question 2. What programs does NOAA have that will advance national 
innovation and competitiveness?
    Answer. NOAA is in a strong position to improve the scientific base 
for environmental decision-making, enhance scientific and environmental 
literacy, and transition scientific theory to real-world operations, 
all of which generate broad benefits for the U.S. economy.
    NOAA's highest technical priority is to build integrated, global 
Earth observation systems. To address the growing requirements for 
environmental data on national and global scales, NOAA, the National 
Aeronautics and Space Administration (NASA), and the Office of Science 
and Technology Policy are co-leading the implementation of the 
Strategic Plan for the U.S. Integrated Earth Observation System. The 
U.S. Integrated Earth Observation System is an essential component of 
the Global Earth Observation System of Systems, or GEOSS, which is a 
global Earth data collection and dissemination initiative. GEOSS will 
allow users to share, compare and analyze a diverse array of datasets, 
providing the information necessary to mitigate the impacts of natural 
hazards. It will also provide the global information required to 
understand the interactions between Earth processes and thereby improve 
our ability to forecast a wide range of natural phenomena, including 
natural disasters. It will promote improved decision-making in various 
sectors, including natural resource management, public health, 
agriculture and transportation. NOAA's environmental satellite systems 
and NASA's integrated global Earth system science satellite 
constellation are among the critical components of the GEOSS 
initiative.
    NOAA's Office of Ocean Exploration is devoted exclusively to the 
critical mission of exploring the still largely unknown ocean. The 
ocean exploration program focuses on discovery of new ocean resources 
for societal and economic benefits, serves as an effective means to 
promote ocean education and ocean literacy, and enables NOAA to become 
aware of ocean issues that may become the basis for future NOAA 
missions. NOAA's Undersea Research Program, NURP, harnesses the 
academic community to focus on NOAA's undersea research needs. NURP 
currently supports NOAA's mission by providing undersea scientists 
inside and outside NOAA with advanced technologies, such as an 
underwater laboratory, submersibles and remotely-operated vehicles, and 
the expertise needed to work in the undersea environment. NURP has a 
proven record of providing the advanced technologies and infrastructure 
necessary to support undersea research and exploration operations for 
both the academic community and NOAA.
    NOAA's environmental literacy programs are working to improve 
educational systems that will equip our workforce with the skills 
necessary to transform research results to goods and services that 
improve our lives and provide our Nation with the researchers of the 
future. NOAA's formal and informal activities include the Ernest F. 
Hollings and Nancy Foster scholarship programs and the Educational 
Partnership Program, which includes both undergraduate and graduate 
science fellowships. In 2005, NOAA provided scholarship and internship 
opportunities to over 150 undergraduate students and 57 graduate 
scholarship opportunities. In 2005, 28 teachers participated in NOAA's 
Teacher at Sea Program. NOAA's education investment is also geared 
toward hiring students trained through these scholarship and internship 
opportunities. Through June 15th, NOAA had hired 31 students trained 
through its Graduate Sciences Program.
    NOAA is committed to maximizing the value of its research and 
ensuring successful transition of research to application. Application 
of the best available, most cost-effective science and technology is 
essential to meeting the NOAA vision and mission, as well as improving 
America's competitiveness. NOAA reviews all of its research annually to 
assess readiness for transition, transition of research findings into 
real-world applications that would bring economic and social benefits. 
Transition plans are developed and approved, and the oversight of all 
transition projects is conducted by a senior board within NOAA. 
Implementation of these procedures is underway with 45 transition 
projects identified. Pertinent examples include:

  <bullet> Air quality forecast research used to predict ground-level 
        ozone.

  <bullet> Harmful Algal Bloom (HAB) Ecological Forecasting research to 
        understand HAB dynamics and to provide products that help 
        mitigate and reduce the impacts of HABs.

  <bullet> Deep-ocean Assessment and Reporting of Tsunami (DART) buoys 
        used to detect tsunamis.

  <bullet> Geophysical Fluid Dynamics Laboratory (GFDL) hurricane model 
        which improved the prediction of the paths of hurricanes.

  <bullet> Tropical Atmosphere Ocean (TAO) array used to track El Nino 
        and La Nina.

    Question 2a. Are these programs fully funded?
    Answer. NOAA programs would need significant resource enhancements 
to immediately and fully satisfy all of their requirements. Recognizing 
the limitation associated with the current budget environment, Congress 
should incorporate NOAA into its funding initiative supporting the 
President's American Competitiveness Initiative, providing the agency 
with additional resources commensurate with those being directed to the 
Department of Energy, National Science Foundation, and National 
Institute of Standards and Technology.

    Question 2b. What programs do states have?
    Answer. Coastal states engage in numerous activities that 
contribute to American competitiveness and the success of the U.S. 
economy. According to the U.S. Commission on Ocean Policy, coastal 
watershed counties generate over $6.1 trillion, nearly half of the 
Nation's GDP, and state coastal management programs, universities, and 
state Sea Grant programs perform critical roles in ocean science and 
education. While there is much that states are doing on their own, they 
cannot reach their potential without additional help from the Federal 
Government. For this reason, Congress should take actions that build 
the capacity of states to further participate in enhancing American 
competitiveness through ocean-related research, science, and education. 
In addition, Congress should support the Administration's Ocean 
Research Priorities Plan and Implementation Strategy, an important step 
toward enhancing coordination, collaboration, and synergies among 
various sectors and levels of government with regard to the planning 
and execution of critical ocean science endeavors.
Ocean Funding
    Question 3. The Ocean Commission originally recommended increasing 
spending by $3.9 billion annually, and a new report by the Joint Ocean 
Commission Initiative proposes an increase for this year of $747 
million above the FY 2006 levels for specific government wide programs.
    How much of the recommended budget increase is necessary for NOAA 
to carry out its core missions?
    Answer. The funding recommendations made by the U.S. Commission on 
Ocean Policy and the Joint Ocean Commission Initiative did not focus 
solely on the needs of NOAA. They reflected the needs associated with 
programs throughout the Federal Government, as well as in the states. 
Neither the U.S. Commission on Ocean Policy nor the Joint Ocean 
Commission Initiative attempted to separate and identify NOAA ``core'' 
missions versus collateral missions. However, an analysis of the Joint 
Initiative's report indicates that approximately $500 million in 
additional funding is applicable to activities supported by NOAA. This 
represents $500 million above the $3.9 billion Congress appropriated 
for NOAA in FY 2006. This funding recommendation is intended to 
represent the first installment of a much larger funding initiative 
recommended by both the U.S. Commission on Ocean Policy and the Pew 
Oceans Commission.
    The Joint Ocean Commission Initiative would like to reiterate its 
strong support for the establishment of an Ocean Trust Fund in the U.S. 
Treasury based on a dedicated source of revenue for the improved 
management and understanding of ocean and coastal resources at the 
Federal and state level.

    Question 3a. How much would be needed for NOAA to fully implement 
the recommendations in the Ocean Commissions report?
    Answer. Chapter 30 and Appendix G of the U.S. Commission on Ocean 
Policy's final report An Ocean Blueprint for the 21st Century attempt 
to quantify the cost associated with each of the Commission's 
recommendations, where applicable. The U.S. Commission on Ocean Policy 
arrived at $3.9 billion as the total increase in annual funding needed 
to carry out its recommendations. Again, this figure represents funding 
needs of all Federal agencies with ocean-related responsibilities, 
including $1 billion to coastal states.
    It is not clear how much of the $2.9 billion in additional funding 
for Federal programs and activities would need to be directed 
exclusively to NOAA, though it would be a significant share. Overall, 
the majority of the cost estimates offered by the U.S. Commission are 
not connected with large, visible, new projects, but with less tangible 
(yet equally important) everyday improvements in existing ocean and 
coastal management programs. The U.S. Commission's final report also 
acknowledges that there are many other important activities with 
significant implications for oceans and coasts whose costs, even if 
known, are not included in the total provided. Examples include: 
upgrading wastewater and drinking water infrastructure; ongoing 
flagship projects, such as the restoration of the Florida Everglades, 
Chesapeake Bay, coastal Louisiana, and San Francisco Bay; maintenance 
and improvements to Federal offices, laboratories, and other 
facilities; and renewing the U.S. Coast Guard fleet.
    Given the short- and long-term implications associated with climate 
change, ocean acidification, endocrine disrupters, and continued 
habitat loss, it is clear that NOAA's budget, as well as those of its 
sister agencies, is inadequate to meet these and other emerging 
challenges facing our Nation's oceans, coasts, and Great Lakes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Leon E. Panetta

    Question 1. Our understanding of ocean acidification due to global 
warming is very recent, and was not covered in the two Oceans reports.
    Will the Joint Ocean Commission Initiative address the threat 
global warming poses to our oceans, and will it make it a priority?
    Answer. Climate change has serious implications for the health of 
our oceans. The specter of abrupt climate change and a growing 
awareness of the impacts that more gradual climate change can have on 
coastal development, ecosystems, and human health call for significant 
improvement in climate research, monitoring, assessment, and prediction 
capabilities. Understanding the role of the oceans in climate is an 
area in need of particular attention. For this reason, we continue to 
support the creation of an Integrated Ocean Observing System and other 
programs that further our understanding of the link between atmospheric 
and marine processes.
    Given the direct role the oceans play in climate processes, the 
Joint Ocean Commission Initiative will continue to push for enhanced 
funding not only to better understand the implications of climate 
change, such as ocean acidification, but also to implement policies and 
measures to mitigate its impacts on ocean and coastal resources.

    Question 2. As we consider the state of our oceans, and their 
future, how important is it to strengthen and expand our ocean 
education programs for all grade levels?
    Answer. Numerous studies, and most recently the National Academies 
report, Rising above the Gathering Storm, indicate that the United 
States is not preparing its citizens to sustain and build on the 
Nation's past scientific and technological accomplishments and compete 
successfully in an increasingly complex world. At the same time, the 
lack of public awareness about the importance of the ocean hampers 
efforts to develop a balanced approach to the use and conservation of 
marine resources.
    Evidence has shown that integration of environment-based programs 
into the overall education system can increase student academic 
achievement in a number of critical areas. Therefore, we support 
incorporating ocean-based learning experiences into K-12 education in 
the belief that it can redress alarming deficiencies in both technical 
and scientific achievement and basic understanding of the critical role 
the oceans play in our world.

    Question 3. I believe some of my colleagues are skeptical of having 
NOAA take a lead role in ocean education, preferring it to be done by 
the Department of Education, or just leaving it to the states.
    Do you agree with me that providing NOAA with a clear mandate to 
lead our Federal ocean education efforts is the right approach?
    Answer. There are growing numbers of ocean-related education and 
outreach activities occurring at all levels of government and within 
the nongovernmental sector. The lack of a coherent strategy for 
aligning these activities is compromising their effectiveness and 
limiting their capacity to generate additional funding support. 
Therefore, we encourage Congress to mandate the development of a 
national ocean education and outreach strategy that coalesces and 
integrates the existing array of independently conceived and 
implemented education and outreach programs and activities.
    Congress should work with the President to establish a governing 
body responsible for developing a national ocean education and outreach 
strategy. The strategy should enhance educational achievement in the 
natural and social sciences, increase ocean awareness, include a five-
year plan for formal and informal activities, and facilitate links 
among Federal, state, local, and nongovernmental programs. We believe 
that NOAA and NSF should be given the lead for this activity, and 
Congress should look for opportunities to increase support for 
successful programs within these and other agencies, such as the NSF 
Centers for Ocean Science Education Excellence.
                                 ______
                                 
                                   The Marine Mammal Center
                                      Sausalito, CA, August 2, 2006
Hon. Barbara Boxer,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Boxer,

    The Marine Mammal Center enthusiastically supports your initiative 
to implement recommendations of the Pew Oceans Commission and the U.S. 
Commission on Ocean Policy. As you know, we do research on marine 
mammal health through the opportunity offered by our work along 600 
miles of California coastline in rescuing and rehabilitating thousands 
of seals, sea lions, dolphins, whales, and sea otters. Because animals 
in our care offer us a unique opportunity to do blood and tissue 
analysis, we have discovered conditions that bear upon the work of the 
two Commissions regarding the health of the ocean.
    Recent findings that show disturbing trends bearing directly on 
your hearing on August 3 include the following:
    Cancer in California sea lions--About 18 percent of the adult sea 
lions that die at The Marine Mammal Center have cancer in the urinary 
tract area. Research suggests that this tumor is caused by a 
combination of Polychlorinated Biphenyls (PCBs) acquired through their 
diet, a herpes virus, and genetics. Persistent contaminants, like PCBs, 
are still present in sea lions' diets and in food also eaten by humans.
    Antibiotic resistance in marine mammals--Research at The Marine 
Mammal Center has shown that marine mammals admitted to The Center have 
bacteria with resistance of up to eight kinds of antibiotics, showing 
that these drugs used to treat humans and pets are finding their way 
into our oceans.
    Domoic acid poisoning--In 1998, The Marine Mammal Center identified 
an algal bloom as the source of domoic acid poisoning in California sea 
lions. The condition causes brain damage in the animals after eating 
fish that have fed on the algae. The sea lions are admitted exhibiting 
violent seizures. Subsequent research is indicating that the long-term 
survival of the California sea lion is very questionable after they are 
poisoned. We have also found that transmission of the poison via the 
placenta in affected pregnant females does affect unborn pups and cause 
miscarriages.
    In the past 3 years, we have also found that domoic acid poisoning 
is affecting species other than the California sea lion. We have 
discovered it in a harbor seal, gray and humpback whales, and in 
southern sea otters.
    Reasons for the increase in domoic acid producing algal blooms off 
the California coast are unclear, but possible factors include 
increases in agricultural run-off, over-fishing and global warming.
    The increasing concern about this issue is highlighted by the Los 
Angeles Times Series, entitled ``Altered Oceans,'' which began July 29. 
We have enclosed the second article in that series (July 31) about The 
Marine Mammal Center and its pioneering work investigating domoic acid 
poisoning.
    The diseases affecting marine mammals along the California 
coastline are of great concern to the global scientific community. Our 
veterinarians have presented at several symposia, such as the American 
Association for the Advancement of Science in February of this year. 
Enclosed is an article appearing in the June edition of BioScience, 
entitled ``Sea Sickness: The Upsurge in Marine Diseases,'' which 
discusses The Marine Mammal Center's research into domoic acid toxicity 
and cancer in sea lions.
    As always, we are pleased to be able to answer questions and 
provide further information with respect to the knowledge we have 
gained through our marine mammal hospital work. Thank you for your 
support of this vast and precious resource--our oceans and coastal 
environment.
        Sincerely,
                                              B.J. Griffin,
                                                Executive Director.
                                 ______
                                 
                               Attachment

The Marine Mammal Center Participates in National Scientific Symposium
Dr. Frances Gulland To Speak About Domoic Acid Intoxication of 
        California Sea Lions
    (Sausalito, Calif.--February 17, 2006)--Dr. Frances Gulland, 
Director of Veterinary Science at The Marine Mammal Center in 
Sausalito, California, will speak at the American Association for the 
Advancement of Science (AAAS) Annual Meeting in St. Louis, Missouri on 
February 17. In this symposium entitled: Rising Tide of Ocean Plagues, 
Dr. Gulland will present a look at domoic acid intoxication in 
California sea lions and the concern over the increasing numbers of 
harmful algal blooms that negatively impact sentinel species like sea 
lions as well as the potential impacts these blooms have on human 
health.
    The first recognized outbreak of domoic acid toxicity in humans 
happened in Canada in 1987. Approximately 150 people were reported ill 
with neurological and gastrointestinal symptoms after ingesting 
contaminated cultivated blue mussels. In 1998, the first confirmed 
domoic acid poisoning of marine mammals occurred on the California 
coast. During a month long period, 70 California sea lions stranded 
along the central California coast near San Luis Obispo--all suffered 
from the clinical symptoms of the poisoning, which include head 
weaving, tremors and convulsions. The majority of the affected animals 
were adult females of which 50 percent were pregnant. No adult males 
were affected. Two years later a similar outbreak occurred in the same 
region--this time 187 sea lions stranded with the poisoning. More than 
half of the sea lions affected with the biotoxin in both of those years 
died. Outbreaks continue in southern and central California waters with 
nearly 1,000 sea lions affected in 2005.
    The origin of the domoic acid responsible for this mortality event 
was a bloom of P. australis that developed in Monterey Bay in May 1998. 
Anchovies collected during the peak of the bloom had high levels of 
domoic acid in tissues. ``California sea lions are high level 
predators, feeding on species that often enter the human seafood market 
such as anchovies, sardines, salmon and squid,'' said Dr. Frances 
Gulland. ``These sub-lethal effects of domoic acid on California sea 
lions are likely to be similar to effects that could occur in humans if 
they were to be exposed to similar levels of this toxin by eating 
contaminated seafood.''
    Since 1994, Dr. Gulland has provided medical care for thousands of 
seals and sea lions at The Marine Mammal Center, has published over 100 
peer-reviewed articles, and is coeditor of the CRC Handbook of Marine 
Mammal Medicine. She chaired the working group on Marine Mammal Unusual 
Mortality Events for 6 years, sits on Recovery Teams for the Hawaiian 
monk seal and southern sea otter programs, and is a member of the 
committee of scientific advisors to the Marine Mammal Commission.
    The Marine Mammal Center is a nonprofit hospital headquartered in 
Sausalito, California. Staff and volunteers are dedicated to the rescue 
and rehabilitation of ill and injured marine mammals, to research about 
their health and diseases and to public education about marine mammals. 
Since 1975, more than 11,000 California sea lions, elephant seals, 
porpoises, and other marine life have been treated, rescued along 600 
miles of coastline from Mendocino County to San Luis Obispo County. 
Staff and volunteers uniquely combine rehabilitation with scientific 
discovery and education programs to advance the understanding of marine 
mammal health, ocean health and conservation. On the Web: 
www.marinemammalcenter.org.
Herpes, Genes and PCBs Are Factors in Cancer in California Sea Lions
Dr. Frances Gulland To Speak at National Scientific Symposium
    (Sausalito, Calif.--February 18, 2006)--Dr. Frances Gulland, 
Director of Veterinary Science at The Marine Mammal Center in 
Sausalito, California, will speak at the American Association for the 
Advancement of Science (AAAS) Annual Meeting in St. Louis, Missouri on 
February 18. In a symposium entitled: Marine Mammals on the Front Line: 
Indicators for Ocean and Human Health, Dr. Gulland will present a look 
at cancer in California sea lions and in particular, she will explain 
how PCB contaminants, herpes and genes play a role in cancer 
development and how this trio interaction is a model for neoplasia in 
other marine mammals including humans.
    California sea lions are abundant on the Pacific Coast and feed 
high on the marine food web shared by humans. Post-mortem examinations 
conducted by The Marine Mammal Center of adult California sea lions 
following stranding along the central California coast revealed an 18 
percent prevalence of cancerous tissue, which is extremely high for a 
wild animal. The predominant abnormal growth was a poorly 
differentiated carcinoma of urogential origin, occurring in sexually 
mature animals of both sexes. In addition, tumor tissue samples 
revealed that there is a direct correlation between the otarine 
herpesvirus-1 (OtHV-1), genetics and polychlorinated biphenyl.
    ``What we've learned in examining the tumors of these sea lions is 
that PCBs are one factor that influences carcinoma development and that 
these PCBs are acquired in the sea lions' diet--a diet that is similar 
to humans,'' said Dr. Gulland. ``This is significant because the sea 
lions are providing us with an early warning of toxic compounds in our 
food chain.''
    The Center collaborated with researchers from University of St. 
Andrews, Scotland, National Marine Fisheries Service in Seattle and the 
Institute of Zoology, London, U.K.
    Since 1994, Dr. Gulland has provided medical care for thousands of 
seals and sea lions at The Marine Mammal Center, has published over 100 
peer-reviewed articles, and is coeditor of the CRC Handbook of Marine 
Mammal Medicine. She chaired the working group on Marine Mammal Unusual 
Mortality Events for 6 years, sits on Recovery Teams for the Hawaiian 
monk seal and southern sea otter programs, and is a member of the 
committee of scientific advisors to the Marine Mammal Commission.
    The Marine Mammal Center is a nonprofit hospital headquartered in 
Sausalito, California. Staff and volunteers are dedicated to the rescue 
and rehabilitation of ill and injured marine mammals, to research about 
their health and diseases and to public education about marine mammals. 
Since 1975, more than 11,000 California sea lions, elephant seals, 
porpoises, and other marine life have been treated, rescued along 600 
miles of coastline from Mendocino County to San Luis Obispo County. 
Staff and volunteers uniquely combine rehabilitation with scientific 
discovery and education programs to advance the understanding of marine 
mammal health, ocean health and conservation. On the Web: 
www.marinemammalcenter.org.
                                 ______
                                 
                               Attachment

                    Los Angeles Times, July 31, 2006

            Part Two--Altered Oceans: Sentinels Under Attack

 TOXIC ALGAE THAT POISON THE BRAIN HAVE CAUSED STRANDINGS AND MASS DIE-
         OFFS OF MARINE MAMMALS--BAROMETERS OF THE SEA'S HEALTH

                          By Kenneth R. Weiss

    After the last patient of the day walked out the front of Raytel 
Medical Imaging clinic, veterinarian Frances Gulland slipped an 
oversized animal crate through the back door.
    Inside was a California sea lion. The animal was emaciated, 
disoriented and suffering from seizures.
    A female with silky, caramel-colored fur, wide-set eyes and long 
whiskers, she was named Neuschwander, after the lifeguard who had found 
her 6 weeks earlier, comatose and trembling under a pier at Avila Beach 
near San Luis Obispo.
    Taken to The Marine Mammal Center near Sausalito, Neuschwander 
showed signs of recovery at first. Her eyes began to clear and focus. 
She frolicked in the small pool in her chain-link enclosure and wolfed 
down mackerel at feedings. Then she relapsed.
    She quit eating and lost 40 pounds. Her sunken eyes darted around, 
as if tracking a phantom just outside the cage. Her head bobbed and 
weaved in erratic figure eights.
    Neuschwander was loaded into a crate at the nonprofit center, the 
world's busiest hospital dedicated to the care of wild marine mammals, 
and trucked across the Golden Gate Bridge. Gulland, the Center's 
Director of Veterinary Science, wanted to scan Neuschwander's brain at 
the imaging clinic.
    After sedating the sea lion, Gulland and four assistants lifted the 
animal onto a gurney. They inserted a breathing tube into her throat 
and rolled the gurney into the great thrumming MRI machine.
    Gulland, an upbeat, 46-year-old native of Britain, took a last look 
at Neuschwander as the machine closed around her. She hoped the sea 
lion could be saved.
    Neuschwander was exhibiting the classic symptoms of domoic acid 
poisoning, a condition that scrambles the brains of marine mammals and 
causes them to wash ashore in California as predictably as the spring 
tides.
    They pick up the acid by eating anchovies and sardines that have 
fed on toxic algae. Although the algae have been around for eons, they 
have bloomed with extraordinary intensity along the Pacific Coast for 
the last 8 years.
    The blooms are part of a worldwide pattern of oceanic changes that 
scientists attribute to warming waters, excessive fishing, and a 
torrent of nutrients unleashed by farming, deforestation and urban 
development.
    The explosion of harmful algae has caused toxins to move through 
the food chain and concentrate in the dietary staples of marine 
mammals.
    For the last 25 years, the Federal Government has tracked a steady 
upswing in beach strandings and mass die-offs of whales, dolphins and 
other ocean mammals on U.S. coasts.
    More than 14,000 seals, sea lions and dolphins have landed sick or 
dead along the California shoreline in the last decade. So have more 
than 650 gray whales along the West Coast.
    In Maine 2 years ago, 800 harbor seals, all adults with no obvious 
injuries, washed up dead, and in Florida the carcasses of hundreds of 
manatees have been found in mangrove forests and on beaches.
    The surge in mortality has coincided with what Florida wildlife 
pathologist Greg Bossart calls a ``pandemic'' of algae and bacteria. 
Although some of the deaths defy easy explanation, telltale biotoxins 
have turned up in urine, blood, brains and other tissue.
    Sometimes the toxins kill animals outright, such as the manatees 
found dead in Florida, blood streaming from their noses.
    In other cases, they kill slowly by promoting tumor growth or 
compromising immune systems, leaving marine mammals vulnerable to 
parasites, viruses or bacteria. Scientists believe the episodic die-
offs of bottlenose dolphins along the Atlantic and Gulf Coasts that 
began in the late 1980s may stem from toxic algae that weaken the 
animals and enable a virus related to canine distemper to attack the 
lungs and brain.
    Sea turtles in Hawaii have been found with fist-sized tumors 
growing out of their eyes and mouths and behind their flippers. 
Scientists say the growths are the result of a papilloma virus and an 
ancient microorganism called Lyngbya majuscula, which appears as a 
hairy weed that has been spreading in tropical and subtropical waters. 
The tumors doom the turtles by inhibiting their ability to see, eat or 
swim.
    As they watch the oceans disgorge more dead and dying creatures, 
scientists have come to a disquieting realization: The proliferation of 
algae, bacteria and other microbes is making the oceans less hospitable 
to advanced forms of life--those animals most like humans.
    ``Marine mammals share our waters, eat some of the food we eat and 
get some of the same diseases we get,'' said Paul Sandifer, Chief 
Scientist for the Oceans and Human Health Initiative of the National 
Oceanic and Atmospheric Administration.
    ``If environmental conditions are not good for these sentinels of 
the sea, you can believe it won't be good for us either,'' Sandifer 
said. ``What we allow to flow into the sea will come back to bite us. 
You can bet on it.''
    Marine algae, or phytoplankton, occur naturally and make up the 
first link in the oceanic food chain. A quart of seawater typically 
contains hundreds of thousands of phytoplankton and millions of 
bacteria, viruses and protozoans, all in concentrations that keep each 
other in check.
    That equilibrium can be upset when certain types of algae overwhelm 
their competitors. The change is most pronounced in coastal waters, and 
scientists believe it is tied to nutrient pollution from a variety of 
human activities.
    Toxic algae thrive on the same elements that turn lawns green and 
make crops grow--nitrogen, phosphorus and iron.
    California, the Nation's most populous state with more than 36 
million people, sends billions of gallons of partially treated human 
waste into the ocean every day. Sewage treatment cuts down on disease-
causing bacteria but does little to remove nutrients.
    Seasonal rains carry enormous loads of urban and agricultural 
runoff into the ocean, much of it down drainage canals and rivers from 
the dairies, orchards and farms that make California the Nation's 
largest agricultural producer.
    The destruction of coastal wetlands, which filter nitrogen and 
other nutrients, also plays a role, as does over-harvesting of 
shellfish and sardines, menhaden and other algae-eating fish.
    Climate change is another factor. Warmer seawater speeds up 
microbial growth and allows aggressive algae and bacteria to move into 
areas once too cold for them. Commercial ships can help the spread, 
transporting the algae in ballast water.
    The type of algae that poisoned Neuschwander began blooming 
riotously in California waters in 1998.
    It has the tongue-twisting name Pseudo-nitzschia (SUE-doh NICH-e-
yah). A fraction of the thickness of a human hair, this javelin-shaped, 
single-cell organism slides through seawater on a coating of mucus and 
churns out domoic acid, a neurotoxin.
    Pseudo-nitzschia blooms all along the West Coast, especially around 
bays and estuaries fed by major rivers. Unlike some other toxic blooms, 
which are often called red tides, these aren't visible because their 
greenish-brown coloring blends into the seawater.
    Researchers studying Pseudo-nitzschia off the mouth of the 
Mississippi River have unearthed evidence in the seafloor that 
agricultural runoff from the Nation's heartland triggers the outbreaks.
    Scrutinizing core samples from five locations in the Gulf of 
Mexico, they found thick layers of microscopic silica shells of Pseudo-
nitzschia that coincided with a deposit of nitrates and sediment that 
had flowed down the Mississippi.
    The evidence is preserved in strata that resemble a layer cake. It 
shows that Pseudo-nitzschia didn't proliferate until the 1950s, when 
grain farmers began widespread use of chemical fertilizers.
    In contrast to the Mississippi Delta, such telltale clues cannot be 
seen in marine sediments off the Pacific Coast because the seafloor is 
constantly being churned up.
    As a result, West Coast scientists have been looking for chemical 
signatures that would directly link river discharges to the toxic 
blooms.
    For the last 3 years, USC researchers David A. Caron and Astrid 
Schnetzer have focused on a ``hot zone'' of Pseudo-nitzschia spanning 
155 square miles of coastal waters off the mouths of the Los Angeles 
and San Gabriel rivers.
    The researchers are still looking for the link. But one thing is 
clear, said Caron, a biological oceanographer: ``There is a big dose of 
nutrients.''
    Knowing about the effects of domoic acid, scientists wonder whether 
algae blooms explain the freakish behavior of coastal wildlife observed 
periodically over the years.
    Some speculate that Pseudo-nitzschia caused the onslaught of crazed 
seabirds near Capitola, Calif., in 1961 that inspired Alfred 
Hitchcock's movie ``The Birds.'' Hitchcock, who was living in nearby 
Scotts Valley, read a newspaper story about sooty shearwaters ``wailing 
and crying like babies,'' crashing into streetlights and windows, 
nipping at people and vomiting up anchovies.
    In 1998, sailors in Monterey Bay began bumping into dark objects in 
the water. They thought they were floating logs. They weren't. They 
were the bodies of sea lions.
    That year, more than 400 washed ashore, dead or dying, victims of 
neurotoxic poisoning.
    California's five marine mammal rehabilitation centers were 
overwhelmed. Every year since, they have been crowded with sea lions 
trembling with seizures.
    This spring, the Marine Mammal Care Center at Ft. MacArthur in San 
Pedro was often as busy as an inner-city emergency room. Ailing sea 
lions were packed into chain-link cages. Rescue workers kept bringing 
in new patients in pickup trucks. The animals needed injections of 
anti-seizure medicine or had to be hooked up to saline drips to flush 
the neurotoxin from their systems.
    On one typical day, listless sea lions were flopped on their sides, 
flippers tucked in, too exhausted to lift their heads. One was 
agitated, head weaving to and fro, grunting and snorting. Another 
chewed obsessively on a flipper.
    All were females found comatose or acting strangely on the beach. 
Many were pregnant and had seizures just after giving birth.
    ``A California sea lion has as warm and strong of a maternal 
instinct with a newborn as you can see in any animal,'' said Robert 
DeLong, a government ecologist who has studied sea lions in their 
Channel Islands rookeries for 35 years.
    Domoic acid can destroy that maternal bond.
    Sea lions suffering from neurotoxic poisoning usually show no 
interest in their young. Some that previously cared for their pups shun 
them after suffering seizures or even attack them when they try to 
suckle.
    ``I came in 1 day and pieces of the pup were everywhere,'' said 
Jennifer Collins, a veterinarian who worked at the Marine Mammal Care 
Center in San Pedro. ``We initially thought someone had broken in and 
macerated one of the animals. Then we pieced it together and realized 
that a mother had done it to her own pup.''
    Scientists first became aware of domoic acid and its toxicity in 
1987, when three people died and at least 100 others were sickened 
after eating contaminated mussels from Prince Edward Island in Canada. 
Nineteen people were hospitalized with seizures, comas and unstable 
blood pressure.
    Many of the patients never recovered gaps in their memory, lending 
this malady a new name: amnesic shellfish poisoning. An examination of 
brain tissue from the three people who died showed severe loss of nerve 
cells, mostly in the hippocampus, a part of the temporal lobe that 
resembles a seahorse and plays a key role in memory and navigation.
    Reported cases of the illness are rare in North America because 
health authorities closely monitor shellfish for toxins and because 
such seafood makes up a tiny fraction of most people's diets. But for 
animals that consume little else, domoic acid is a recurring danger.
    The acid mimics a neurotransmitter, overstimulating neurons that 
retain memory. The acid prompts nerve cells to fire continuously until 
they swell and die.
    During spring and summer, when Pseudo-nitzschia blooms off the 
California Coast, male sea lions don't eat. They are too busy guarding 
their breeding territory on the Channel Islands, where females mate 
soon after delivering pups.
    The females, in contrast, are ravenous feeders while pregnant and 
while nursing. They gorge on anchovies and sardines that have fed on 
toxic algae. Domoic acid doesn't appear to affect the fish, but sea 
lions eat anchovies in such quantities that they accumulate a toxic 
load.
    Frances Gulland and other researchers have been collecting 
miscarried sea lion fetuses and stillborn pups on San Miguel Island. To 
their surprise, domoic acid has turned up in the urine of these pups.
    The neurotoxin is typically flushed from an animal in about 4 
hours. But Gulland found that domoic acid can penetrate the placenta, 
bathing a developing fetus in the neurotoxin for days.
    California sea lions have a keen sense of direction. Although their 
habitat ranges from British Columbia to Baja California, they return to 
the same breeding beaches on the same islands year after year.
    But after attaching satellite transmitters to the animals, Gulland 
and other researchers found that many victims of domoic acid 
poisoning--even those that appeared fully recovered--lost their way.
    Some swam hundreds of miles out to sea and were never seen again, 
bizarre behavior for creatures that spend their lives in coastal 
waters.
    Others washed up again on beaches, too addled to make it on their 
own. One swam in tight circles up the Salinas River.
    Neuschwander was one of those who could not find their bearings.
    After spending a month at The Marine Mammal Center near Sausalito 
last summer, the sea lion was eating voraciously and seemed so vigorous 
that Gulland thought she was ready to fend for herself again. She was 
released back into the ocean in San Mateo County.
    A week later, Neuschwander was found stranded again. This time, she 
was more than 100 miles inland from her natural home along the coast. 
She had traveled up rivers and drainage canals and ended up on a 
hillside near Sacramento International Airport.
    She had an enormous gash running from her chest to her back, 
possibly from a run-in with a barbed-wire fence. She snapped at anyone 
who came close.
    Back at The Marine Mammal Center, Neuschwander wouldn't eat and 
began weaving her head again in endless figure eights.
    Gulland and her staff shaved a wide band of fur off the sea lion's 
head, attached a dozen electrodes and hooked them to an 
electroencephalogram to measure brain activity. The needle jumped up 
and down, a sign that Neuschwander was continuing to have seizures, 
though there were no visible tremors.
    ``The damage to the hippocampuses will help trigger seizures, and 
further seizures will cause further cell damage,'' Gulland said. ``You 
get into this whole vicious cycle.''
    So Neuschwander was driven across San Francisco Bay and put into 
the MRI machine at Raytel Medical Imaging, a clinic near UC San 
Francisco Medical Center. After the magnets whirled, a computer screen 
displayed cross-section images of her brain.
    Dr. Jerome A. Barakos, a Clinical Professor and Director of neuro-
imaging at the clinic, appeared in his white coat. He was there to 
interpret the 250 images that spooled out of the machine.
    ``The anatomy of a sea lion is not too dissimilar to the human 
anatomy,'' Barakos said. He confirmed Gulland's fear. On the right side 
of Neuschwander's brain, the hippocampus was severely atrophied. It 
looked less like a seahorse than like a withered tail.
    Gulland paced around the lab, then pulled aside one of her 
assistants, Michelle Caudle.
    ``So do we euthanize her? Do we take her home and see how she 
does?'' Gulland asked.
    The two women shifted uncomfortably, arms folded across their 
chests. They talked about how the animal was losing weight and drifting 
in and out of delirium.
    At 140 pounds, Neuschwander was 60 to 80 pounds lighter than a 
healthy adult female.
    Caudle recalled how she wouldn't eat the ``happy fish,'' laced with 
sedatives, that sea lions normally gulp down. Neuschwander shredded it, 
then spat it out.
    ``She looks terrible,'' Gulland said. ``I didn't realize how thin 
she was. I mean, how much do we make her go through?''
    Gulland got a faraway look in her eyes. Her face drooped.
    ``I'm OK with it,'' Caudle said.
    ``I am too. That's why we do it, right?''
    To end the suffering.
    Gulland blinked back tears. She took a deep breath and rejoined the 
group to announce the decision.
    The team took five vials of blood for future studies. Then Gulland 
filled an enormous syringe with clear pink liquid, pressed the plunger 
and shot 15 ccs of sodium pentobarbitone, an overdose of the 
anesthetic, into a neck vein.
    Neuschwander let out one last, rasping breath.
    Gulland laid her hands on the sea lion's body. The heart fluttered 
for a long 2 minutes.
    Then it stopped.
                                 ______
                                 
                               Attachment

             BioScience Magazine, June 2006--Vol. 56 No. 6

              Sea Sickness: The Upsurge in Marine Diseases

                            by Yvonne Baskin

    Most visitors to salt marshes along the Southern California coast 
will spot Caspian terns, plovers, and sandpipers feasting on snails, 
crabs, and killifish at low tide. Only Kevin Lafferty and a few like-
minded colleagues look at the same scene and envision packets of 
parasites and pathogens on the move. Yet calculations by Lafferty and 
Armand Kuris show the biomass of trematode parasites alone--flatworms 
such as flukes--contained within the visible creatures may exceed that 
of the birds in a healthy estuary.
    ``Parasites and pathogens are everywhere, and that's a normal state 
of nature,'' says Lafferty, a U.S. Geological Survey Marine Ecologist 
at the University of California--Santa Barbara. ``Ecologists have been 
slow to truly recognize this because there's not a tradition of looking 
inside organisms. Yet parasitism is the most popular lifestyle among 
animals.''
    Nowhere is that truer than in the oceans, where both host and 
parasite diversity exceed that on land. Marine parasites (including 
disease-causing pathogens) are not just weighty and numerous, they also 
play powerful roles in orchestrating the makeup, diversity, and health 
of natural marine communities. In the marshes that Lafferty studies, 
for instance, trematodes manipulate the behavior and reproductive 
success of their multiple hosts: The worms castrate the snails they 
infect and use them to produce hordes of free-swimming trematode 
larvae; when the larvae burrow into the tissues of killifish, they form 
cysts in the brain that cause the fish to flash on their sides at the 
water's surface, where they are much more likely to be eaten by birds, 
in whose guts the worms complete their life cycle. Parasites also 
influence the physical habitat. Trematodes prevent infected cockles 
from burrowing in the mud, leaving shells exposed as hard surfaces 
where sessile organisms can attach. Just offshore, periodic bacterial 
disease outbreaks depress populations of kelp-grazing sea urchins and 
allow kelp forests to rebound.
    ``I think the general statement that parasites are embedded in and 
dominate food webs is true everywhere,'' Lafferty says. ``They're 
important because they're regulators. They tend to knock back common 
species, and that provides opportunities for biodiversity.''
    Increasingly, however, human activities are disturbing marine 
ecosystems and changing the dynamics of parasitism and disease in the 
oceans. Lafferty and Jessica Ward, of Cornell University, have found 
evidence that disease outbreaks are becoming more common in several key 
groups of marine animals, including mammals, turtles, corals, mollusks, 
and urchins, and many of these diseases are linked to human impacts on 
the oceans. Paradoxically, the most alarming finding of the study, 
Lafferty says, is a decline in reports of disease outbreaks in fishes. 
He attributes this to over-harvesting, which may have left many fish 
populations too sparse for infectious diseases to be transmitted 
between individuals.
    ``We've all seen increasing signs that the world's oceans are sick, 
and in some cases dying,'' says Andrew Dobson, of Princeton University. 
``These signs vary from increased disease outbreaks in marine mammals 
and corals to the sudden disappearance of once-common species. These 
things are occurring because humans are increasingly treating the 
oceans as an all-purpose toilet and garbage dump. By putting all this 
extra stuff in the oceans, we're creating problems not only for species 
that live in the oceans but ultimately for ourselves.''
    Stresses that can alter the emergence, spread, and impacts of 
diseases in the oceans include discharges of human sewage and 
agricultural runoff, windborne dust and pollution, introduction of 
exotic species, destruction of coastal habitat, harvesting of fish and 
shellfish, and rising global temperatures. These stresses interact in 
complex ways with pathogen distribution and virulence, host resistance, 
and other aspects of disease dynamics that researchers are just 
beginning to explore.

Sewage and Pathogen Pollution
    A major source of emerging diseases on land and in the sea is 
``pathogen pollution,'' the introduction of novel pathogens to a 
community. Ships taking on and discharging ballast water in coastal 
areas worldwide are undoubtedly spreading microbes and invertebrate 
parasites to new regions, but little effort has been made to document 
such introductions. A much more noticeable impact is coming from 
sewage, freshwater runoff, and windborne contaminants that bring land-
based pathogens into contact with ocean creatures.
    California sea otters, hunted to near extinction for their fur in 
the 1800s, have been federally protected for almost 30 years, but their 
rebound has been slowed by a high death rate.Nearly 40 percent of otter 
deaths are caused by disease, including some new to the oceans. One of 
the greatest challenges facing otters, says University of California--
Davis Parasitologist Patricia Conrad, is a protozoan parasite, 
Toxoplasma gondii, found in domestic cat feces; T. gondii can cause 
brain lesions, tremors, and seizures in otters. (The parasite infects 
humans and many other animals but can reproduce only in cats.) 
Toxoplasmosis is responsible for 17 percent of otter deaths and renders 
other otters more vulnerable to shark attack. Conrad has found 
antibodies indicating T. gondii exposure in 52 percent of dead otters 
and 38 percent of live ones. The infection risk triples for otters 
living near heavy freshwater outflows, which presumably carry cat feces 
washed from lawns, streets, and discarded kitty litter. Other assaults 
from the land facing sea otters include the brain parasite Sarcocystis 
neurona, carried in opossum feces, and valley fever caused by spores of 
the fungus Coccidioides immitis transported in wind-blown dust and 
eroded soil.
    In the Florida Keys, nearly 90 percent of the massive elkhorn 
coral--the most common reef-building coral in the Caribbean--has been 
lost since the mid-1990s, largely to a bacterial disease called white 
pox. The known pox pathogen is Serratia marcescens, a fecal gut 
bacterium of humans and animals. Marine Ecologist Kathryn Sutherland, 
of Rollins College in Winter Park, Florida, and microbiologist Erin 
Lipp, of the University of Georgia, screened water and sewage samples 
with molecular techniques and found that although the bacterium is rare 
in marine environments, it is common in human sewage and in nearshore 
waters contaminated by leaks from septic systems and injection wells. 
Using DNA fingerprinting techniques, they have matched one strain of 
the bacterium isolated from coral lesions to an isolate from human 
sewage, but they are still hunting down a definitive source for the 
known coral-killing strain.
    David Kline, of the Smithsonian Tropical Research Institute in 
Panama, points out that less than 10 percent of the sewage in Central 
America and the Caribbean receives any treatment at all before being 
dumped into the ocean. Sewage is ``turning our oceans into a giant 
petri dish that supports the rapid growth of bacteria that can kill 
corals,'' Kline says. His focus is not on novel pathogens in the sewage 
but instead on its role in spurring the normally beneficial bacteria on 
reefs to burgeon out of control and cause coral disease and death. 
Healthy corals live in a bacterial soup, coated with mucus or slime 
containing a distinct bacterial community whose growth is normally 
tightly regulated by the corals. Kline cultured bacteria from coral 
mucus and found that in high numbers they can kill their host. To find 
out what could spur such growth, he set up an experimental seawater 
system and tested individual runoff contaminants on live corals. 
Surprisingly, it was not the usual fertilizer nutrients, nitrate or 
phosphate, but instead simple sugars (dissolved organic carbon)--a 
component seldom measured in water quality tests--that allowed bacteria 
to overcome the coral's tight controls, grow aggressively, and cause 
disease. Not only do the sugars in runoff fuel the bacteria directly, 
but the nutrients also encourage the growth of algae.
    ``It's a positive feedback loop,'' Kline says. ``The bacterial 
disease kills coral and makes more room for algae to grow, and the 
algae make and release glucose during photosynthesis, spurring more 
bacterial growth and perhaps altering the pathogenicity of some of 
them.''

Toxic Algal Blooms
    The frequency of harmful algal blooms that produce toxins damaging 
to human and animal health appears to be increasing worldwide, and the 
suspected culprits include nutrient-laden runoff, eutrophication, over-
harvesting of algae-grazing fish, and perhaps climate warming. Several 
unusual die-offs of marine mammals have been linked to exposure to 
algal biotoxins: humpback whales to saxitoxin, Hawaiian monk seals to 
ciguatoxin, California sea lions to domoic acid, and bottlenose 
dolphins and Florida manatees to brevetoxin.
    Red tides--blooms of the dinoflagellate Karenia brevis--are 
becoming increasingly common along the Florida coast, and the 
brevetoxins they produce helped make 2005 the second deadliest year on 
record for endangered manatees, according to Gregory Bossart, a Marine 
Mammal Veterinarian and Pathologist at the Harbor Branch Oceanographic 
Institution in Fort Pierce, Florida. Manatees can literally be ``gassed 
to death'' by brevetoxin that has been aerosolized by wind and wave 
action, or poisoned while grazing on sea grasses, even weeks after the 
algal bloom has dissipated, Bossart notes. He attributes 17 percent of 
annual manatee deaths to red tides.
    Humans likewise can suffer neurotoxic shellfish poisoning from 
eating contaminated seafood or respiratory distress from inhaling 
brevetoxins. Bossart and his colleagues recently correlated frequent 
red tides off Florida's western coast with a 54 percent increase in 
emergency room admissions for pneumonia, asthma attacks, and other 
respiratory illnesses. He also suspects that chronic, repeated 
brevetoxin exposure can suppress the immune systems of manatees--and 
perhaps humans--making them more susceptible to infectious diseases. As 
a sentinel species, Bossart says, the manatee is ``Florida's 2000-pound 
canary.''
    Off the California coast, deaths of sea lions and other marine 
mammals due to domoic acid poisoning are increasing, along with the 
frequency of blooms of diatoms in the genus Pseudo nitzschia.
    ``Over the years, we've treated more than 10,000 seals and sea 
lions,'' recounts veterinarian Frances Gulland of The Marine Mammal 
Center in Sausalito. ``But on Memorial Day weekend 1998, we saw 
something we'd never seen before--over 70 big fat adult female sea 
lions stranded along the beaches of Monterey Bay having convulsions and 
seizures. Over half died within hours.''
    The sea lions had eaten anchovies and sardines that grazed on the 
toxin-producing algae. Since 1998, there have been repeated poisonings 
of sea lions by domoic acid, and more than 1,000 animals have died.
    Most recently, Gulland and her colleagues have learned that even 
sea lions that are not killed can suffer miscarriages and chronic, 
irreversible brain damage from repeated exposure to lower levels of 
domoic acid. As their brains decay, animals often chew their tails 
obsessively or become stranded or confused. Sick sea lions have 
wandered into farm fields and airports, and even onto the hood of a 
parked highway patrol cruiser. The toxin also crosses the placenta and 
damages the fetus, causing pregnant females to abort. ``We've now found 
domoic acid in aborted sea lion fetuses,'' she says.
    ``These aren't just abstract concerns for ocean health,'' Gulland 
points out. ``These sea lions that are washing up along the coast are 
getting poisoned from a diet they share with us.'' Indeed, domoic 
acid's toxicity was first noted 20 years ago when people who ate 
contaminated mussels suffered what came to be called ``amnesic 
shellfish poisoning.'' ``We now call Caesar salad [with its anchovy-
based dressing] `seizure salad,' '' she quips.

Pollutant-Pathogen Synergy
    The accumulation of persistent organic pollutants, heavy metals, 
and other land-derived contaminants in the marine food chain can also 
alter interactions between parasites and hosts in complex ways. 
Particularly for predatory fish and marine mammals at the top of the 
food chain, pollutants may weaken disease resistance.
    Among the sea lions that strand and die on California beaches, 18 
percent of adults have urogenital carcinomas, an extremely high cancer 
prevalence for a wild mammal, Gulland says. The general adult 
population also has a relatively high incidence of a sexually 
transmitted herpes virus infection: 22 percent among females and 43 
percent among males. Virtually all of the animals with carcinomas also 
have herpes infections, and their blubber contains much higher 
concentrations of organic pollutants (PCBs and DDT) than that of 
animals without cancers. Gulland believes that development of these 
cancers requires an interaction between herpes infection, pollutant 
exposure, and probably genetic factors.
    ``Herpes in sea lions is relatively benign,'' notes Dobson, who is 
collaborating with Gulland and others to model the interaction. 
``Unfortunately, if you're also exposed to relatively common organic 
pollutants, then this benign pathogen can become much more damaging, 
causing very aggressive carcinomas.''
    He modeled the expected dynamics of the sea lion population with 
herpes infection alone, with pollution alone, and with the two 
together. The results are counterintuitive: Pollutant-exposed females 
that get infected with herpes develop aggressive carcinomas, die more 
quickly, and have less chance of passing on the infection. 
``Ironically, this is working to wash the disease [herpes] out of the 
system,'' Dobson concludes. ``We know very little about synergisms 
between pollutants and other benign pathogens, but we think this might 
be the first well-documented example of many similar phenomena.''
    Dobson and Bernd Sures, of the University of Karlsruhe, Germany, 
have also examined an interaction, however, that illustrates how some 
parasites ``play major beneficial roles in ecosystems'' by helping to 
protect their hosts from toxicants. In particular, parasites such as 
acanthocephalid worms that feed on substances in the guts of fish may 
literally suck lead, cadmium, and other heavy metals out of their 
hosts, building up much higher concentrations of toxicants than the 
hosts. Modeling indicates that ``fish can stand a much more polluted 
environment if they're infected by worms,'' Dobson notes. ``So the 
worms are performing a significant and unexpected ecosystem service 
that we'll lose if eutrophication or other factors knock out 
parasites.''

Fish Farm Spillover
    Global transport of infected fish, shrimp, and shellfish for 
aquaculture and the spillover of parasites from fish farms to wild 
stocks also alter the dynamics of disease in coastal waters. Sea lice, 
for example (actually a crustacean, Lepeophtheirus salmonis), are 
emerging pathogens of wild juvenile salmon in the Pacific Northwest. 
Canada's British Columbia coast hosts 131 salmon farms holding 60 
million captive Atlantic salmon, and lice infection levels are higher 
closer to the pens. Yet the link between the farms and lice infections 
in wild fish remains controversial.
    Mathematical biologist Mark Lewis and doctoral student Martin 
Krkosek, of the University of Alberta, and colleague John Volpe, of the 
University of Victoria, used field experiments and models to document 
the transfer and spreading pattern of sea lice from a fish farm to 
12,000 juvenile wild chum and pink salmon as they approached, passed, 
and migrated into the sea 60 kilometers beyond the farm. Near the farm, 
Krkosek says, the rate of sea lice infections of the wild fish was 73 
times higher than the rate from ambient levels, and infections 
continued to exceed ambient levels for 30 kilometers of the migration 
route.
    The researchers are still working to calculate direct louse-induced 
mortality and examine how it interacts with other sources of mortality 
to affect the wild salmon population. But their data are already having 
an impact on farm management decisions. At least one major fish farming 
company has agreed to move its adult salmon pens to a site further away 
from a major wild salmon migration route, Lewis says.

Marine Disease Dynamics
    Understanding the changing dynamics of disease in the oceans is 
vital for managing fisheries, siting and managing marine reserves, 
protecting native species, and monitoring the health of marine 
ecosystems. Yet little baseline information exists on the origins, 
mechanisms, rates of spread, or frequency of disease in the oceans. In 
the past it has been difficult even to isolate the causative agent in 
disease outbreaks, although molecular biology is providing a powerful 
array of new diagnostic tools. Few studies have systematically tracked 
diseases over time, much less documented population- or community-level 
impacts in the sea. This is a situation, Dobson says, that calls for 
models.
    ``When you have little information, the most powerful things you 
have are models that allow you to explore `what if ' scenarios and what 
types of phenomena could create the patterns you're seeing,'' he says. 
``We use models as a kind of macroscope to try to see the bigger 
picture of what's going on, to understand the patterns we're seeing, 
and to try to point the finger at what is causing a particular 
problem.''
    Epidemiological models developed to help understanding and control 
of disease in humans and terrestrial wildlife populations, however, are 
ill suited to analyzing disease in marine systems. Ecologists have come 
up with a list of fundamental differences between land and sea that 
they believe must be considered in developing a new generation of 
models for use in understanding and managing marine disease:

        The ocean harbors greater host and pathogen diversity. Only 9 
        of the 34 phyla of animals on Earth are found on land, and the 
        greater diversity of life forms, body plans, and life histories 
        in the oceans offers a greater potential for novel host-
        parasite relationships. Also, more classes of organisms have 
        adopted parasitic lifestyles in the oceans.

        The ocean has more ``modular colonial'' animal hosts. Colonies 
        of genetically-uniform animals such as corals, sponges, and 
        bryozoans are unique to the oceans and may be more vulnerable 
        to virulent disease epidemics. Since relatively short-lived 
        invertebrates are the predominant hosts in the ocean, 
        epidemiological models based on humans or other animals with 
        lifetime immunity to a disease after exposure may not apply.

        Potential rates of disease spread are much faster in the ocean. 
        The ocean is generally a more open system with fewer barriers 
        to long-distance dispersal, and it offers more potential for 
        pathogens to survive long periods outside a host or in 
        secondary hosts.

        The record for documented spread of a disease was set by a 
        herpes virus epidemic in pilchards in 1995 that spread along 
        the southern coast of Western Australia, against the prevailing 
        currents, at more than 10,000 kilometers a year. The origin of 
        that epidemic remains in dispute, but the chief suspect is 
        frozen pilchard imported from Thailand to feed penned bluefin 
        tuna.

        ``That one is so fast, it's hard to explain using almost any of 
        the standard epidemiological models,'' says Hamish McCallum of 
        the University of Queensland. ``The virus is so infectious it 
        has proved impossible to maintain the pilchards in culture, so 
        it's hard to do lab investigations on the disease.''Despite 
        several other examples of rapid pathogen spread in the ocean, 
        he says, ``it's surprisingly frustrating when you try to find 
        general patterns because remarkably few cases have been 
        documented.''

    McCallum has used models to try to gain insight into the impact 
that marine protected areas might have on disease dynamics, since the 
goal of most reserves is to increase population densities of exploited 
species, and denser populations can sustain more parasites and 
pathogens. ``We know that fish farms have enormous disease problems 
that do spill over into the environment, so are reserves anything like 
that?'' he asks. Unlike fish farms, however, a reserve would only 
enable fish densities--and those of native pathogens--to return to 
natural preharvesting levels. ``I think the bottom line is that concern 
for pathogens is not an argument against reserves. It's most unlikely a 
reserve is going to cause an old disease to reemerge, although we need 
to be wary of highly virulent exotic pathogens getting into reserves,'' 
McCallum says.
    Lafferty says the return of natural parasite and pathogen levels in 
protected areas should be viewed as a good thing: ``I would hope to see 
an increase in native parasites in reserves. I think it would be a mark 
of their success. Pristine marshes have twice the abundance of 
parasites as degraded marshes.''
    The greater concern is what human pressures are doing to disease 
dynamics in the oceans at large. ``The oceans aren't as safe as they 
were when we all grew up,'' Dobson says. ``We used to see the ocean as 
a source of healthy food, healthy recreation. But if you're going to 
have a beach full of sick marine mammals, do you really want to go 
there for vacation? And you may think twice about sushi for lunch. The 
only way to deal with it is proper upstream legislation to reduce 
dumping of substances that are pouring into the world's oceans.''
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                             Mike Chrisman

    Question 1. We commend California and several other states that 
have taken positive steps to develop and begin to implement more 
coordinated approaches to regional concerns. Would it be beneficial to 
advance Federal legislation, inclusive of the state perspective, that 
establishes a national framework to help guide and advance the 
development and implementation of regional ocean governance plans? How 
would regional ocean governance work, and how do you react to fears 
expressed that such a structure will bring unnecessary bureaucracy?
    Answer. The need to pursue regional ocean governance was a major 
focus of the U.S. Commission on Ocean Policy. California already has 
several processes in place within the state that use regional 
governance approaches. Examples include the regional approaches being 
taken for our Southern California Wetlands Recovery Project, the Marine 
Life Protection Act, and our approach to offshore observation systems. 
California, and other states, have made advancements through the use of 
sound regional approaches. In other areas of the country such as the 
Gulf Coast, the Great Lakes and the Chesapeake Bay, regional approaches 
between states are ongoing. As you know, California, Oregon, and 
Washington just established the West Coast Governors' Agreement on 
Ocean Health to pursue regional actions that the three states can take 
together to address ocean and coastal policy.
    With regard to legislation, the Coastal States Organization just 
held a workshop at their September meeting in La Conner, Washington, to 
determine whether Federal legislation would help and what the critical 
elements of that legislation should be. California, as chair of the 
Coastal States Organization, plans to work closely with the other 35 
coastal states, territories, and commonwealths to move this ball 
forward. This will not be a process to add bureaucracy, but rather an 
approach to use the most effective and efficient methods to address 
issues that affect not just individual states, but regions involving 
multiple states. This cannot be done absent enhanced coordination with 
Federal agencies and technical support and funding from the Federal 
Government.

    Question 2. California has always led the way on ocean and coastal 
protection. How can we help California and other coastal states 
continue to lead the effort of protecting our ocean resources?
    Answer. We want to continue the dialogue at the Federal level. 
California and other states are moving forward, but it is clear that 
more support from the Federal Government will be necessary. The Coastal 
States Organization will be working with Congress this year to help 
advance initiatives such as the need for regional ocean governance, but 
also for the reauthorization of critical Federal states and the need 
for adequate and sustained Federal funding for these efforts.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Mike Chrisman

    Question. Currently, innovation and competitiveness initiatives are 
being pursued as a result of recommendations from a National Academies 
report, Rising above the Gathering Storm. As you know, ocean and 
atmospheric science and education were not explicitly mentioned in the 
report. However, the U.S. Commission on Ocean Policy and other experts 
have identified ocean and atmospheric research as key to improving 
America's science education and competitiveness. That is why we include 
a section on ocean and atmospheric science in the Committee's American 
Innovation and Competitiveness bill. What benefits do you believe ocean 
and atmospheric research and education have for U.S. scientific 
advancement, education, and competitiveness? What programs do states 
have?
    Answer. This question involves two issues: science-research and 
education. I'll address science-research first and then discuss 
education. Governor Schwarzenegger's Ocean Action Plan makes a clear 
commitment to pursuing science and research to support our ocean and 
coastal management decisions. Our ocean-dependent economy is over $45 
billion a year and we cannot maintain our tourism, ports, fishing, or 
other ocean-dependent industries without the science to guide us. Of 
course the maintenance of our environment would be impossible absent 
that data. The Governor called on us to create an Information, 
Research, and Outreach strategy for the state. That document is 
complete and was cited as a national example by Admiral James Watkins 
and Leon Panetta (former Co-Chairs of the U.S. and Pew Ocean 
Commissions). We followed up by beginning to fund research identified 
in that plan through the activities of our recently formed Ocean 
Protection Council. We are also using it to guide our comments on the 
national ocean and coastal research plan being developed by the Joint 
Subcommittee on Ocean Science and Technology. Our coast and ocean 
environment and economy cannot be maintained absent this type of 
applied science.
    The Governor and our Ocean Protection Council are also making ocean 
and coastal education a priority. This is occurring through new 
educational standards being developed in the K-12 system in 
coordination with a statewide educational initiative. Of course we also 
encourage this by funding research and education at the University 
level. One thing the Governor emphasized in his ocean action plan was 
the need to bring average members of the public to the table. In 
response to this, California has just released the ``Thank You Ocean'' 
campaign in cooperation with the National Oceanic and Atmospheric 
Administration. The idea of this campaign is to reach the average 
citizen through all media forms (television, billboards, Internet) and 
tell them what they can do for the ocean and coastal environment and 
where they can get information. This campaign was released at the 
International conference ``California and the World Ocean 2006'' where 
we convened 1,100 people from all over the world to educate one another 
about the science and policy challenges for maintaining a vibrant ocean 
environment and economy.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Mike Chrisman

    Question 1. As we consider the state of our oceans, and their 
future, how important is it to strengthen and expand our ocean 
education programs for all grade levels?
    Answer. This is quite important and it is being pursued in 
California. We are currently undertaking a revision to our K-12 
standards to incorporate ocean and coastal programs. Please see our 
response to Senator Inouye which goes into this issue in some detail.

    Question 2. I believe some of my colleagues are skeptical of having 
NOAA take a lead role in ocean education, preferring it to be done by 
the Department of Education, or just leaving it to the states. Do you 
agree with me that providing NOAA with a clear mandate to lead our 
Federal ocean education efforts is the right approach?
    Answer. We believe that this should be a partnership involving both 
Federal entities and the states. Put simply, the Department of 
Education is and should be the lead for K-12 education. It is in all of 
our best interests for coastal and ocean issues to be incorporated into 
their programs. NOAA is our Federal leader in ocean and coastal 
protection and management, and education is and should be a big part of 
that mandate because they should be the source of the majority of this 
information to be conveyed. The states are the ones on the ground and 
need to be part of the team. Our efforts in California to adjust the K-
12 curricula involve all these parties in a partnership that is 
ultimately administered by states through their local school programs.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
